<html>
<title> - ECONOMIC DEVELOPMENT IN THE MISSISSIPPI DELTA</title>
<body><pre>[Senate Hearing 106-825]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-825

             ECONOMIC DEVELOPMENT IN THE MISSISSIPPI DELTA

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
63-943                     WASHINGTON : 2001


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


                       COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

  Subcommittee on Agriculture, Rural Development, and Related Agencies

                  THAD COCHRAN, Mississippi, Chairman
ARLEN SPECTER, Pennsylvania          HERB KOHL, Wisconsin
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
SLADE GORTON, Washington             BYRON L. DORGAN, North Dakota
MITCH McCONNELL, Kentucky            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                RICHARD J. DURBIN, Illinois
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
  (ex officio)                         (ex officio)
                           Professional Staff

                           Rebecca M. Davies
                        Martha Scott Poindexter
                              Hunt Shipman
                               Les Spivey
                       Galen Fountain (Minority)

                         Administrative Support

                       Carole Geagley (Minority)


                             C O N T E N T S

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                        Office of the Secretary

                                                                   Page

Statement of Jill Long Thompson, Under Secretary for Rural 
  Development....................................................     1
Opening remarks..................................................     1
Prepared statement of Jill Long Thompson.........................     5
Budget request...................................................     7
Administrative expenses..........................................     7
Program budget request...........................................     8
Rural Housing Service............................................     8
Rural business-cooperative services..............................    10
Rural Utilities Service..........................................    11

                        DEPARTMENT OF EDUCATION

Statement of Judith Johnson, Deputy Assistant Secretary, 
  Elementary and Secondary Education.............................    12
    Prepared statement...........................................    16
Administration fiscal year 2001 budget requests..................    17
High standards for all students..................................    17
Modern school learning environments..............................    19
Targeted support for disadvantaged students......................    20
Improved mathematics achievement.................................    22
Improved literacy levels.........................................    22
Department of Education technical assistance.....................    23

                      DEPARTMENT OF TRANSPORTATION

Statement of Albert C. Eisenberg, Deputy Assistant Secretary for 
  Transportation Policy..........................................    24
The Mississippi Delta: Beyond 2000...............................    26
Prepared statement of Albert C. Eisenberg........................    66
U.S. Department of Transportation Assistance to the Delta........    67
Recent Transportation activities in the Delta....................    68
The Mississippi Delta Region initiative..........................    71

                       NONDEPARTMENTAL WITNESSES

Statement of Dr. Lester Newman, President, Mississippi Valley 
  State University...............................................    87
Statement of Dr. David Potter, President, Delta State University.    91
Statement of Dr. Tony Honeycutt, Dean of Career and Workforce 
  Development, Mississippi Delta Community College...............    94
Prepared statement of Dr. Tony L. Honeycutt......................    95
Statement of Arthur Peyton, Interim Director, Mid-Delta 
  Empowerment Zone Alliance......................................    98
Statement of Griffin Norquist, Chairman, Economic Development 
  Department, The Delta Council..................................   100

                               (iii) 

 
             ECONOMIC DEVELOPMENT IN THE MISSISSIPPI DELTA

                              ----------                              


                        TUESDAY, MARCH 14, 2000

                           U.S. Senate,    
         Subcommittee on Agriculture, Rural
                 Development, and Related Agencies,
                               Committee on Appropriations,
                                            Itta Bena, Mississippi.
    The subcommittee met at 9:30 a.m., on the fourth floor of 
the Mississippi Valley State University Administration 
Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senator Cochran.

                       DEPARTMENT OF AGRICULTURE

                        Office of the Secretary

STATEMENT OF JILL LONG THOMPSON, UNDER SECRETARY FOR 
            RURAL DEVELOPMENT


                            OPENING REMARKS


    Senator Cochran. Let me call the subcommittee hearing to 
order, first of all, to thank the officials here at Mississippi 
Valley State University for permitting us to convene the 
hearing on the campus.
    We're very grateful to all of you who have helped us 
organize the hearing and make the arrangements for the conduct 
of the hearing. We extend to you our sincerest appreciation.
    We are very happy to acknowledge the leadership of Dr. 
Lester Newman, who is President of Mississippi Valley State 
University. We've had an opportunity to meet in my office and 
talk about the plans for the university and how our office can 
be helpful in the appropriations process in Washington.
    We know that we have provided annually a curriculum 
enhancement appropriation for Mississippi Valley State 
University over the last several years which helps to enrich 
the curriculum and support the budget of this university.
    We hope to be able to build on that investment here at this 
university, because we know the important role that it plays, 
not only in the State of Mississippi, but regionally, and we 
acknowledge that and congratulate you for it.
    This morning we are convening the hearing here in the 
Mississippi Delta to review federally supported programs that 
are designed to promote economic development in this region of 
the country. Our hearing has been authorized by the Chairman of 
the Committee on Appropriations of the United States Senate, 
Senator Ted Stevens of Alaska.
    We are very happy to have representatives of three 
departments of our Federal Government here this morning to 
discuss the Delta Regional Authority, which has been proposed 
by President Clinton.
    We have reviewed some of the information that's been made 
available, but we thought it would be appropriate to have 
representatives of the departments that would be coordinating 
the activities of the Delta Regional Authority here today to 
discuss the plans and let us know more about the details of 
what we can expect from this program.
    We know that this has been an area of the country that has 
been beset with a lot of economic problems because of changing 
economic conditions. Agriculture, which had been the backbone, 
economically, of the Mississippi Delta for so long, has 
undergone a tremendous change in terms of the kind of work 
opportunities that are available, the support industries that 
are needed.
    The modernization of agriculture has meant the loss of a 
lot of traditional jobs here in the Mississippi Delta and the 
outmigration of a lot of the people who used to live here in 
the Delta. So to deal with these realities, we've had to 
reexamine what will work in terms of economic development and 
new job opportunities for this area.
    And I think that is going to be in this area of 
accommodating to the realities of change that we find our 
biggest challenges. I'm convinced that we have some resources 
here in this region that we haven't utilized to the fullest 
potential.
    And I'm particularly interested in trying to examine how we 
can better utilize our educational institutions. This 
university where we are today, others in the region, Alcorn 
State University, Delta State University, our community 
colleges, and of course, the elementary and secondary system, 
which is the bedrock, the center, the core, of our educational 
responsibility.
    But we have resources in this State that are significant in 
their potential to contribute to economic revitalization of 
this region, and the people who live here ought to be able to 
obtain the benefits, the full range of benefits, that could 
flow from the utilization of our educational institutions.
    So I welcome all of you who are here today. We will have 
another panel of witnesses following this initial panel of 
Government department representatives who come from the 
educational institutions and the other organizations who work 
for the economic betterment of the people of the Delta region.
    So I'm going to welcome our first panel and encourage you 
to make whatever remarks you would like to make at the hearing. 
We have your testimony that you have prepared which we 
appreciate, and those statements will be incorporated into the 
record in full.
    The Honorable Jill Long Thompson is Under Secretary for 
Rural Development from the United States Department of 
Agriculture.
    Dr. Judith Johnson is Deputy Assistant Secretary for 
Elementary and Secondary Education from the Department of 
Education, and Dr. Albert C. Eisenberg is Deputy Assistant 
Secretary for Transportation Policy at the United States 
Department of Transportation.
    They make up our first panel of witnesses. We welcome you 
and thank you for being here. Ms. Thompson is not a stranger to 
the Delta. I know she's been here on several occasions in her 
capacity at the Department of Agriculture, and we appreciate 
her long interest in our State and her presence here today. I'm 
going to ask Secretary Thompson to begin our hearing.
    Ms. Thompson. Thank you, Mr. Chairman. And it really is a 
pleasure to be here; and as you know, I've had an opportunity 
to be in the Delta and this part of Mississippi on a number of 
occasions. And it's a very, very pretty part of our country, 
and I'm very happy to be on the Mississippi Valley State Campus 
this morning. I thank you for having me here.
    I would like to talk about some of the successes that we've 
had this morning as well as why we feel it is so important that 
there be authorization and funding for the Delta Regional 
Authority. The DRA is a top priority of this administration and 
the President.
    He believes it is vital to improving the long-term economic 
security of this region. Legislation that would accomplish this 
goal S. 1622 and H.R. 2911 have been introduced in both the 
House and Senate.
    The goal of the Delta Regional Authority is to increase the 
amount of resources and also to improve the effectiveness by 
which those resources are used to address the present 
development needs in the Delta.
    The authority would provide for the long-term continuing 
coordination of resources in the local community. Creation of a 
new Federal agency will allow us to meet this goal by 
strengthening the Federal-State partnership and will provide an 
on-going targeted Federal presence in the region.
    As members of the authority, the Governors of the seven 
Delta States, and the Federal members will identify the 
projects that the authority will fund. Half of the authority's 
resources will be targeted to the most distressed counties in 
the region, and we expect the authority will actively work with 
existing economic development organizations to help identify 
and prioritize needs.
    Community-based organizations as well as State and local 
governments will be eligible to receive authority funding.
    We believe that it is very important that the families in 
the counties of the Delta have the same kinds of opportunities 
that families elsewhere enjoy, the opportunity to work, provide 
for their families, and to build financial security.
    To address such problems, the President's budget proposes 
this authority to bring the resources together. I am a firm 
believer and we do believe in the administration that the 
private sector is best suited to provide opportunities while 
the role of the Federal Government is to provide the economic 
environment, so the private sector can do what it does best, 
which is create opportunities.
    Over the past decade, USDA investments have created 
millions of jobs; however, the positive effects of the robust 
economy have not reached all rural areas. We see that in my 
home State of Indiana. We see that across the country.
    There are some particular challenges in the Mississippi 
Delta. I've been fortunate to travel throughout the country and 
to see successes, but also to see what the need is that exists 
currently.
    For example, in the 219 Delta Counties during the 1993-1998 
period, the average unemployment rate declined from 7\1/2\ to 
5\1/2\ percent.
    However, and you know this as well as anyone, there are 
still pockets of unemployment rates as high as 14 percent, and 
the poverty rates are still too high. Poverty in the Delta 
Counties remains at 175 percent of the national average; and in 
over half of the counties, the rates are still over 20 percent.
    This is evidence that full-time employment does not always 
ensure an income that's sufficient to provide for basic needs. 
In fact, over 60 percent of the rural families live below the 
poverty line still have at least one member of the family fully 
employed.
    These are also the areas that tend not to have the capacity 
to compete successfully for economic development of Federal 
financial assistance. I think you appreciate this as much as 
anyone. In our small rural communities, we have a lot of the 
people who work two jobs. They have their regular job that 
oftentimes doesn't pay very well and virtually volunteer their 
services to hold a local, public office.
    It's unlike in the urban communities across our country 
where in the urban communities you have folks who are employed 
full-time, who have master's degrees in public administration 
and their sole responsibility is to write grant applications 
for Federal and State and private funds.
    That's not the case in rural communities, and many of the 
communities that experience high unemployment rates, it's a 
particularly high challenge.
    Since 1993 the rural development mission area, over which I 
have responsibility, has invested approximately $3.5 billion in 
the 290 counties of the Mississippi Delta through the programs 
of the Rural Housing Service, the Rural Utilities Service, and 
the Rural Business Cooperative Service.
    While these investments, Mr. Chairman, are impressive, they 
should not be viewed in isolation. We estimate that the 
economic value of these investments to local economy in 
Mississippi is at least twice that amount.
    Let's see. As I was just mentioning--you know what I'm 
reminded of, my grandmother always told me if you wear shoes 
that squeaked, it means they are not paid for. I'm wondering 
since this is happening, I'm not telling the truth.
    But I am telling the truth. We estimate that the economic 
value of these investments to local economies in Mississippi is 
$2 billion.
    Additionally, we have made significant effort to attract 
other funding to each project that we finance so that we 
leverage the Federal dollars with State and local and, most 
significantly, the private sector dollars.
    The empowerment zones and the enterprise communities are 
one of the best examples of the success of this policy. Since 
December of 1994, there has been a total of $876 million 
invested in the original 3 empowerment zones and 30 enterprise 
communities. This includes $164 million by the private sector.
    Clearly, this coordinated effort is having an impact, and 
it's having an impact because of the leadership at the local 
level, in the local communities that make up the empowerment 
zones and the enterprise communities.
    I'm very proud of the accomplishments that we have been 
able to achieve through our various programs in rural 
development; and of course, they would not have been realized 
without the funding provided by Congress and the leadership you 
have provided on the Appropriations Committee on Agriculture. 
That has been very, very important to making things happen to 
rural communities in your home State of Mississippi as well as 
across the country.
    We've created a large number of jobs. We've been able to 
work with families to make it possible for them to own homes, 
and they would not have been able to do so without our 
programs.
    We've been able to fund health clinics and child care 
facilities and schools and libraries, police stations, and fire 
stations serving over 8 million rural residents as a result of 
our community facilities programs.
    We've been able to provide water and sewer funding. We've 
been able to accomplish a considerable amount. The biggest 
challenge that we've seen as we look to the future and look to 
trying to determine how we can make the dollars that we do 
spend do the greatest amount of good in the Mississippi Delta 
as well as across the country is to ensure a coordinated 
effort.
    I know from my experience in this position over the last 5 
years that just in the Mississippi Delta I have many groups and 
individuals come to me individually to talk about programs that 
they are putting together and to seek possible funding from the 
United States Department of Agriculture.
    Oftentimes, while the projects that are being proposed and 
often that come to fruition are very effective, they could be 
even more effective if there were some kind of a regional way 
that we could coordinate the efforts and the resources so that 
whether you're in Mississippi or in Arkansas or Southern 
Illinois, wherever you happen to be, that you might have access 
to information and resources in other parts of the Delta that 
are experiencing the same challenges.
    And that's why we feel that the Delta Regional Authority 
would be so valuable with most of the funding, as you know, 
going for technical assistance and programs, a very small 
amount of the funding going for the administration, for 
salaries and expenses; but it would be an opportunity to put 
into place and institutionalize the successes that have already 
taken place and that we hope to continue into the future. Thank 
you.

                           PREPARED STATEMENT

    Senator Cochran. Thank you, Ms. Thompson, for your 
statement and the helpful information that you provided to our 
hearing.
    [The statement follows:]

                Prepared Statement of Jill Long Thompson

    Mr. Chairman, Members of the Committee, it is a pleasure to present 
to you the President's fiscal year 2001 Budget Request for the Rural 
Development Mission Area of USDA. With your permission I will summarize 
my statement and request that the full text of the statement be 
presented in the hearing record.
    Before discussing the budget request for 2001, I am pleased to 
share with you some of the results of the funding the Committee 
provided Rural Development for fiscal year 1999. I am very proud of the 
results, and I think the Committee will be as well. With the $1.7 
billion appropriated for Rural Development programs in fiscal year 
1999, investments totaling $9.9 billion were made in rural people, 
communities and businesses. A conservative estimate of the economic 
impact of that investment is $18 billion. The following is a sample of 
the successes.
  --The investment in rural businesses, housing and community 
        infrastructure created or saved about 200,000 jobs.
  --Almost 66,000 rural families that could not otherwise qualify for 
        mortgage credit were able to buy or improve their homes; over 
        5,000 affordable rental units were added to the rural housing 
        stock; and 42,357 low-income households were able to obtain 
        decent housing at an affordable rent.
  --Almost 500 community facilities projects, such as health clinics, 
        child care facilities, schools, libraries, police stations and 
        fire stations serving over 8 million residents were built.
  --Almost 2 million rural residents were provided new or improved 
        public water supply or waste disposal systems; 2.8 million 
        rural residents received improved electrical service; 287 rural 
        schools and 131 rural health care providers benefitted from the 
        distance learning/telemedicine facilities.
  --Over 200 marketing networks and cooperative partnerships were 
        established or increasing their business outlets.
    While the aggregate statistics are impressive, they do not tell the 
human side of the story which is substantial, but is difficult to 
report statistically. Actual successes are described below.
  --The local job market in a small, rural community in Kentucky was 
        improved with the reopening of a local textile plant which had 
        been closed by a large national company. With assistance from 
        Rural Development, the plant was refurbished with modern 
        equipment and now employs 125 residents.
  --A single mother in rural Maine, suffering from memory impairment 
        due to an automobile accident, now has a home for herself and 
        her 6-year-old daughter. After the accident they had been 
        required to move several times and for a while lived in a 
        motel.
  --The 1,200 residents of a small town in Georgia will, for the first 
        time, have local health care and child care facilities. The 
        clinic will provide health care 7 days a week and the child 
        care facility will be open 24 hours a day to accommodate 
        children whose parents work at night.
  --A county-wide volunteer fire department in Texas replaced their 30-
        year-old radio equipment with new communications technology 
        which will allow direct communications with the county police 
        and emergency medical services.
  --Approximately 9,100 residents in the very isolated Bering Straits 
        region of Alaska will have improved health care. Diagnosis-
        quality images will be transmitted to medical specialists in 
        Anchorage from 15 villages, a clinic in tribal headquarters and 
        two health care providers in Nome. The residents are scattered 
        over 25,000 square miles with some having no road access.
    Mr. Chairman, as you and the Committee review the fiscal year 2001 
Budget request for Rural Development, please keep in mind that the 
reason each of these programs was authorized, in some cases decades 
ago, was concern that rural America was being left behind economically. 
Although there has been significant progress during the past three 
decades in addressing these needs, the poverty rate in many rural 
communities is still unacceptable. After showing some improvement in 
the 1970's, many rural areas are once again significantly lagging 
behind the improvement in the national economy. And more recently there 
has been increased concern about the future economic opportunities of 
rural communities due to the concentration of agricultural production 
and processing.
    We all know that, as farming operations increase in size and 
processing operations vertically integrate, ties to the rural community 
are weakened. Larger farms can purchase their inputs, including 
capital, from larger and more distant sources. Larger farms also find 
it easier to negotiate directly with processors rather than local 
buyers. This often results in less income being retained in local 
communities and less capital available for other business needs and for 
diversifying the local economy to counter the effects of concentration. 
This situation is exacerbated by consolidation in the banking, 
retailing, and in health care. Consequently, there are fewer rural 
economic hubs than once existed. And evidence shows that the greater 
the distance from an economic hub, the lower the economic growth rate.
    Mr. Chairman, although there have been significant successes in 
rural areas generated by the programs we administer, the Federal 
government is not, nor should it be, a substitute for the wealth 
generating capacity of the private sector. That is why we, in Rural 
Development, continue to stress that cooperatives are a good solution 
to some of the development needs in rural areas. Agricultural producers 
have the opportunity to maximize their position in negotiating prices 
for their commodities through marketing cooperatives. They can also 
increase their profits by utilizing cooperatives to process and add 
value to their commodities. An example is a new cooperative soybean 
processing plant whose farmer-owners will realize an additional forty 
cents per bushel. Most of the additional earnings remain in the local 
community. We would like to see more cooperative business operations 
such as this one and others that we have financed in recent years. 
Through market forces, member-owned cooperatives help grow local 
economies and rural communities.
    We believe it is our responsibility to assist the private sector 
make these opportunities a reality. This has been the focus and the 
message of the President's ``New Markets'' initiative to encourage the 
private sector to view poverty stricken rural and urban areas as 
potential market opportunities. Last fall I had the pleasure of 
accompanying the President to Hermitage, Arkansas, to demonstrate the 
success of a very small cooperative venture that includes 17 member 
producers. Three years ago before the cooperative was formed, these 
producers sold 3,400, 20 pounds cases of tomatoes worth $60,000, and 
fifteen of the producers were on the verge of bankruptcy. Last year the 
sales had increased to 570,000 cases worth $4 million. During peak 
season, the cooperative employs 120 people in a town with a population 
of less than 700.
    Other examples include a very small cooperative in northern Florida 
that is selling its fresh vegetables and fruits to local school 
districts. Some of the producers have seen their incomes triple as they 
provide very competitively priced, nutritious and fresh produce to 
school children. Rural Development was a partner in this cooperative; 
much of the work was done by the Natural Resources Conservation 
Service, the Farm Service Agency, and, of course, the farmers. Another 
success story is a wheat farmer's cooperative in Colorado who purchased 
a bakery that was closing. They now process their own wheat into bakery 
products that are sold to a national sandwich chain and local 
supermarkets in the Denver area. They have already exceeded their 
capacity and are looking at options for expanding their operations.
    In addition to the economic successes enjoyed by these operations, 
Mr. Chairman, is the satisfaction one sees on the faces of the 
producers when they realize they can be just as entrepreneurial as some 
of the ``dot com'' companies. Success breeds success. Seeing people 
realize they can be in charge of determining their future is one of the 
most rewarding parts of this job. A few years ago I told you of the joy 
I saw in people's faces after they had completed building their own 
homes through our mutual and self help housing programs--believe me, 
that joy is equaled when I see agricultural producers realize they can 
take greater control and generate greater profits in the food chain. 
They no longer feel captive of the markets.
    I urge each Member of the Committee to visit some of these 
operations and enjoy that experience for themselves. You have 
appropriated the funds that made it possible.


                             BUDGET REQUEST

    Mr. Chairman, the President's commitment to improving the economies 
of rural America continues and that is reflected in the budget request 
for fiscal year 2001. The Rural Development budget request for programs 
is $12.4 billion, $1.3 billion higher than the level enacted for fiscal 
year 2000. This level requires only about $300 million in additional 
budget authority, not counting what is requested in the Farm Safety Net 
proposals, which I will discuss later. But, Mr. Chairman, if the Rural 
Development Mission is to deliver programs of this amount and carry out 
our fiduciary responsibilities of protecting the $80 billion loan 
portfolio, we must have sufficient administrative expenses.

                        ADMINISTRATIVE EXPENSES

    The request for administrative expenses for fiscal year 2001 is 
$581 million, $48 million higher than appropriated for fiscal year 2000 
and includes $20 million increase in administrative expenses to support 
a new guaranteed loan accounting system and other system improvements. 
I realize the burden this places on the Committee, but the potential 
risk that may occur without the appropriate level of oversight far 
overshadows this cost. For example, between housing loans of the Rural 
Housing Service and the farm credit operations of the Farm Service 
Administration, we are obligating about $8 billion in guaranteed loans 
annually, and we do not have an automated accounting system that 
provides the capacity to manage these funds. This is irresponsible and 
is not a legacy that I want to leave.
    Yet, because we cannot afford to reduce staffing any further than 
we have, I have made the decision to reduce other administrative 
expenses, including investments in accounting systems, to maintain the 
staffing level needed to deliver the programs and do the best we can in 
managing the assets with which we have been entrusted. These were not 
good decisions, and are decisions I would prefer not to make. For 
example, when I became Under Secretary, the training budget for Rural 
Development was about $11 million. Over the past years we have reduced 
that budget to about $2 million in training that we classify as 
mandatory, i.e, training that is the minimum needed for our staff to 
perform at acceptable levels. The loan programs we administer are much 
more complex than anything found in the private sector, and we have a 
significant number of new employees that are coming on board. We are 
not providing them adequate training. We have also reduced travel from 
over $21 million to just over $11 million at a time when we need to 
travel more to adequately supervise and monitor our loan portfolio. We 
have made these decisions because we had to, but I have concerns about 
our ability to maintain our fiduciary responsibilities.
    Mr. Chairman, the $48 million increase requested for salaries and 
expenses is about 40 percent of the pay cost increases that we have had 
to absorb during the time that I have served in this job. Absorbing 
these costs is the same as a reduction as a reduction in funding.
    An important part of the efforts to modernize field operations for 
the Natural Resources Conservation Service, the Farm Service Agency and 
the Rural Development agencies is the effective consolidation of three 
separate and largely redundant administrative systems into one under 
the proposed Support Services Bureau. This is a glaring inefficiency 
that needs to be eliminated. Consolidated support would be provided for 
information technology, financial management, travel, procurement, 
civil rights and human resource management. These services would be 
provided under the direction of an Executive Director who would report 
to a board of directors comprised of the heads of the agencies to be 
serviced. Unfortunately, language in the fiscal year 2000 
Appropriations Act prevented us from implementing our plans for the 
Support Services Bureau. I would ask you to take a look at that 
language and work with us to move our operations into the modern world. 
By poling resources in the administrative arena, each agency will be in 
a better position to provide greater program support.
    Mr. Chairman, before I leave the area of administrative expenses, I 
would also like to advise the Committee that the Office of General 
Counsel is critical to our success in protecting the interest of the 
taxpayers. We consider the Office of General Counsel to be an integral 
part of our team, and they are particularly helpful to us in resolving 
the problems we encounter in our more complex lending programs, such as 
like the multi-family housing and the electric loan programs. They have 
my support and I believe they deserve the support of the Committee.
    Mr. Chairman, I would also like to take just a moment to discuss 
consolidation of some of the administrative systems that serve the 
Natural Resources Conservation Service, the Farm Service Agency, and 
Rural Development. We should not get bogged down in terms such as 
``Support Services Bureau'' that, in my opinion, may have confused the 
objective. Mr. Chairman, Members of the Committee, the Natural 
Resources Conservation Service, Farm Service Agency and Rural 
Development are, for the most part, located in the same offices, and we 
are going to share one information system. Does it not, therefore, make 
good sense that we have one personnel system, one travel administration 
system, and. one procurement system that serves all three?
    I would ask you to take another look at the language included in 
the fiscal year 2000 Appropriations Act that prevents us from 
implementing the plans for administrative consolidation; work with us 
to improve our administrative operations and place us in a better 
position to enhance delivery of the programs and services that each of 
us are entrusted, by Congress, to provide to the residents of rural 
areas.

                         PROGRAM BUDGET REQUEST

    Mr Chairman, I shall now discuss the requests for the various 
programs administered by Rural Development.

                         RURAL HOUSING SERVICE

    I was honored to attend the 50th anniversary of the single family 
housing loan program in December of last year in Georgia at the home 
built with the first loan issued under this program. The wife of the 
family with the first loan and the widower of the Farmers Home 
Administration employee making the first loan were also in attendance. 
While the ownership has changed, the home is still in immaculate 
condition. The story of how much this home, and hundreds of thousands 
like it, have meant to rural families, and rural communities, is 
something that should be told again and again. This country can be very 
proud of this home ownership program.
    The budget request for the programs administered by the Rural 
Housing Service totals $6.7 billion, almost $900 million more than the 
level appropriated for fiscal year 2000, requiring almost $200 million 
more in budget authority. This increase reflects the Administration's 
commitment to improving housing conditions in rural areas and, in 
particular, improving homeownership opportunities, a key ingredient in 
building stable communities and economies. The request for single 
family housing, direct and guaranteed loans totals $5.0 billion and 
will support about 64,000 housing units and, in the process, provide 
nearly 44,000 jobs, primarily in the construction trades.
    We are proposing a modest increase in the multi-family housing 
program which provides housing for some of our most vulnerable 
citizens. A significant portion of these units are occupied by female 
heads of household, generally elderly females or single mothers, with 
annual incomes of about $7,300. The budget request will provide for the 
construction of 1,400 units and the rehabilitation of over 4,000 
existing units. Mr. Chairman, while there is a significant need for new 
multi-family housing throughout rural areas, we also have a significant 
problem in meeting the need for rehabilitation of an aging portfolio, 
and in maintaining the availability of these units for very low income 
tenants. The request for the multi-family housing guaranteed loan 
program will provide for the construction of about 6,400 units. The 
request for rental assistance is $680 million, $40 million higher than 
the level available for 2000. Most of the request is needed to renew 
contracts for 42,800 units. Without rental assistance, it would be 
impossible to provide affordable rental housing for very low income 
families, most of whom have no other housing alternative.
    As I have told the Committee on many occasions, one of the great 
joys of this job is to see the satisfaction and absolute joy on the 
faces of families and their children when they have completed building 
their own homes with the help of new neighbors. The mutual and self 
help program is community building at the most basic level, neighbor 
helping neighbor in the construction of new homes. The Administration 
is requesting a significant increase in this grant program, $12 million 
which is used to provide the technical expertise and supervision during 
construction. Families participating in the program receive loans 
through the single family direct loan program.
    We are also requesting modest increases in the farm labor housing 
loans and grants and we are proposing $5 million be appropriated for 
emergency assistance for migrant and seasonal farm workers. This 
program, although authorized in the 1990 Farm Bill, was not funded 
until last year's emergency supplemental appropriations act. The 
contribution of migrant and seasonal farmworkers to feeding our nation 
is often overlooked. The $20 million made available for the first time 
last year is equally important and a very small cost to pay, compared 
to the value these families contribute to this economy. The assistance 
was used to pay back rent and utilities, school fees, and a number of 
other obligations that could not be met, due to natural disasters 
destroying the crops these individuals and families would have 
harvested.
    Mr. Chairman, I would also like to thank the Committee for having 
the foresight to provide $6 million in fiscal year 2000 for the Rural 
Community Development Initiative. These funds will be used by a wide 
variety of organizations to assist us in developing the capacity of 
rural communities to become more self-reliant. It is through these 
efforts that we endeavor to teach community leaders that dependence on 
the Federal government is not the answer to long-term economic 
problems. The communities, themselves, must develop the capacity to 
build local economies. It is also through efforts like this that we 
engage other organizations with resources to work with us in building 
homes for low income families. We are very proud of the number of 
funding partnerships we have established in the past couple of years. 
Through these efforts we are stretching the capacity of the tax dollars 
with which we are entrusted.
    Mr. Chairman, we are also requesting a significant increase in the 
low income housing repair loan and grant program, This program provides 
the very basic improvements in owner occupied single family homes to 
make the house safe and livable. However, the most important 
contribution of the program may be that it allows elderly men and women 
to live the remainder of their lives in their own homes with a degree 
of dignity. It is also one of the most utilized programs we have in 
most disaster situations. It was used extensively in North Carolina 
following Hurricane Floyd.
    The request for community facilities totals $484 million, $24 
million of which is for grants, including $6 million to continue the 
Rural Community Development Initiative which is being implemented this 
year, and $5 million for the hazardous weather early warning alert 
system, the need for which has been recently demonstrated again in 
rural Georgia. Increasing the community facilities grant program is one 
of our highest needs. We can accomplish more with this program than 
almost any program in our portfolio. As Members of the Committee 
realize, this program finances rural health facilities, child care 
facilities, fire and safety facilities, jails, education facilities, 
and almost any other type of essential community needed in rural 
America. However, it is very difficult to reach many of the more 
impoverished communities that are unable to repay loans. Additional 
grant funds are needed to offset the cost of these loans.

                  RURAL BUSINESS-COOPERATIVE SERVICES

    Mr. Chairman, the key to creating economic opportunity in rural 
areas is the development of new businesses and employment 
opportunities. This is primarily the role of the private sector. 
However, due to concentration and integration of the agriculture 
industry, and more recently the consolidation of the banking industry, 
local lending institutions frequently do not have the capacity or the 
capital needed to sustain local businesses and generate new growth. 
Further, something that should not be overlooked is that frequently, 
the Rural Business Service is only a partner, and sometimes a minor 
partner, in the loans made through these programs. We expend a lot of 
effort in every program, including housing and utilities, to leverage 
other monies into the projects we finance.
    The programs, particularly the Business and Industry loan guarantee 
program, were enacted to supplement the efforts of local lending 
institutions in providing that capital. The program requested for the 
Rural Business-Cooperative Service is $1.5 billion with the majority of 
the request for the Business and Industry Loan Guarantee program, $1.2 
billion, compared to $869 million in fiscal year 2000. We will also 
again establish a policy objective of $200 million of the total for the 
development or expansion of cooperative businesses. As you know, we 
have established similar priorities in other years, and while we have 
not yet achieved our objectives, the level used by cooperatives is 
increasing each year. For example, through the first quarter of fiscal 
year 2000, we almost matched the level used by cooperatives in fiscal 
year 1999.
    I am particularly pleased that this budget request includes funding 
for a Cooperative Equity Capital Fund which will be used to assist 
producer's of livestock and other cooperatives to counter the effects 
of market concentration. This request is included in the Farm Safety 
Net proposal as a mandatory expenditure of the Commodity Credit 
Corporation. I have mentioned that the lack of capital is a major 
problem that rural areas face in economic growth. While not everyone 
agrees on the degree to which capital is lacking in rural areas, there 
is agreement on the lack of equity capital, and this need is greatest 
when crop and livestock prices are depressed. More and more producers 
are beginning to realize that the only means of gaining a greater share 
of the food dollar is to own the processing or manufacturing 
facilities. We intend to use this program to meet some of that demand 
and we will be submitting legislation for the consideration of Congress 
outlining how we intend to use the program.
    Complementing this request is an increase in cooperative 
development grants which will be used to assist in the development of 
new cooperatives. These grants are made to cooperative development 
centers which augment our internal staff resources in providing 
technical, financial, and management assistance in the creation and 
maturation of new cooperative ventures. As provided in last year's 
Appropriations Act, a portion of these funds will be devoted to 
assistance to small and minority producers. It is these producers that 
more frequently, and more quickly, feel the effects of reductions in 
prices. The same producers can benefit more through the use of 
cooperatives to market or process their commodities. The Administration 
will also again be submitting legislation to authorize assistance to 
non-agriculturally related cooperatives. I believe such authority is 
important to the economic success of rural areas.
    We are proposing that the Intermediary Relending Program be 
increased by almost 70 percent. The demand for this program is 
increasing significantly, and with part of the increase we wish to 
improve our ability to assist tribal governments establish revolving 
loan funds. We plan to do this in conjunction with the Small Business 
Administration and the Department of Treasury's Office of Community 
Development Financial Institutions. This would be a joint effort to aid 
tribal governments establish lending capacity, but also to aid private 
sector lenders in dealing with some of the obstacles they have 
encountered in lending to tribal organizations. The importance of these 
small revolving loan funds to rural communities is demonstrated not 
only in the successes of this program, but also in the fact that a 
significant portion of other grant programs are used to establish 
similar loan funds.
    We are also proposing an $8 million level for the Rural Business 
Opportunity Grant program, a 100 percent increase over the level 
provided for fiscal year 2000. This program was authorized in the 1996 
Farm Bill and funded for the first time for the current fiscal year. 
These funds can be used by a variety of organizations, such as the 
Empowerment Zones/Enterprise Communities, Rural Conservation and 
Development districts and others to develop economic development 
strategies.
    The budget request also includes $3.5 million in budget authority 
for bio-mass demonstration projects. Specifically, $2 million will be 
available for firms that will use the Business and Industry loan 
guarantee program to develop, process, or market bio-based products; $1 
million will be available for electric borrowers to demonstrate the 
value of generating electricity using bio-based products as the fuel, 
and $500,000 will be available for cooperative development grants for 
cooperatives that process or market bio-based products.
    The National Sheep Industry Improvement Center has recently entered 
into an agreement with the Livestock Production Association to 
establish a revolving loan fund which will be used to improve the 
infrastructure of the sheep and goat industry. We are requesting $5 
million of the remaining $30 million authorized for this program to 
augment that effort.
    We are also requesting $15 million for the third year of the 
Empowerment Zones/Enterprise Communities designated in the 2nd round of 
this program.

                        RURAL UTILITIES SERVICE

    The Rural Utilities Service provides financing for electric, 
telecommunications, and water and waste disposal services that are the 
backbone of economic development. Last fall we celebrated the 50th 
anniversary of the telecommunications program, and this year we will 
celebrate the 60th and 65th year of the water and waste disposal and 
electric programs, respectively. The successes of these programs and 
the benefits they have provided to rural America are unparalleled. Over 
$70 billion has been invested in rural America through these programs, 
and the economic growth they have generated has repaid the cost 100 
fold. And even more remarkable is that less than one percent of the 
amount loaned has been lost through defaults. The capital investment 
generated by the program levels requested in the budget will generate 
about 100,000 jobs, but more important is the opportunities generated, 
particularly through the telecommunications programs. It has long been 
the policy of RUS that fiber optic cable be used for telecommunication 
rather than the copper wire that is found in most urban areas. However, 
much of the rural traffic still must be routed through other exchanges 
with less capacity. The ``digital divide'' is composed of issues such 
as this.
    Mr. Chairman, when President Clinton announced the Digital 
Initiative in early February, he was criticized for constructing a 
political deal, and he responded that, ``this is not a political deal. 
If I had waited for the market to solve universal telephone access, 
there would still be places in Arkansas where people wouldn't have a 
phone.'' Paraphrasing another comment in that regard, the bottom line 
of the President's proposal is a better bottom line for firms in the 
technology industry. The President knows how important these programs 
have been to rural America over the decades and he sees the 
opportunities they can bring in the future.
    The level requested for the programs administered by the Rural 
Utilities Service is $4.3 billion, the same as is available for fiscal 
year 2000. For electric loans we are requesting $1.5 billion, requiring 
$26 million in budget authority. Again this year, we respectfully 
request that the budget authority be provided in a single amount, 
rather than by individual program. This additional flexibility permits 
us to more effectively manage demand for the four different programs.
    Our request also includes $670 million for telecommunication loans, 
including those made by the Rural Telephone Bank, and an additional 
$325 million for the distance learning/telemedicine programs, which 
includes a significant increase for grant funds. One of the concerns 
that I have with the lack of opportunity in many rural areas is that 
unless we are able to reach the children in poverty stricken families 
and provide them the opportunity to expand their education, they will 
soon be left behind by the technology-driven economy and the rapidity 
with which knowledge is changing. Distance learning/telemedicine 
program is one of the best tools we have for ensuring that they are not 
left behind. We also request $102 million to finance a broadband 
internet access loan and grant pilot program.
    The request for water and waste disposal programs is $1.6 billion 
which will require less budget authority than was available in fiscal 
year 1999, but a significant increase over fiscal year 2000. With this 
funding we estimate that we will build, improve, or expand 1,155 water 
and waste disposal systems serving 2.4 million people and create 42,000 
jobs in the construction related fields. In addition, we will improve 
our leveraging of funds with State Revolving funds that are also used 
to finance water and waste disposal systems to ensure that each dollar 
provided by the taxpayers is used to its maximum. Our primary target is 
still those residents without safe, dependable water in their homes, 
especially those with the most serious quality or quantity problems--
the systems classified as Water 2000 systems.
    When we were challenged early in this Administration to provide 
every resident in rural America with safe, dependable water in their 
homes, we knew that we could not meet the ultimate objective. However, 
the challenge has led to the reduction in the number of rural residents 
without this basic necessity from 1.1 million in 1990 to under 700,000 
now, and this is something we all should be proud of. We will continue 
to pursue that objective in fiscal year 2001, although we must be frank 
and tell you that the ultimate objective may not be reachable due to 
sparsity of population making affordable systems improbable or terrain 
that increases cost to the point that systems are not affordable.
    Mr. Chairman, before I close, I must return to the issue of 
administrative expenses. These programs that all of us are so very 
proud of and that contribute so much to the economies and the quality 
of life in rural America cannot continue to be delivered without 
adequate support of the dedicated employees and the automated systems 
that are needed to ensure proper accounting of the taxpayers dollars. 
To continue down the path that we have been on in the past few years 
may be penny wise, but it is dollar foolish. I am very proud of our 
accomplishments in reducing expenses. But, being economical and 
reducing expenses where one can is different than not providing the 
resources needed for our staff to operate successfully. Since I have 
held this position, the Rural Development Mission Area has met every 
streamlining target we have been given, but we have also been asked to 
absorb $80 million in pay raises and other inflationary items that also 
should be considered as reductions, but never are. Rural Development 
and other USDA entities have reached the breaking point and without 
some relief, all of us may face the embarrassment of a major failure. I 
do not want this on my record, and I, as a former Member of Congress, 
am sure that none of you want to be responsible for such a failure 
either.
    The Congress and the Administration, as well as the taxpayer, have 
every right to be proud of the fact that we have eliminated the word 
``deficit'' from policy discussions. Let us acknowledge the fact and 
move on to ensuring that every individual in this country has the 
opportunity to participate in a dynamic, growing economy, but do so 
with the recognition that delivering these programs wisely costs money. 
The economic growth we create with these investments in rural America 
more than pay for the cost of the programs and the associated 
administrative cost. It is time we started counting both sides of the 
ledger.
    Mr. Chairman, Members of the Committee, this concludes my formal 
statement. The Administrators and I would be glad to answer any 
questions you may have. Thank you for the opportunity to appear before 
you to discuss the Rural Development budget request with you.

                        DEPARTMENT OF EDUCATION

STATEMENT OF JUDITH JOHNSON, DEPUTY ASSISTANT SECRETARY, ELEMENTARY
AND SECONDARY EDUCATION
    Senator Cochran. Now, I'm going to turn to Ms. Johnson. Ms. 
Johnson is Deputy Assistant Secretary for Elementary and 
Secondary Education at the United States Department of 
Education. Welcome.
    Ms. Johnson. Thank you. Mr. Chairman, I'm really honored to 
be before you today to discuss the Department of Education's 
commitment to providing educational opportunity in the 
Mississippi Delta region.
    I have submitted my written testimony for the record and 
will limit my oral comments to highlights of that testimony. 
For the past year I've served as the Department's senior 
representative to the administration's Mississippi Delta 
Interagency Taskforce.
    I'm pleased to be back at Mississippi Valley State. This is 
my third visit to Mississippi in the past 6 months. As a New 
Yorker, it is quite a contrast and I enjoy the State 
tremendously.
    In October 1999, I traveled to the delta regions of 
Mississippi as part of the administration's Mississippi Delta 
Initiative to participate in listening sessions, to meet with 
community leaders, and most importantly, for me to visit 
schools in the region.
    And also at that time, I had the opportunity to be the 
guest of honor with President Lester Newman at a Mississippi 
Valley State-Alabama State football game. As you know, in 1998 
U.S. Department of Transportation Secretary Rodney Slater began 
assembling a Federal Mississippi Delta Interagency Taskforce to 
assess the impact of various Federal initiatives on the Delta 
region.
    That taskforce released a report entitled, Mississippi 
Delta: Beyond 2000. I led the efforts of the Department of 
Education to prepare our submission to that report. Over the 
past 7 years, the administration and Congress have collaborated 
to make a sizable investment in the Mississippi Delta's K-12 
education programs.
    We understand the importance of supporting the education 
system. As you say, we need to develop a skilled work force in 
the 21st century, one where all of the adults, not some, but 
all of the adults possess the employable skills needed to 
participate in the economy.
    My testimony will highlight some of the more promising 
programs supported by Federal dollars in the Delta region. The 
President's fiscal year 2001 budget also proposes a $150 
million increase to support economic opportunities in the 
Mississippi Delta region including the $30 million to create a 
new Delta Regional Authority to support continued economic 
growth and development.
    The Delta Regional Authority as you heard is a top priority 
of the administration and the President, and legislation has 
been introduced both in the House and the Senate to accomplish 
this goal.
    The Delta Regional Authority will help facilitate the 
efficient channeling of resources to the seven States, 219 
county Mississippi Delta region, by strengthening the Federal-
State partnership and providing ongoing targeted Federal 
statistics through a Federal clearinghouse in the region.
    Let me turn now to the U.S. Department of Education. We 
recognize that the Federal Government as a junior partner in 
our Nation's educational system, and that the real progress in 
improving education depends primarily on State and local 
efforts. But as partners, we can do more to create the 
conditions for improvement.
    President Clinton is requesting a $40.1 billion budget in 
discretionary spending for the Department of Education. An 
increase of $4.5 billion or 12.6 percent.
    My testimony will highlight some of the major initiatives 
and where possible, provide the possible funding totals for the 
Mississippi Delta region. As you may know, the Delta report in 
1990 called for students of the Delta region to demonstrate 
competency in core academic subjects, including reading and 
mathematics.
    Over the past 7 years, the administration has provided 
States and school districts with additional support to ensure 
that all students can achieve to high standards.
    The cornerstone of this national effort to provide all 
children with a high quality education is the Improving 
America's School Act of 1994, which reauthorized the 1965 
Elementary and Secondary Education Act (ESEA). This ESEA 
legislation is currently before the Senate for this 
organization.
    Let me focus us on just a few of the programs.
    21st Century Community Learning Centers. Some students need 
extended learning opportunities to learn the basics in core 
subjects. The centers have provided students in all seven Delta 
States with after-school programs that are academically 
rigorous.
    One example, the Mid-Delta 21st Century Community Learning 
Centers Consortium in Mississippi is implementing an expanded 
after-school program and a 4-week summer academy in four school 
districts located in the Mid-Delta Empowerment Zone. The 
consortium, which is based at the Humphreys Public Schools 
operates these programs 4 days a week, 2 hours weekly. Academic 
skill enhancement in math and language arts is offered 2 days a 
week.
    Let me talk now about the Class Size Reduction Initiative. 
The administration has also provided school districts with 
funding to create smaller classes for students in the Delta.
    By the summer of 2000, Delta school districts will have 
received more than a $100 million through the Class Size 
Reduction Initiative to hire approximately 3,000 new teachers 
to reduce class sizes in the early grades.
    As an educator with 30 years of experience, I cannot 
underscore enough the importance of smaller class sizes in the 
early grades to ensure that our children leave the third grade 
able to read for understanding and able to achieve success in 
the remainder of their school careers.
    The Jackson Public Schools in Jackson, Mississippi, used 
these funds to hire 20 additional teachers and placed them in 
20 low-performing elementary schools. These experienced 
teachers are also serving as mentors for less experienced 
teachers.
    We also requested an additional $450 million for class size 
reduction in our new budget to reduce class size in the early 
grades for a total of $1.75 billion.
    Let me turn now to Modern School Learning Environments and 
School Modernization. Students and teachers cannot reach for 
excellence in outdated, dilapidated, overcrowded classrooms. We 
know this is a serious problem in the Delta region.
    For this reason, the administration has proposed in fiscal 
year 2001 to subsidize almost $25 billion in bonds to the 
President's School Modernization Bond Initiative. The seven 
Delta States would receive an estimated $3.3 billion to upgrade 
school facilities.
    Furthermore, this year the President has proposed $1.3 
billion in discretionary funds for urgently needed school 
renovations through grants and no interest loans.
    Probably the most dramatic change in public schools to take 
place in the last 5 years has been the introduction of 
technology into all of our schools and into our classrooms. We 
have in the Office of Elementary and Secondary Education (OESE) 
a program that provides support through the Technology Literacy 
Challenge Fund. Between fiscal year 1997 and fiscal year 2000, 
Mississippi received $25 million in funding for technology 
software and training through the Technology Literacy Challenge 
Fund, with approximately half of that funding targeted to the 
Delta.
    We also provided $450 million in our budget proposal for 
the Technology Literacy Challenge Fund, an increase of $25 
million from last year. If appropriated, the seven Delta States 
would be allocated more than $65 million in fiscal year 2001.
    During my visit to Mississippi last October, I had a chance 
to see first-hand the impact of Federal education dollars and 
technology at Brown Elementary School in Leflore County, 
Mississippi. During my visit to a computer resource center at 
Brown Elementary School, Principal Jean Hall informed me that 
the computers were paid for by Title I funds, a software 
program used to teach reading was funded through the Technology 
Literacy Challenge Fund, and the Internet hook-ups were made in 
part affordable by the E-rate. This school and other schools in 
the Delta region need to spend a lot of time focusing on 
eliminating what we all know to be the dangers of the digital 
divide.
    As part of the administration's Delta Regional Authority 
proposal, the Department of Education is also requesting $10 
million for a targeted demonstration program to improve middle 
school teachers' competence by providing training on how to use 
technology in the classroom. It is of no value to have the 
computers in the classrooms if our teachers aren't able to use 
them effectively.
    I turn now to Title I, our major school reform effort. The 
Delta Commission report in 1990 called for increased targeted 
services to low-income, rural students. In fiscal year 2000 
alone the Department will provide over $350 million to school 
districts in the Delta region through Title I designed and 
focused on servicing disadvantaged students.
    The goal of the Title I Program is to ensure that no child 
leaves school unable to achieve success because of their ethnic 
origins or their family's economic status.
    School districts in the seven Delta regions will receive 
approximately $370 million in fiscal year 2001 under Title I 
formula funding.
    You also receive Migrant Education funds. Funding is 
provided for the Delta region for migrant students through 
competitive grants.
    Mississippi Valley State University received a $353,000 
grant in fiscal year 1999 to support its longstanding Migrant 
Education Program. This grant provided opportunities for 
migrant students to complete their GED and to go on to or 
enroll in post-secondary education or vocational training.
    Thirty-five percent of those Migrant Education students are 
also placed in career positions.
    The Department is committed to providing Mississippi Delta 
region with technical assistance targeted to the region's 
unique circumstances. Last week on March 9 and 10 more than 100 
educators from all seven Delta States attended the first ever 
Delta Safe Schools Conference at Arkansas State University in 
Jonesboro, Arkansas.
    Today is the final day of the Department of Education 
sponsored Delta Region Rural Workshop in Helena, Arkansas. 
Thirty-eight community colleges in the seven State Delta region 
have been invited to bring staff teams to this workshop. The 
training sessions focus on strengthening their skills for 
seeking competitive grants, and opportunities are there for 
them to hear presentations on existing program models that can 
be replicated in this region.
    In conclusion, my experience in the Mississippi Delta last 
fall, staring down the fields of cotton during the harvest 
season provided me with a flashback of the heroics of the Civil 
Rights Movement in the 1960's.
    As a student growing up at that time, I can remember 
vividly the photo essays, the poetry, and the music that 
captured that historical period.
    The first phase of the Civil Rights Movement was to give 
young people access to integrated schools, other public 
facilities, and the right to vote. We are now at that second 
stage for all of our children. The next stage must provide all 
of our students with a world-class, technology-rich education 
in order to allow them to fully participate in the 21st 
century.
    We must end what Secretary Riley calls ``the tyranny of low 
expectations.'' This change will not occur without dedication 
and hard work. The challenge for us in the Department of 
Education is to help provide educators at State and local 
levels with the tools they need to do the job.
    Mr. Chairman, thank you for providing me with the 
opportunity to return to Mississippi and to testify before your 
subcommittee. I'll be happy to answer any questions you may 
have about the Department's efforts to expand educational 
opportunity in the Mississippi Delta region.

                           PREPARED STATEMENT

    Senator Cochran. Thank you, Ms. Johnson, for being here 
today and for the statements that you have made.
    [The statement follows:]

                  Prepared Statement of Judith Johnson

    Mr. Chairman, I am honored to appear before you today to discuss 
the Department of Education's commitment to promoting educational 
opportunity in the seven-state, 219 county Mississippi Delta region.
    Since 1997, I have served as Deputy Assistant Secretary for 
Elementary and Secondary Education. Prior to joining the Department, I 
spent 30 years in education at the local level as a teacher, guidance 
counselor, principal, and district administrator. For the past year, I 
have served as the Department's senior representative to the 
Administration's Mississippi Delta Interagency Taskforce.
    I am pleased to be back at Mississippi Valley State. This is my 
third visit to the Magnolia State in the last six months. In October of 
1999, I traveled to the Delta region of Mississippi as part of the 
Administration's Mississippi Delta Initiative to participate in 
listening sessions, meet with community leaders, and visit schools in 
the region. At that time, I had the distinct honor of being the guest 
of President Lester Newman at a Mississippi Valley State-Alabama State 
football game. My testimony will provide some reflections on what I 
experienced visiting schools in Mississippi's Delta region.
    President Clinton's concern for the Mississippi Delta region 
predates his Presidency. In 1988, Congress (through Public Law 100-460) 
established the Lower Mississippi Delta Commission (Delta Commission) 
to study living conditions for individuals residing in a 219 county 
region running along the Mississippi River. Then-Arkansas Governor Bill 
Clinton was named chairman of the Delta Commission. In 1990, the Delta 
Commission released a report that outlined a ten-year action plan for 
local governments, state governments, community and business 
organizations, and the federal government to expand opportunity in the 
Delta region.
    In 1998, U.S. Department of Transportation Secretary Rodney Slater 
began assembling a Federal Mississippi Delta Interagency Taskforce to 
assess the impact of various Federal initiatives on the Delta region. 
The Taskforce released a report in October of 1998--entitled 
Mississippi Delta: Beyond 2000--that outlines recent investments made 
by the Federal government in the Delta. I led efforts at the Department 
of Education to prepare our agency's submission for the Mississippi 
Delta--Beyond 2000 report. Over the past seven years, the 
Administration and Congress have collaborated to make a sizable 
investment in the Mississippi Delta K-12 education system. While the 
achievement level in many Delta counties lags behind the national 
average, there are many Delta schools and districts that have 
demonstrated improvement over the past decade. My testimony will 
highlight some of the more promising programs supported by Federal 
dollars in the Delta region in the context of the Delta Commission 1990 
report.

            ADMINISTRATION FISCAL YEAR 2001 BUDGET REQUESTS

Delta Regional Authority

    The President's fiscal year 2001 budget also proposes $159 million 
to increase educational opportunities in the Mississippi Delta region, 
including $30 million to create a new Delta Regional Authority to 
support continued economic growth and development. The Delta Regional 
Authority is a top priority of the Administration and the President. 
Legislation has been introduced in both the House (H.R. 2911) and 
Senate (S. 1622) that would accomplish this goal.
    The Delta Regional Authority would help facilitate the efficient 
channeling of resources to the seven state, 219 county Mississippi 
Delta region. The Delta Authority would provide for the long-term 
coordination of resources to the Delta. This new Federal agency would 
allow us to meet this goal by strengthening the Federal-State 
partnership, and will provide an on-going, targeted Federal 
clearinghouse in the region. As members of the authority, the Governors 
of the seven Delta States would work in partnership with leaders in the 
Federal Delta Authority to identify projects to fund. Half of the Delta 
Authority's resources would be targeted to the communities with the 
highest poverty-rates.

U.S. Department of Education

    We recognize that the Federal government is the junior partner in 
our Nation's education system, and that real progress in improving 
education depends primarily on State and local efforts. But the Federal 
government can provide additional resources to support local 
educational initiatives, especially to help ensure high standards for 
all students and teachers, modernized school environments, and targeted 
support for disadvantaged students.
    President Clinton is requesting $40.1 billion in discretionary 
spending for the Department of Education, an increase of $4.5 billion 
or 12.6 percent. On February 29, 2000, U.S. Education Secretary Richard 
Riley testified before the Senate Appropriations Subcommittee on Labor, 
Health and Human Services, and Education, on which you also serve 
Senator Cochran. My testimony today will highlight some of the major 
initiatives and, where possible, provide funding totals for the 
Mississippi Delta States.

                    HIGH STANDARDS FOR ALL STUDENTS

    The 1990 Delta Report called for students in the Delta region to 
demonstrate ``competency'' at three key grade levels in core academic 
subject areas, including reading and mathematics. Over the past seven 
years, the Clinton Administration has provided states, and school 
districts with additional support to ensure that all students can 
achieve to high standards.
    The Congressional legislative cornerstone of this national effort 
to provide all children with a high-quality education is the Improving 
Americas Schools Act (IASA), the 1994 reauthorization of the Elementary 
and Secondary Education Act of 1965. Under IASA, States are required to 
develop and implement challenging content standards, aligned 
assessments at three key grade levels, and, based on these assessments, 
procedures for identifying and assisting schools that fail to make 
adequate progress toward helping students reach state standards. 
Congress required States to phase in these requirements over time, and 
to fully implement all of the requirements by the beginning of the 
2000-2001 school year. All States and school districts receiving 
funding through the Department's $8 billion Title I program are 
required to meet these requirements.
    The Delta states have made great strides in meeting these 
Congressional requirements. Each of the seven Delta States has 
developed rigorous content standards in at least reading and 
mathematics. These States are currently in the process of field-testing 
their assessments in the core academic subjects.

Title I Accountability Fund

    As part of the fiscal year 2000 budget agreement signed by the 
President last fall, substantial new resources--$134 million nationally 
through the Title I program--are available to turn around low-
performing schools. This law also requires school districts receiving 
these Accountability Fund grants to provide students in low-performing 
schools with an opportunity to choose a higher-quality public school. 
In July, 2000, the seven Mississippi Delta States will receive over $19 
million to provide low-performing schools with additional supports.
    The fiscal year 2001 budget would provide states and districts with 
additional support to help improve educational quality in low-
performing, high-poverty schools. The President's request for Title I 
includes $250 million for a second year of Accountability Fund grants 
to help turn around chronically failing schools. The seven Delta states 
will receive more than $35 million through second year allocations 
under the Title I Accountability Fund.

21st Century Community Learning Centers

    Some students need extended learning opportunities to learn the 
basics in the core subject areas. The 21st Century Community Learning 
Centers program has provided students in all seven Delta states with 
after-school programs that are academically rigorous. Here are two 
examples of promising extended learning programs.
  --The Mid-Delta 21st Century Community Learning Centers Consortium in 
        Mississippi is implementing an expanded after-school program 
        and a four-week summer academy in four school districts located 
        in the Mid-Delta Empowerment Zone. High rates of poverty, low 
        levels of educational attainment, and high rates of 
        unemployment plague the area. In 15 of the 18 districts, more 
        than 80 percent of the students are eligible for free and 
        reduced lunch. The public school enrollment in this district 
        accounts for 12 percent of Mississippi's dropouts. The 
        consortium, which is based at the Humphreys Public Schools, 
        operates programs four days a week, two hours daily. Academic 
        skill enhancement in math and language arts is offered two days 
        a week. Training sessions on violence prevention and conflict 
        resolution skills are also offered. All of the centers have 
        implemented parenting programs that operate three times a week 
        offering skills in literacy, job training, and life skills.
  --The East Baton Rouge Parish School Board in Louisiana has after-
        school centers at one of its middle schools and its two feeder 
        elementary schools. The Centers integrate Title I activities, 
        school health services, transportation and new technologies for 
        learning. Working with a variety of local non-profit 
        organizations, 21st CCLC program funds allow its three school 
        Centers to build and expand upon existing support for after-
        school activities. For instance, the Boys & Girls Club is 
        serving approximately 100 students at the Prescott Middle 
        School Center in extended day activities and its summer day 
        camp.
    The President has requested $1 billion in fiscal year 2001 for the 
21st Century Community Learning Centers program, a $547 million 
increase from last year. The seven Delta states would receive millions 
of dollars to support high-quality extended learning opportunities for 
young people, especially those attending high-poverty schools.

Class Size Reduction Initiative

    The Administration has also provided school districts with funding 
to create smaller classes for students in the Delta. The Project Star 
study--conducted in the Delta State of Tennessee--clearly demonstrates 
the positive impact of smaller classes of 13-17 students in the early 
grades on student achievement, especially among poor students. By the 
summer of 2000, Delta school districts will have received more than 
$100 million through the Class Size Reduction Initiative to hire 
approximately 3,000 new teachers to reduce class size in the early 
grades.
    Using Class Size Reduction funds allocated in fiscal year 1999, the 
Jackson Public Schools in Jackson, Mississippi hired 20 additional 
teachers and placed them in 20 low-performing elementary schools. Many 
of these teachers had previously retired or had left the district, but 
were recruited to return because of the opportunity to teach in smaller 
classes and to work closely with other teachers. These experienced 
teachers are also serving as mentors for less experienced teachers and 
they often team up with beginning teachers to provide regular support 
and supervision.
    The President has also requested an additional $450 million for 
Class Size Reduction to reduce class size in the early grades, for a 
total of $1.75 billion. The request would bring the total number of 
teachers hired under this program to 49,000, almost halfway to the 
President's goal of hiring 100,000 new teachers by 2005. The seven 
Delta states would receive over $231 million.

Teaching To High Standards

    A quality teacher is the greatest in-school factor influencing 
student achievement. The Administration is requesting a total of $1 
billion in teacher quality and recruitment funding incentives. For 
example, the Teaching to High Standards State Grants--a Title II ESEA 
reauthorization proposal--would promote $690 million professional 
development linked to state standards and assessments. We need to help 
provide teachers with the resources and training necessary to bring 
standards to the classroom. Under this new proposal, the seven Delta 
states would receive over $90 million in state formula grant funding to 
support quality teaching.

Comprehensive School Reform Demonstration

    The Comprehensive School Reform Demonstration (CSRD) program helps 
raise student achievement by assisting public schools across the 
country to implement effective, comprehensive school reforms that are 
based on reliable research and effective practices, and that include an 
emphasis on basic academics and parental involvement. As of July, when 
fiscal year 2000 funds are distributed, Delta States will have received 
over $70 million, providing start-up funds to schools to implement 
comprehensive reforms. The President has requested an additional $20 
million for CSRD in fiscal year 2001 for a total of $240,000,000, which 
would bring the total funding allocated to the seven Delta states under 
CSRD to approximately $100 million.
    Poindexter Elementary School in Jackson, Mississippi is using a 
grant from the Comprehensive School Reform Demonstration program to 
implement the Success for All model. Success for All is an intensive 
reading program that features research-based instructional practices, 
extensive professional development, and frequent assessment. Although 
Poindexter has just begun implementation, faculty, and parents are 
committed to making schoolwide improvements that will help all children 
reach high standards.

                  MODERN SCHOOL LEARNING ENVIRONMENTS


School Modernization

    Students and teachers cannot reach for excellence in outdated, 
falling down, overcrowded classrooms. This is indeed a serious problem 
here in the Delta region. In 1990, the Delta Commission report stressed 
the importance of providing all young people in the Delta with a safe, 
technologically-rich educational experience to enable them to fully 
participate in the information-based economy of the 21st century.
    For this reason, the Administration has proposed in fiscal year 
2001 to subsidize almost $25 billion in bonds through the President's 
School Modernization Bond initiative. Under this program, holders of 
the bonds would receive tax credits in lieu of interest, and States and 
school districts would therefore not need to pay those financial costs. 
The seven Delta States would receive an estimated $3.3 billion to 
upgrade school facilities.
    Furthermore, this year the President has proposed $1.3 billion in 
discretionary funds for urgently needed school renovations and repairs. 
Numerous construction projects could be funded in the Delta through 
grants and no-interest loans, with a priority on high need districts.

Technology Literacy Challenge Fund

    The Delta region has received millions of dollars in Federal 
funding during the 1990s to help ensure that teachers have the skills 
and resources to provide students with a rich educational experience 
enhanced by advanced technology. This funding has been often targeted 
to high-poverty regions such as the Delta.
    Between fiscal year 1997 and fiscal year 2000, Mississippi received 
$25 million in funding for technology software and training through the 
Technology Literacy Challenge Fund (TLCF), with approximately half of 
that funding targeted to the Delta. Delta districts in Louisiana 
received $4,600,000 of the $5,900,000 in TLCF funding allocated by the 
State in sub grants directly to districts. For example, St. Barnard, 
St. Charles, Plaquemines, and Jefferson Parishes in Louisiana received 
a $450,000 TLCF grant in fiscal year 1998 to provide teacher-training 
initiatives focused on technology connected lessons in mathematics.
    The Department fiscal year 2001 budget also provides $450 million 
for the Technology Literacy Challenge Fund (TLCF), an increase of $25 
million from last year, to help schools bring technology to the 
classroom. The seven Delta states would be allocated more than $65 
million through TLCF in fiscal year 2001.

E-rate

    Mississippi is one Delta state that has benefited substantially 
from Federal funding for technology and, in particular, Internet hook-
ups. For example, Mississippi received $25 million in discounts between 
January 1998 and June 1999 from the E-rate to wire schools and 
classrooms to the Internet. Due in part to these Federal investments, 
the percentage of schools in Mississippi with ``network connections'' 
increased from 10 percent in 1995 to 51 percent in 1998.
    During my visit to Mississippi last October, I had a chance to see 
first-hand the impact of Federal education dollars on technology at 
Brown Elementary School in Leflore County, Mississippi. During my visit 
to a computer resource center at Brown Elementary, Principal Jean Hall 
informed me that the computers were paid for by Title I funds, the 
software program used to teach reading was funded through TLCF, and the 
Internet hook-ups were made in part affordable by the E-rate. This 
resource center provides students the opportunity to expand their 
vocabulary and reading comprehension skills.

Middle School Technology Teacher Training

    As part of the Administration's Delta Regional Authority proposal, 
the Department of Education is also requesting $10 million for a 
targeted demonstration program to provide middle school teachers in the 
seven Delta states with training on how to use technology in the 
classroom. Teachers at the school or district level would serve as 
``master teachers'' of technology to assist other colleagues with 
technology.

Star Schools

    Star Schools funding provides a wide variety of technology services 
to schools, such as interactive video training programs. Funding under 
Star Schools is provided to consortia of States. Two consortia have 
received funding in the Delta.
  --The mission of Project Impact is to transform traditional 
        classrooms into technology-rich centers of learning to help 
        students to achieve high academic standards. The Star Schools 
        Consortia for Project Impact--which includes Louisiana, 
        Mississippi, and Missouri--will have received $10 million in 
        funding between fiscal year 1997 and fiscal year 2001. Project 
        Impact delivers instruction to elementary and middle school 
        students and teachers through a distributed learning system, 
        which allows participants to access information via satellite, 
        television, multimedia, and the Internet.
  --The Next Generation distance learning project will provide 
        Kentucky, Louisiana, and Mississippi over $9.6 million between 
        fiscal year 1997 and fiscal year 2001. The Next Generation 
        project develops curriculum-based computer materials in science 
        and mathematics and distributes those resources on demand. 
        Specific projects entail building an Internet-based Calculus/AP 
        Calculus course and creating, with the National PTA as a 
        partner, stronger ties between the school and community.

MCI WorldCom Foundation Marco Polo Internet Teacher Training

    On December 10, 1999 at Earle High School in Earle, Arkansas, 
President Clinton announced a unique partnership between the 
Administration and the MCI WorldCom Marco Polo Foundation. The MCI 
WorldCom Foundation Internet website provides K-12 teachers with 
quality lesson plans and materials in the core academic subjects areas. 
The Foundation has agreed to train, free of charge, as many as 4,500 
district curriculum specialists throughout the seven-state Mississippi 
Delta region on how to access information from their Internet site. 
These specialists, in turn, will train over 100,000 teachers on how to 
effectively incorporate the Marco Polo lesson plans into their day-to-
day teaching.
    Having worked on behalf of the Administration with MCI WorldCom 
Foundation Director Caleb Schutz to secure this initiative, I can 
attest to the Foundation's commitment to ensuring that all teachers in 
the Delta region have access to high-quality, engaging resources. The 
lesson plans, developed by leading institutions such as the National 
Endowment for Humanities and Kennedy Center of Performing Arts, provide 
teachers with the tools necessary to teach to high standards.

              TARGETED SUPPORT FOR DISADVANTAGED STUDENTS

Title I--Aid to Disadvantaged Students

    The Delta Commission report in 1990 called for increased ``targeted 
services to low-income rural students.'' The Administration has 
provided the overwhelming majority of federal education funding to poor 
communities in the Delta through the Title I program. In fiscal year 
2000 alone, the Department will provide over $350 million to school 
districts in the Delta region through Title I to serve disadvantaged 
students.
    The Department is requesting $8.4 billion in fiscal year 2001 for 
Title I grants to local educational agencies, an increase of $416 
million. Title I provides additional funding to educate educationally 
disadvantaged children, especially those attending high-poverty 
schools, to achieve academic success. School districts in the seven 
Delta states will receive approximately $370 million in fiscal year 
2001 under Title I formula funding.

Migrant Education

    The Migrant Education program, authorized by Title I, Part C of 
ESEA, provided formula grants to State education agencies to establish 
or improve programs for children of migrant workers. In fiscal year 
1999 alone, the seven Delta states received approximately $20 million 
through Migrant Education formula grants.
    The Department also provides additional educational funding to the 
Delta for migrant students through competitive grants. For example, the 
Migrant Education High School Equivalency Program (HEP) is a 
discretionary grant program designed to help migrant farm workers and 
their children complete and succeed in post-secondary education. Two 
currently funded Migrant Education HEP projects are in the Delta 
region.
  --Mississippi Valley State University in Itta Bena, Mississippi 
        received a $353,000 HEP grant in fiscal year 1999 to support 
        its longstanding migrant education program. This program serves 
        about 120 migrant and seasonal farm workers each year. The 
        average student is African-American, is between 17 and 23 years 
        of age, and is a member of a large family of seasonal farm 
        workers. The primary goal of the program is to help students 
        complete the GED and enter post-secondary training or 
        employment. A majority of the students annually complete the 
        program requirements and earn their GED. According to a recent 
        program evaluation, approximately 45 percent of the students 
        continue on to post-secondary education or vocational training, 
        and about 35 percent are placed in career positions.
  --Based at the University of Tennessee in Knoxville, the Southeastern 
        HEP program is a multiple-site project serving migrant and 
        seasonal farm workers in a three-state region. The project 
        coordinates closely with other State and district programs. 
        During the 1998-99 school year, 91 percent of the 135 migrant 
        students who participated in this Tennessee-based HEP program 
        completed their GED.
    The Administration's fiscal year 2001 budget provides a $25.3 
million increase for Migrant Education programs. The total Department 
request for Migrant Education this year is $380 million.

Bilingual Education

    In addition to Migrant Education, another essential component to 
the President's Hispanic Education Action Plan is an effort to promote 
English language skills among Hispanics and others whose first language 
is not English. Several southern States, including Delta states, are 
experiencing large increases in limited English proficient (LEP) 
student populations. For example, the number of LEP students in 
Arkansas and Kentucky has increased by more than 100 percent since 
1991. Below are two examples of Bilingual Education discretionary 
grants recently awarded in the Delta.
  --The Biloxi Public Schools in Harrison County, Mississippi received 
        a $150,000 Bilingual Education grant in fiscal year 1998 to 
        support the Educational Economics and Mainstream Project 
        (EESPMP). The EESPMP is an enhancement project that serves 
        approximately 236 LEP students in grades four though seven in 
        nine Delta schools. Extended learning time is supported through 
        an after-school bilingual tutoring program and an intensive 
        English-language summer school.
  --The Jefferson Parish School District in Jefferson, Louisiana 
        received a $210,000 Bilingual Education grant in fiscal year 
        1998 to support comprehensive school services for LEP students. 
        The 1,808 LEP students in the Jefferson Parish School District 
        receive English language instruction and native language 
        tutoring in core academic subjects. This Comprehensive School 
        grant allows Jefferson Parish School District to establish 
        bilingual classes in grades K-2. Teachers will be provided with 
        innovative professional development to better prepare them to 
        instruct in a bilingual environment.
    The President's fiscal year 2001 budget request includes $460 
million for bilingual, foreign languages, and immigrant education 
programs, an increase of $54 million over last year.

                    IMPROVED MATHEMATICS ACHIEVEMENT

    The National Assessment of Educational Progress (NAEP) makes 
available student achievement data in reading and mathematics that can 
be compared between States that elect to take part in this voluntary 
national assessment. All of the Delta States excluding Illinois take 
part in the state NAEP assessment. (Since the NAEP exam is given to a 
representative sample of students across a particular state, district-
by-district comparisons cannot be made.)
    During the 1990s, students in the Mississippi Delta made 
significant achievement gains in mathematics. Between 1992 and 1996, 
fourth- and eighth-grade students in Arkansas, Kentucky, Mississippi, 
and Tennessee demonstrated statistically significant improvements on 
the mathematics exam. Fourth graders in Louisiana also significantly 
improved their mathematics scores on NAEP (SEE APPENDIX A).
    During this period of NAEP score increases, countless individual 
Title I schools have experienced substantial improvement on State 
mathematics assessments. For example, fourth-grade students at the Glen 
Oaks Park Elementary School in East Baton Rouge Parish, Louisiana, 
where three-fourths of the students are eligible for free or reduced 
priced lunch, have improved their median national percentile rank on 
the mathematics section of the California Achievement Test (CAT) from 
the 29th percentile in 1993 to the 75th percentile in 1997.
Eisenhower Mathematics/Science Consortia
    Improved mathematics achievement is also supported by the 
Department of Education's regional Eisenhower Math/Science Educational 
Consortia. Ten Eisenhower Consortia identify and disseminate exemplary 
mathematics and science education materials and provide technical 
assistance in implementing innovative teaching methods.
    The Eisenhower Mathematics/Science Consortium SERVE has supported a 
host of innovative projects in the state of Mississippi that have 
helped to improve student achievement in mathematics and science.
  --The Eisenhower Consortium SERVE collaborated with the Leflore 
        County School District in Greenwood, Mississippi to sponsor the 
        nine-week Mississippi Research Project. Eighth-grade students 
        from Greenwood participated in a nine-week biology research 
        project that included a hands-on science program at the Gulf 
        Coast Research Center. Students either traveled to the Gulf 
        Coast for the field experience or learned about it from 
        materials and specimens brought back by fellow students. Prior 
        to the research field experience, the average student score on 
        a marine life test was below the 50th percentile. After the 
        Gulf Coast visit, the average test scores of the participants 
        were above the 75th percentile. The project organizers in 
        Mississippi called the Gulf Coast field experience ``the single 
        most important factor'' influencing student success.
  --In 1998, Booneville Public High School, in Booneville, Mississippi 
        was one of 50 schools recognized nationally at the School Tech 
        Expo Showcase of Model Schools, a program to honor schools that 
        have utilized the latest technology to dramatically improve 
        classroom learning. The Eisenhower Consortium SERVE supports 
        the Booneville Public Schools in various ways. The Consortium 
        introduced programs that expose young people to careers in math 
        and science.
  --The Eisenhower SERVE Consortium recently funded Algebra Project 
        training sessions for teachers in Jackson, Mississippi. The 
        Algebra Project attempts to increase the proportion of urban, 
        inner-city, and rural students who take ownership of their 
        educational experience, enroll in advanced mathematics courses, 
        enter college, and later become contributors to their 
        communities. According to recent studies, students exposed to 
        the Algebra Project take college preparatory math courses at a 
        higher rate and score higher on achievement tests than their 
        non-participating peers.
    When touring schools in Mississippi last fall, I attended a 
distance learning mathematics class taught by Algebra Project Director 
Bob Moses. The lesson I observed provided ninth-grade students at 
Lanier High School in Jackson, Mississippi and Simmons High School in 
Hollandale, Mississippi the opportunity to expand their ability to 
utilize the graphic calculator through distance learning instruction. 
Students in this Algebra Project class demonstrated not only the 
ability to utilize a graphic calculator as a learning tool, but also 
the motivation to continuously expand their understanding of 
mathematics.

                        IMPROVED LITERACY LEVELS

    In 1990, the Delta Commission acknowledged that the Mississippi 
Delta region had one of the lowest literacy rates in America. 
Investments made this past decade by Federal, State, and local 
governments in reading instruction, especially in the early grades, are 
beginning to show signs of impact. Reading scores on the NAEP 
assessment have either improved or remained constant for students in 
the six Delta states taking part in the NAEP assessment. Between 1992 
and 1998, fourth-grade students in Mississippi and Kentucky made 
significant improvements on the NAEP reading exam (SEE APPENDIX A).
    One school that has demonstrated significant improvement in student 
achievement in the 1990s was the Portland Elementary School in Ashley 
County, Arkansas, where three-fourths of the students are eligible for 
free or reduced priced lunch. Since instituting an innovative reading 
program through a $60,000 Department grant in 1994, Portland Elementary 
School saw average third-grade reading scores on the Standard 
Achievement Test increase from the 25th percentile in 1993 to the 46th 
percentile in 1999.

America Reads

    President Clinton's America Reads Challenge has supported increased 
literacy levels in the Delta. This national campaign challenges every 
American to help all children learn to read, including those with 
disabilities or limited English proficiency. The America Reads 
Challenge sparks collaboration between educators, parents, college 
students, and other community members.
    Under the America Reads work-study waiver adopted in July of 1997, 
the Federal government pays 100 percent of the wages of college work-
study students who serve as reading mentors or tutors to preschool and 
elementary school children. By 1998, more than 1,100 colleges joined 
the America Reads work-study program, including dozens of schools in 
the Delta region.
    The Macon Ridge Economic Development Region in Louisiana formed a 
partnership with the Louisiana Coalition for Literacy to help improve 
reading skills of children age 6 through 12. Delta Service Corp 
members, Federal work-study students and community volunteers served as 
tutors for the children at the Concordia Public Library, the Concordia 
Parish Head Start Center, and the Tenas Parish Head Start Centers. 
Tutors also assisted Parish librarians with ``Prime Time Family 
Reading'' events to help encourage reading at home as well.

Reading Excellence Act

    In October of 1998, Congress authorized $260 million through the 
Reading Excellence Act to serve approximately 500,000 pre-Kindergarten 
through third-grade children. The Reading Excellence program attempts 
to provide children with the readiness skills and support the need to 
learn how to read by the end of third grade and elementary school 
teachers with training on effective, research-based methods of reading 
instruction.
    In August of 1999, the Department of Education awarded 17 states 
Reading Excellence program grants through a competitive process. Two 
Delta states received funding in fiscal year 1999: Kentucky and 
Louisiana. Kentucky was allocated $7.5 million and Louisiana was 
awarded $15 million over three years under the Reading Excellence 
program. This year a new Reading Excellence program competition for 
$241 million will fund approximately 12 new state grants for three 
years. The Administration has requested $286 million for the Reading 
Excellence Act in fiscal year 2001, a $26 million increase.

              DEPARTMENT OF EDUCATION TECHNICAL ASSISTANCE

    In 1990, the Delta Commission report talked about helping provide 
additional Federal resources to ``rural schools'' in the region. The 
Department of Education is committed to providing the Mississippi Delta 
region with technical assistance that is targeted to the region's 
unique circumstances. The Department is hosting two conferences in 
March aimed at improving the quality of education in the Delta.

Delta Safe Schools Conference

    Last week, on March 9 and 10, more than one hundred educators from 
all seven Delta states attended the first-ever Delta Safe Schools 
Conference at Arkansas State University in Jonesboro, Arkansas. 
Participants attended training workshops coordinated by the National 
Resource Center for Safe Schools that provided information on various 
programs that have effectively reduced school violence and student 
substance abuse. Presentations were also provided by Department of 
Education staff on the various Department grant programs aimed at 
supporting safe schools.
    Jonesboro, Arkansas was selected as the site of the conference 
since the community was awarded a three year, $8.4 million grant in 
1999 through the Safe Schools/Healthy Students Initiative. Through the 
initiative, the Departments of Education, Justice, and Health and Human 
Service provide Federal funding to promote comprehensive approaches to 
school safety. The Jonesboro Public Schools will work in partnership 
with alcohol and drug, human service, and early childhood programs to 
provide high-quality training and support to both students and school 
personnel.

Delta Regional Rural College Workshop

    Today is the final day of Department of Education-sponsored Delta 
Region Rural College Workshop. Phillips Community College in Helena, 
Arkansas served as the host site on March 13-14 for the workshop. The 
38 community colleges in the seven-State Delta region have been invited 
to bring staff teams to this workshop to attend training sessions that 
will strengthen their skills in seeking competitive grants, and to hear 
presentations on existing program models that can be replicated in this 
geographic region. Other Federal agencies/organizations are 
participating in the conference, including the National Science 
Foundation, the Department of Labor, and the Appalachian Regional 
Commission.

                               CONCLUSION

    In conclusion, I will return once again to my experience in the 
Mississippi Delta last fall. Staring down the fields of cotton during 
harvest season provided me a flashback to the heroics of the Civil 
Right movement activists in the 1960s. I can remember vividly the photo 
essays, the poetry, and the music that captured that historical period 
in ways that invite every American to reflect upon the enduring effects 
of the period.
    The first phase of the Civil Rights movement was giving young 
people access to integrated schools and other public facilities and the 
right to vote. The next stage is providing all students with a world-
class, technology-rich education in order to allow them to fully 
participate in the 21st century. We must end what Secretary Riley calls 
``the tyranny of low expectations.'' As was the case with the early 
Civil Rights movement, this change will not occur without dedication 
and hard work. The challenge for the Federal government is to help 
provide educators at the state and school level with the tools to do 
the job.
    Mr. Chairman, thank you for providing me the opportunity to return 
to Mississippi and testify before your subcommittee. I will be happy to 
answer any questions you may have about the Department's efforts to 
expand educational opportunity in the Mississippi Delta region.

  Appendix A: National Assessment of Educational Progress (NAEP) Test 
                  Results for Mississippi Delta States

----------------------------------------------------------------------------------------------------------------
                                                Mathematics scores                          Reading scores
                             -----------------------------------------------------------------------------------
                                                                                       1992 State    1998 State
            State              1992 State    1996 State    1992 State    1996 State   average--4th  average--4th
                              average--4th  average--4th  average--8th  average--8th      grade         grade
                               grade math    grade math    grade math    grade math      reading       reading
----------------------------------------------------------------------------------------------------------------
Arkansas....................          210       \1\ 216           257       \1\ 262           211           209
Kentucky....................          215       \1\ 220           263       \1\ 267           213       \2\ 218
Louisiana...................          204       \1\ 209           250           252           204           204
Mississippi.................          201       \1\ 208           246       \1\ 250           199       \2\ 204
Missouri....................          222           225           271           273           200           216
Tennessee...................          211       \1\ 219           259       \1\ 263           212           212
----------------------------------------------------------------------------------------------------------------
\1\ Denotes a NAEP score increase between 1992 and 1996 that is considered ``statistically significant
  improvement'' based on sample size and diversity of student characteristics.
\2\ Denotes a NAEP score increase between 1992 and 1998 that is considered ``statistically significant
  improvement'' based on sample size and diversity of student characteristics.


                      DEPARTMENT OF TRANSPORTATION

STATEMENT OF ALBERT C. EISENBERG, DEPUTY ASSISTANT 
            SECRETARY FOR TRANSPORTATION POLICY
    Senator Cochran. I think I'm going to turn now to Mr. 
Eisenberg for his comments; and then when he completes his 
statement, I'll have an opportunity to ask questions of the 
entire panel. Albert Eisenberg is the Deputy Assistant 
Secretary for Transportation Policy at the U.S. Department of 
Transportation. You may proceed.
    Mr. Eisenberg. Thank you, Mr. Chairman. It's a great honor 
for me to be here to represent the Department of Transportation 
and the administration. We very much appreciate your holding 
this hearing. We commend you for it. It's an important hearing 
and we look forward to working with you on a bipartisan basis 
for the common goals of progress in the Mississippi Delta.
    I will summarize my remarks and appreciate your insertion 
of the report for the record. While my comments encompass the 
entire Mississippi Delta region, as a former county-elected 
official, and county board chairman, I recognize the local 
quality of public policy, so I hope you will bear with me if 
references to Mississippi appear with some regularity in my 
testimony.
    Mr. Chairman, the administration and the Department of 
Transportation have a deep concern of this region. We have 
worked assiduously with you, with Congress, and with others for 
the economic and social progress of this important part of 
America's heartland.
    And over the last 7 years, much progress has indeed been 
made. My testimony indicates for the region and many of its 
communities the trends are heading in the right direction. 
Lower unemployment and increased job growth, higher earning for 
jobs, and several key measures as the Nation's strong economy 
has reached into the Delta.
    Yet, we all know there are significant critical challenges 
that remain in infrastructure, housing, job adequacy, 
education, private investment, as many places unfortunately 
continue to lag behind non-Delta communities in the Delta 
region and across the country as well.
    The Mississippi Delta Region Initiative, this 
administration, builds upon the recommendations of the 1990 
Lower Mississippi Delta Development Commission whose landmark 
report pointed the way for the Delta's progress in the ensuing 
decade.
    The President has designated Secretary of Transportation, 
Rodney Slater, to lead this initiative. And under his 
leadership, I serve as the chairman of the Initiatives 
Interagency Taskforce which includes departments represented 
here on this panel today.
    Our work is based on numerous listening sessions, 
conferences, meetings, and consultations with public, and 
private State holders throughout the Delta. And I had the 
opportunity to spend a great time in the Delta last year.
    For example, we held a listening session in Vicksburg in 
October of last year, and the President and several Cabinet 
members visited Clarksdale. In July, the Department of 
Transportation team, which I led, held a series of 
consultations in Greenville, Tallahatchie County, and here at 
this university this past December.
    An interim report which has been alluded to in other 
testimony resulted from such consultation. It's been widely 
distributed and I ask that a copy of this report be included in 
the record.
    Senator Cochran. A copy of it will be printed in the record 
in full.
    [The information follows:]

                   The Mississippi Delta: Beyond 2000


                                FOREWORD

    In the autumn of 1989, Governor Bill Clinton of Arkansas wrote 
eloquently of both the bright promise and the profound problems faced 
by the people of the Mississippi Delta region. In submitting the 
Interim Report of the Lower Mississippi Delta Development Commission to 
President George Bush, Governor Clinton first delivered the ``bad 
news'': people in the Delta ``are the least prepared to participate in 
and to contribute to the nation's effort to succeed in the world 
economy.'' Then, Governor Clinton conveyed the ``good news'':

    ``The Delta region has tremendous human resources: people with a 
strong work ethic, and rekindled hopes for the future. Productive land, 
water, timber, energy and vast natural beauty are abundant along the 
banks of the Mississippi River. The Delta people are trying to help 
themselves. Each of the states in the Delta region made significant 
progress by investing in education, economic development, human 
services, and transportation.''

    In the spring of 1990, Governor Clinton submitted to President Bush 
the final recommendations of the Lower Mississippi Delta Development 
Commission. Entitled The Delta Initiatives: Realizing the Dream--
Fulfilling the Potential, the Final Report carried out the objectives 
mandated by legislation passed in 1988 (Public Law 100-460): to study 
and make recommendations regarding economic needs, problems, and 
opportunities in the Lower Mississippi Delta region, and to develop a 
ten-year regional economic development plan. As Chair of the 
Commission, Governor Clinton emphasized that the report was not just 
another tome to be consigned to the dusty shelves of government 
archives, but was a ``Handbook for Action--one that can turn the Delta 
and its 8.3 million people into full partners in America's exciting 
future, full participants in the changing global economy.'' This 
Interim Report of ``The Delta: Beyond 2000'' summarizes some of the 
progress made over the past decade in fulfilling the recommendations 
offered in The Delta Initiatives, and begins to review the challenges 
still remaining for the Delta's people at the dawn of a new millennium.
    The present volume builds upon an update on transportation and 
employment issues completed in 1995 by the Federal Highway 
Administration (FHWA), entitled Linking the Delta Region with the 
Nation and the World. The FHWA update emphasized that the 1990 
Commission's recommendations ``served as a guidepost in President 
Clinton's administration and during the 1996 budget negotiations and 
reconciliation efforts to balance the budget in a way that reflects the 
values and priorities of the American people.'' In 1990, Rodney E. 
Slater took part in the Commission's work as vice-chair of the Arkansas 
State Highway Commission, and in 1995 he directed the update as 
Administrator of FHWA. In Linking the Delta Region with the Nation and 
the World, Administrator Slater stressed that the Commission's 1990 
recommendations embodied the President's goals: ``investing in 
education, training, and the environment; protecting Medicare and 
Medicaid; and targeting tax relief to working families.''
    As Secretary of Transportation, Mr. Slater has collaborated with 
many federal, state and local entities in continuing the vital efforts 
to promote the Delta's development. In July, 1998, Secretary Slater 
convened a meeting with Delta grassroots leaders and federal officials 
in Memphis, Tennessee. Jill Long Thompson, Under Secretary for Rural 
Development of the Department of Agriculture, played a dynamic role in 
helping Secretary Slater organize that meeting, where ten federal 
agencies signed the Mississippi Delta Regional Initiative Interagency 
Memorandum of Understanding (MOU). Original signatories included the 
Departments of Transportation, Agriculture, Commerce, Housing and Urban 
Development (HUD), Health and Human Services (HHS), Labor, Education, 
Interior, the Small Business Administration, and the Environmental 
Protection Agency. In 1999, the initiative was expanded to include the 
Departments of Defense, Treasury, Veterans Affairs, Justice, Energy, 
the National Office of Drug Control Policy, and other agencies. This 
Interim Report is a product of the collaboration of these agencies' 
efforts throughout the Clinton administration, and Secretary Slater 
would like to extend his deep appreciation to all of them for their 
diligent work. The MOU's purpose is to create a basic framework for 
cooperation among the participating agencies ``on economic 
revitalization initiatives in the Delta region.''
    The Delta 2000 Initiative recognizes that the federal agencies play 
only one part in promoting the region's advancement. It is essential to 
forge a coalition of federal, state, local, private business, nonprofit 
foundations, and other grassroots organizations to meet the challenges 
the region will face beyond the year 2000. The Interim Report condenses 
many of the important developments in the Delta during the 1990s, but 
it is not an exhaustive study of all federal activities in this immense 
region--it would require many volumes to accomplish that feat. For 
those people interested in detailed analysis of particular issues 
analyzed in this Report, an extensive ``Inventory'' will be available 
from the Department of Transportation, and will also be placed on the 
DOT website (http://www.dot.gov/). As discussed in the Executive 
Summary, the major product of this year's effort to gather and update 
data on current issues will be a report on recommendations for the 
Delta's future development. In the autumn of 1999, a series of 
listening sessions will be held in the region to acquire ideas, 
information, and counsel from the Delta's people.
    We have achieved some progress in the Delta over the last decade, 
but many challenges remain. During his domestic tour in the summer of 
1999, President Clinton successfully reminded America that certain 
areas of our country--such as the Southwest Border region, Appalachia, 
native American reservations, and the Mississippi Delta--have not fully 
participated in the unprecedented prosperity of the 1990s. The Delta 
was featured prominently in that tour, including a meeting in 
Clarksdale, Mississippi. In August, 1999, the President met with local 
leaders in Helena, Arkansas. The underdeveloped regions like the Delta 
offer great opportunities for new markets to the private sector, and a 
coalition of federal, state, and local entities must cooperate to make 
those opportunities become a reality. Governor Clinton poignantly 
expressed that thought ten years ago, in words that ring true today: 
``Our own people are leading the way. However, much more must be done 
if the Delta region is to become a full partner in America's future. 
That will require the federal, state and local governments as well as 
many private sector groups and the community at large to work together 
in a spirit of dedication and innovation.''

        INTERIM REPORT OF ``THE MISSISSIPPI DELTA: BEYOND 2000''

                           EXECUTIVE SUMMARY

    In 1988, a bipartisan coalition of U.S. Representatives and 
Senators supported the legislation creating the Lower Mississippi Delta 
Development Commission, including Rep. Mike Espy of Mississippi, Rep. 
Bill Alexander of Arkansas, Senator Dale Bumpers of Arkansas, and many 
other members of Congress from the Delta. Governor Clinton chaired the 
Commission, with Governor Ray Mabus of Mississippi and Governor Buddy 
Roemer of Louisiana serving as Commissioners. The Lower Mississippi 
Delta is comprised of 219 counties in Louisiana, Mississippi, Arkansas, 
Tennessee, Missouri, Kentucky and Illinois. The region has historically 
suffered from endemic poverty. The Delta Initiatives: Realizing the 
Dream--Fulfilling the Potential embodied the ideas and information 
gathered from many public hearings, research, and statistical 
information presented by the Delta's people concerning how to promote 
economic development and improve the region's quality of life.
    The Commission published an Interim Report in October, 1989 
containing an extensive array of data and detailed summaries of 
projects then underway. The Final Report published a year later focused 
on recommendations for improving the Delta's economy in the future. The 
Interim Report of ``The Delta: Beyond 2000'' initiative--published a 
decade after the original Commission began its work--will review the 
progress achieved in fulfilling many of the 400 recommendations of The 
Delta Initiatives, with some concise summaries of remaining challenges 
for the future. It should be emphasized that this Interim Report is 
only the beginning of this year's effort to gather data on current 
issues in the region; the major product will be an action plan for the 
Delta's future, to be completed by late 1999. This major report will 
publish supplemental data and updates of ongoing projects along with 
new trends that have taken place over the last ten years. However, this 
plan will primarily focus upon new recommendations for the future 
social and economic progress of the Delta. The major emphasis in the 
report on the Delta's future will be upon gathering the information, 
ideas, and recommendations from grassroots sources throughout the 
region.
    Solving the historic problems of the Delta is a long-term 
initiative, and those who worked for the original Commission in 1988-90 
often pledged that they were committed to this project for the long 
haul. This Interim Report will demonstrate that in many respects, 
limited progress has been achieved in addressing the profound social 
and economic conditions of the people who live at the very heart of 
America. The great life-giving artery of the Mississippi River, as John 
Gunther once wrote, ``remains what it always was--a kind of huge rope, 
no matter with what knots and frays, tying the United States together. 
It is the Nile of the Western Hemisphere.'' The region encompasses rich 
natural resources and physical assets, as well as a deep historical and 
cultural heritage.
    Yet, as Governor Clinton stressed in 1990, the Delta cannot become 
a full partner in America's future without ``an honest assessment of 
where we are in the emerging global economy and what we have to do to 
increase the capacity of all our people to succeed in it.'' Thus, while 
summarizing the advances made in many areas of transportation, health 
care, economic development, education, housing, environmental 
protection and other vital issues, the Interim Report acknowledges that 
many compelling problems remain in a region that has historically 
lagged behind much of the nation in the realm of economic opportunity. 
The Delta 2000 Initiative follows the grassroots policy of the original 
Commission, as it seeks information and counsel from local communities 
throughout the region in preparing the report focusing on the Delta's 
future. In this endeavor to seek the counsel of Delta residents, a 
series of listening sessions will be held in the Delta in the autumn of 
1999.

  THE MISSISSIPPI DELTA REGIONAL INITIATIVE INTERAGENCY MEMORANDUM OF 
                          UNDERSTANDING, 1998

    This Interim Report marks the first step in fulfilling the 
Mississippi Delta Regional Initiative Interagency Memorandum of 
Understanding (MOU). As discussed in the Foreword, 10 federal agencies 
signed the MOU at a meeting with local Delta leaders organized by 
Secretary Rodney Slater in Memphis, Tennessee in July, 1998. The MOU 
was expanded to include a number of additional agencies in 1999. The 
Memorandum's purpose ``is to establish a general framework for 
cooperation among the participating agencies on economic revitalization 
initiatives in the Delta region.''
    The participating agencies pledged to ``work together to coordinate 
and support a broad-based government-wide review and assessment of the 
Delta.'' The Memorandum underscored the rural nature of much of the 
Delta, stating: ``This effort will build upon the work of President 
Clinton and Vice President Gore to strengthen rural communities for the 
21st century.'' In particular, the agencies committed themselves to 
provide an update of the 1990 Report, The Delta Initiatives: Realizing 
the Dream--Fulfilling the Potential, as well as to continue the process 
of implementing that report's recommendations. Looking forward to the 
major report on recommendations for the future that will be published 
later in 1999, the MOU stressed the importance of cooperating with 
state and local organizations in developing an action plan for 
revitalizing the region. The Memorandum recognized that the Delta ``has 
long been considered one of the poorest regions of the Nation.''

                     SUMMARY OF THE INTERIM REPORT

    The Interim Report follows the major categories set forth in The 
Delta Initiatives, focusing on transportation; human capital 
development (including education, community development, job training, 
health, and housing); natural and physical assets (agriculture, natural 
resources and the environment); and business and industrial development 
(technological and entrepreneurial enterprise, small business 
development, and tourism). For people interested in extensive data and 
analysis on a particular issue, there is a detailed Inventory on each 
of these issues that buttresses the Interim Report. Several of the 
Interim Report's key findings include the following:
  --Transportation.--The Commission's 10-year goal envisioned an 
        improved network of limited access highways, airports, and rail 
        and port facilities to promote economic growth. The great 
        majority of the nearly 70 specific transportation 
        recommendations in The Delta Initiatives have either been 
        fulfilled or substantially fulfilled. The Intermodal Surface 
        Transportation Efficiency Act of 1991 (ISTEA) and the 
        Transportation Equity Act for the 21st Century of 1998 (TEA-21) 
        dramatically increased Highway Trust Fund investment in 
        highways and transit. Delta states have used the flexibility 
        established in ISTEA to fund improvements to the Great River 
        Road, as well as for scenic easements, historic preservation 
        and other projects. For example, in Arkansas during the 1990s 
        approximately $140 million was used to complete about 120 miles 
        of highway reconstruction, surfacing, widening and other 
        projects in Delta counties. Such transportation improvements 
        are a powerful engine for economic growth and improving the 
        quality of life in the Delta.
  --Job growth.--From 1993 to 1998, the annual average unemployment for 
        the entire 219-county region declined from 7.5 percent in 1993 
        to 5.7 percent in 1998. During this period, 184 of the 219 
        counties experienced job growth. There were some substantial 
        success stories, such as declining unemployment rates for the 
        major regional urban areas such as Pulaski County, Arkansas; 
        Jefferson Parish, Louisiana; Shelby County, Tennesee; and Hinds 
        County, Mississippi, that were similar to or slightly lower 
        than the historically low national unemployment averages of the 
        1990s. A few rural areas witnessed improvement, such as Madison 
        Parish, Louisiana, where the unemployment rate fell from 14 
        percent in 1990 to 7.5 percent in June, 1999.
      President Clinton signed the Balanced Budget Act of 1997 and the 
        Workforce Investment Act of 1998, two major pieces of 
        legislation that are dramatically helping people make the 
        transition from welfare to work. The impact of these laws is 
        explored in depth by the Department of Labor and other agencies 
        in the Report and the Inventory. Virtually all of the 
        participating agencies pursued policies directly or indirectly 
        related to job growth, such as welfare-to-work, transportation, 
        small business promotion, Empowerment Zones and Enterprise 
        Communities, and other economic development initiatives.
  --Persistent unemployment dilemmas in rural areas and inner cities.--
        However, some inner city neighborhoods did not participate in 
        the overall urban prosperity, and rural areas in general still 
        lagged far behind the national unemployment rate. In fact, some 
        rural counties still suffered from unemployment rates two and 
        three times as high as the national average. For example, St. 
        Francis County's unemployment rate declined from 13.4 percent 
        in 1993, but in 1998 its annual average--though a substantial 
        improvement--still remained at a high 9 percent. The continuing 
        unemployment problems in many rural areas pose the greatest 
        remaining challenge in the region's employment horizons.
  --Empowerment Zones/Enterprise Communities (EZ/EC) and Champion 
        Communities.--The EZ/EC program is the major Clinton-Gore 
        administration innovation in the field of community 
        development. In Round I of the EZ/EC program announced in 1994, 
        there were eight rural and five urban EZ's and EC's in the 
        Delta, with another rural Delta EZ (in southern Illinois) being 
        added in Round II of the program in 1999. There are more than 
        50 rural ``Champion Communities'' and four urban Champion 
        Communities in the Delta; these are communities that did not 
        receive EZ or EC designations, but developed strategic plans 
        and receive priority assistance in response to their federal 
        applications for funding and technical help.
      The program is based upon the principles of sustainable 
        development, leadership from the local grassroots level, 
        economic opportunity, long-range strategic planning, and 
        community-based partnerships. The Interim Report summarizes the 
        federal funding and tax incentives offered by the EZ's and 
        EC's; however, the grassroots leadership and strategic planning 
        phases of the program are more important, ultimately, than the 
        federal funding amounts. One of the great successes of the 
        program has been the communities' successes in ``leveraging'' 
        funds. For example, the rural communities drew $10.225 million 
        from their EZ/EC funding from 1994 to the beginning of 1999, 
        while their total funding--including state, local, private 
        business, and nonprofit foundation sources--amounted to ten 
        times that much, or approximately $107.4 million. The EZ's and 
        EC's provide a model for grassroots community leadership and 
        sustainable development.
  --Education.--Nearly a decade after the 1990 Commission's 
        recommendation to target resources to ``low-income, rural 
        students'' in the Delta, the Department of Education provided 
        over $350 million in fiscal year 1998 alone to high-poverty 
        school districts in the Delta. Under President Clinton's Class 
        Size Reduction Initiative, the Department provided more than 
        $50 million to this region in fiscal 1999 to hire approximately 
        1,500 new teachers in the early grades. A series of initiatives 
        such as the Technology Literacy Challenge Fund (TLCF), Star 
        School and the ``E-rate'' targeted funding for improving 
        technology to high-poverty regions. For example, the Delta 
        districts in Louisiana alone received $4.6 million under TLCF 
        in fiscal year 1998.
      While continued investment in public education is needed to 
        increase student academic achievement in the region, many Delta 
        schools and districts have recently demonstrated significant 
        gains in student test scores. For example, third grade students 
        at the Portland Elementary School in Ashley, Arkansas improved 
        their reading scores on the Stanford Achievement Test from the 
        25th percentile in 1993 to the 46th percentile in 1999. The 
        percentage of eleventh graders in the Memphis City Public 
        Schools scoring `proficient' on the Tennessee Comprehensive 
        Assessment Program (TCAP) Writing Assessment increased from 19 
        percent in 1994 to 56 percent in 1999. ``We still have a long 
        way to go, but we believe our progress is largely a result of 
        our schoolwide approach to reform and the initiation of 
        extended learning opportunities, both of which are facilitated 
        by Federal program funding and flexibility reforms,'' states 
        Memphis City Schools Superintendent--and American Association 
        of School Administrators (AASA) 1998-99 Superintendent of the 
        Year--Dr. Gerry House.
  --Agriculture.--Agriculture remains an economic juggernaut in the 
        Delta. This region is one of America's most prolific producers 
        of cotton, rice, soybeans, and other major agricultural 
        products. USDA pursued policies to promote the economic 
        viability of the traditional major producers, as well as new 
        initiatives intended to promote direct marketing, sustainable 
        agriculture, alternative products such as aquaculture, and 
        other policies aimed at preserving marketing and credit 
        opportunities for small and minority farmers. In the late 
        1990s, farmers faced one of the most severe depressions in 
        American history. Emergency federal relief for agriculture was 
        developed in the summer of 1999, and this legislation will be 
        dealt with in depth in the major recommendations for the 
        Delta's future to be completed later in 1999.
  --Infrastructure.--The Departments of Commerce, HUD, EPA, Energy, and 
        USDA's Rural Development have brought numerous local 
        infrastructure projects to the region, such as adequate water 
        and sewer systems, telecommunications, electricity and natural 
        gas, rural health care, public safety and other projects needed 
        for economic development and improved quality of life. For 
        example, the Department of Commerce programs provided more than 
        370 grants totaling over $114 million in the Delta from 1993 to 
        mid-1999. The total funding for the 219-county area from Rural 
        Development's Community Facilities, Rural Business Programs, 
        and Water & Waste programs amounted to approximately 
        $858,224,000 from 1993 to mid-1999. The Rural Utilities Service 
        provided first-time telephone service to more than 8,200 rural 
        residents, while more than 77,000 residents received improved 
        telecommunications. In addition to traditional infrastructure, 
        Rural Development's Distance Learning and Telemedicine program 
        combined improvements in access to health care and educational 
        opportunities in the health care field for approximately 
        800,000 rural residents in the region.
  --Natural Resources and the Environment.--The Clinton-Gore 
        Administration has dealt with major natural resource and 
        environment issues facing the Delta, including wetlands 
        protection and restoration, air and water quality protection, 
        wildlife and natural resource conservation, and environmental 
        justice. In 1993, the Administration developed a fair, 
        flexible, and effective wetlands policy that increased 
        regulatory certainty for private landowners while protecting 
        wetlands. This policy has resulted in the protection, creation 
        or enhancement of approximately 300,000 acres of wetlands 
        through a variety of programs, including the Wetlands Reserve 
        Program. In addition, by the end of the decade a total of 2 
        million acres were enrolled in the Conservation Reserve 
        Program, which had begun before the 1990s but expanded during 
        the decade. This Program encourages voluntary enrollment of 
        highly erodible land, cropped wetlands, wildlife habitat, and 
        wetland restoration acres to ensure protection from erosion 
        while improving water quality and wildlife habitat. 
        Approximately two million acres are currently enrolled in the 
        Delta.
      The Administration is working to empower States and localities to 
        prevent, assess, safely clean up, and sustainably reuse 
        brownfields and other waste sites. It is also providing 
        stronger public health protections by establishing new safety 
        standards for all pesticides used on foods under the Food 
        Quality Protection Act, and by providing new tools and 
        resources for cleaner, safer water under the 1996 Safe Drinking 
        Water Act Amendments and the 1998 Clean Water Action Plan. In 
        addition, the Administration is focusing attention on the 
        environmental and human health conditions plaguing minority and 
        low-income communities in the Delta. The designation of the 
        Lower Mississippi River as an American Heritage River by 
        President Clinton in 1998 is helping to focus these and other 
        federal efforts to strengthen historic and cultural 
        preservation, natural resource protection, and economic 
        revitalization.
  --Tourism.--The natural splendors of the Delta, as well as its 
        historical and cultural sites, are among its major tourist 
        attractions. Thus, initiatives related to preserving natural 
        resources and the environment support efforts to promote the 
        region's tourist industry. Tourist revenue brought almost $13 
        billion to the Delta in 1998. Millions of visitors come to 
        enjoy the natural beauty, culture, food, and deep historical, 
        musical and literary heritage of the region. The President's 
        designation of the Lower Mississippi River as an American 
        Heritage River in 1998 (as mentioned above) will help preserve 
        and enhance the great river's appeal for tourism. The National 
        Park Service, Department of Transportation, Department of 
        Commerce and other agencies pursue a series of initiatives 
        designed to promote tourism for the region.
  --Housing.--Under the leadership of Secretary Andrew Cuomo, HUD has 
        promoted more equitable housing opportunities for moderate and 
        low-income people, both in homeownership and rental housing. 
        HUD has vigorously enforced the Fair Housing Act to attack the 
        problem of discrimination in housing. Funding for HUD's 
        homelessness assistance programs more than tripled from 1992 to 
        1999, although the 1990 Commission's ambitious goal of 
        eradicating homelessness entirely in the Delta remains elusive. 
        HUD has pursued innovative housing policies to expand 
        opportunities in inner city areas; one example is the 
        renovation of the Farish Street district in Jackson, 
        Mississippi.
  --Rural housing.--USDA's Rural Housing Service assisted approximately 
        43,000 Delta households to buy or improve their homes; loans 
        for single-family housing in the region from fiscal years 1993 
        through 1999 came to a total of $2.236 billion. In rental 
        housing, more than $254 million was provided for more than 
        10,000 rental units in the region. Despite these achievements, 
        senior citizens and minorities in the region still suffer from 
        inadequate housing. Fifty eight percent of rural elderly 
        renters in Arkansas, Louisiana, and Mississippi are ``cost-
        burdened'' in housing, meaning that they pay greater than 30 
        percent of monthly income for shelter costs. Rural African 
        Americans in the Delta have a 51 percent poverty rate in 
        Arkansas, a 54 percent rate in Louisiana, and a 52 percent rate 
        in Mississippi. While some areas have experienced some advances 
        in housing, large sectors of the population have not 
        participated in these gains, especially low-income senior 
        citizens and African Americans in rural areas.
  --Health Care.--In the Report, the Department of Health and Human 
        Services (HHS) reviews Medicare, Medicaid, Temporary Assistance 
        for Needy Families (TANF), and the special needs of rural 
        hospitals and inadequate access to health care in rural areas. 
        HHS also pursues programs aimed at improving health care for 
        senior citizens, minorities, and HIV/AIDS patients in the 
        Delta. A division of the Centers for Disease Control has worked 
        on an initiative for health education, training, research and 
        environmental health in the region through the Mississippi 
        Delta Health and Environment Project, a partnership among 
        federal, state and local governments, Historically Black 
        Colleges and Universities (HBCU), faith-based organizations, 
        community organizations, and environmental advocacy groups in 
        the region.
  --Child care and youth issues.--HHS takes the lead in a series of 
        child care initiatives. The early childhood education program, 
        Head Start, expanded its enrollment in Arkansas, Louisiana, and 
        Mississippi from 41,996 in 1990 to 55,248 in 1998. The Child 
        Care Development Fund, Healthy Child Care America Campaign, and 
        other child care efforts are active in the Delta. A network of 
        Family Youth Services Bureau Program centers operate in the 
        region to prevent youth from dropping out of school, provide 
        temporary shelter to runaways and reunite them with their 
        families when possible, and help teenage parents make the 
        transition from unemployment to self-sufficiency. Teen 
        pregnancy declined in Arkansas by 7.9 percent from 1991 to 
        1995, while in that period Louisiana reduced its rate by 8.2 
        percent and Mississippi by 5.9 percent. The national reduction 
        was 6.5 percent. Despite these gains, teen pregnancy in the 
        region is still too high.
  --Hunger, nutrition and food security.--The Food and Nutrition 
        Service of USDA reviews issues in the school lunch, food stamp, 
        the Special Supplemental Nutrition Program for Women, Infants 
        and Children (WIC), Cooperative Extension nutrition programs, 
        food recovery and gleaning, and other initiatives that form the 
        hunger safety net for low-income Americans. Although these 
        bedrock anti-hunger programs have eliminated the most grievous 
        cases of malnutrition that Senator Robert F. Kennedy dramatized 
        with his travel through the Delta in 1967, low-income people in 
        the Delta still suffer from inadequate access to good 
        nutrition.
      Two innovative models of anti-hunger efforts are the Lower 
        Mississippi Delta Nutrition Intervention Research Initiative 
        and the Mississippi Action for Community Education (MACE) anti-
        hunger partnership. The research initiative is a coalition of 
        community leaders, nutrition experts, and USDA officials that 
        evaluates nutritional health in the Delta and develops 
        strategies for addressing them. The MACE anti-hunger efforts 
        include food stamp outreach, nutrition education, support for 
        local food pantries, and increasing School Breakfast and summer 
        feeding programs. For example, during 1994 and 1995, MACE 
        sponsored and administered a demonstration food stamp outreach 
        program through a grant sponsored by USDA. MACE was 
        instrumental in identifying and enrolling thousands of low-
        income and/or elderly people living in rural areas of the 
        Mississippi Delta region who were eligible for but not 
        receiving food stamps. This project also supports efforts to 
        expand summer feeding and School Breakfast programs in rural 
        school districts.

          REMAINING CHALLENGES: RURAL POVERTY AND INNER CITIES

    The Report demonstrates that two challenges remain especially 
poignant for the years beyond 2000: addressing the plight of both rural 
areas and of inner city neighborhoods in unemployment, health care, 
housing, the agricultural economy, and a host of other issues. In part, 
the dilemma of the rural poor feeds the problem of the inner city poor, 
for many agricultural laborers and small farmers forced from the land 
by mechanization and other broad socio-economic trends of the past 50 
years sought refuge in the great urban centers, both outside the region 
and in Memphis, New Orleans, Jackson, Little Rock or other cities. The 
statistics show that for the majority of people living in the Delta's 
cities, employment and other measures of prosperity are improving; but 
some neighborhoods in the city's heart have been left behind. As 
Michael Harrington wrote in his classic, The Other America: Poverty in 
the United States (originally published in the 1960s and updated in the 
1980s), many of the sharecroppers and cotton pickers from Arkansas and 
Mississippi or the rural poor from southeast Missouri ``share common 
problems--the fact that the backwoods has completely unfitted them for 
urban life.'' Many of the inner city's poor arrived from rural areas 
and became mired in cycles of poor education, dependency and poverty. 
Attacking the problems of poverty in the most downtrodden rural areas 
will thus relieve some of the long-term pressures on depressed inner 
city neighborhoods. Among all families, average poverty rates in the 
rural Delta have been in a range 6 to 9 percent higher than in urban 
Delta areas. Actions flowing from the Mississippi Delta Regional 
Initiative should be channeled into those areas which have the most 
urgent need for help. The Delta's rural areas persistently lag behind 
not only the national standards but even those of the urban areas of 
the region in all of the fundamental issues analyzed in The Delta 
Initiatives.

              THE PLIGHT OF MINORITIES AND RACE RELATIONS

    Historically, the melancholy legacy of racial discrimination has 
posed one of the most formidable barriers to the Delta's progress. 
Approximately 40 percent of the region's population is African 
American, yet the measures of prosperity and opportunity are depressing 
for this large section of the Delta's people. For example, poverty 
rates among rural African Americans in Arkansas, Louisiana and 
Mississippi all range above 50 percent. The Clinton administration has 
pursued an array of initiatives intended to address racial and ethnic 
disparities in employment, educational opportunity, health, small 
business, housing, and other fields. The Empowerment Zones and 
Enterprise Communities in the region are located in areas with large 
minority populations. The voluminous data gathered in this Report and 
the accompanying inventories on specific issues should foster a 
dialogue about race relations that will aid the Delta 2000 Initiative 
in developing a plan for the future that will ameliorate race divisions 
and bring fair opportunities for all races and ethnic groups in the 
region. The listening sessions in the autumn of 1999 will provide 
another forum for this dialogue. At the height of the civil rights 
movement, Dr. Martin Luther King, Jr., lamented the racial oppression 
in the Delta in his famous ``I Have a Dream'' speech, but envisaged a 
day in the future when it would become an oasis of racial 
understanding: ``I have a dream that one day, even the state of 
Mississippi, a state sweltering with the heat of injustice, sweltering 
with the heat of oppression, will be transformed into an oasis of 
freedom and justice.'' Mississippi and the other areas of the region 
have advanced beyond the racial oppression of those troubled times, yet 
the Delta still faces a long journey before it reaches King's vision of 
racial justice.

               NEW ISSUES FOR THE APPROACHING MILLENNIUM

    The Commission's Report in 1990 was a wide-ranging, broad-minded 
document that looked ahead to many of the developments and issues that 
the region dealt with during the decade. In The Delta Initiatives, 
Governor Clinton explicitly used a phrase about expanding into ``new 
markets'' to reach areas whose potential had not yet been developed. 
President Clinton focused on this same theme in his New Markets 
Initiative, which is intended to focus investment and resources in 
developing those regions of America that did not fully enjoy the 
national prosperity of the decade, such as the Southwest Border region, 
Appalachia, Native American reservations, and the Mississippi Delta. No 
one, however, could have foreseen such extraordinary developments of 
the decade as the unprecedented national prosperity, with low 
inflation, low interest rates and high economic growth; the explosion 
of technological advancement and gains in productivity; or the 
expansion of computer technology and the information revolution of the 
Internet. This Interim Report deals with some of these new 
developments, such as the use of telemedicine and distance learning, 
the increasing importance of computers in education and business, and 
others. In the listening sessions and the creation of recommendations, 
the Delta 2000 Initiative will remain attentive to new and emerging 
issues for the next century.

                  EMPOWERMENT AT THE GRASSROOTS LEVEL

    This Interim Report is founded upon the work of literally hundreds 
of federal employees, most of whom live and work in the Delta. They 
gathered and compiled this data from their records, experiences, and 
from countless conversations and interactions with the region's people. 
Nonetheless, this Report marks just the first step in beginning the 
dialogue that will be fostered in the autumn listening sessions and 
will culminate in a ``Blueprint for the Delta's Future'' by the end of 
1999.
    The principal contributors of the new recommendations for the 
future will be the grassroots leaders throughout the region. The 
federal government is only one partner in the dynamic coalition needed 
to move the region forward. Federal, state and local governments, 
private business, and nonprofit foundations must all play key roles. 
The federal government can provide technical assistance and resources, 
but ultimately, empowerment and lasting change flow from leadership at 
the grassroots level. As Bill Clinton expressed the empowering nature 
of broad-based grassroots participation in 1990, ``Being in the 
vanguard of change need not be a distinction limited to the freedom-
hungry citizens of Eastern Europe or Poland or the aggressive business 
people of Singapore or Korea. The people of the Delta belong in that 
vanguard. They want to be there, and they can be, if each of us will do 
our part.''

                     DEFINITION OF THE DELTA REGION

    Six decades ago, William Faulkner wrote movingly of the Mississippi 
River's profound allure: ``A river known by its ineradicable name to 
generations of men who had been drawn to live beside it as man always 
has been drawn to dwell beside water, even before he had a name for 
water and fire, drawn to the living water, the course of his destiny . 
. .'' The Mississippi Delta region encompasses 219 counties stretching 
from the area around New Orleans, Louisiana to southern Illinois. More 
than 8.3 million people live there. The seven states making up the 
region are bound together by basic shared characteristics. The region 
is blessed with great natural resources: the rich fertile soil along 
the Mississippi River's east and west banks, a warm climate with long 
growing seasons, and a total of over two million acres of water area, 
including more than 89,000 miles of rivers and streams. The region 
boasts a deep cultural heritage, including many of the great musical 
and literary figures of the twentieth century, such as Mahalia Jackson, 
Louis Armstrong, Richard Wright, Eudora Welty, and Faulkner.
    Notwithstanding its assets, however, the Delta has historically 
been plagued by hardship and poverty. With the mechanization of large-
scale farms early in the twentieth century, the Delta experienced an 
exodus of its children to the industrial centers of America. 
Substandard housing, inadequate transportation systems, limited access 
to capital, limited business and industrial development, low 
educational levels, and other deficiencies have troubled the region's 
people. Strained race relations have compounded the problems associated 
with the Delta's poverty. While this Interim Report summarizes some of 
the constructive efforts to address these problems, much work remains 
if the region is to overcome the legacy of its often troubled past.
    The majority of the region lies in the southernmost area of the 
Delta. Of the 219 counties, 42 are in Arkansas, 45 are in Mississippi, 
and 45 parishes are in Louisiana. For Arkansas, Louisiana and 
Mississippi, these counties make up over half of the area and 
population of these states. The Tennessee Delta region includes the 
large urban area of Memphis and a total of 21 counties in western 
Tennessee. Louisiana has the most heavily populated Delta region, with 
more than 2.8 million people living there--approximately one third of 
the entire region's population (based on the 1990 Census). The 
Arkansas, Mississippi, and Tennessee Delta areas had roughly similar 
populations in the range of 1,350,000 to 1,450,000. Over 7 million of 
the region's inhabitants live in the four southernmost states. A total 
of about 1.3 million people live in the northermost areas of the Delta 
in Missouri, Kentucky, and Illinois.
    The region includes 29 counties in Missouri, 21 counties in 
Kentucky, and the 16 southernmost counties of Illinois. Relatively 
speaking, of course, the Delta regions of Kentucky, Missouri, and 
Illinois are much smaller portions of these states. The data discussed 
in this Interim Report focuses on areas within the 219-county region. 
However, since the Delta areas are economically and politically linked 
to the states in which they are located, a few passages in the 
extensive Inventory (referred to the Foreword) will include some 
statistics placing these areas within their statewide context. However, 
the great majority of the facts and figures in the Inventory, and 
virtually all the material in the Interim Report itself, will focus on 
the 219-county region. The major report on the Delta's future will 
include extensive additional data specific to the 219 counties.

                       SECTIONS OF THE INVENTORY

    For those people interested in an in-depth analysis of a particular 
section or sections summarized in the Interim Report, the Inventory 
addresses the major themes of The Delta Initiatives, broadly 
emphasizing human capital development, natural, physical and 
environmental assets, and business and industrial development. This 
Inventory will focus on the fundamental thrust of The Delta Initiatives 
recommendations rather than a compilation of minutiae on every one of 
the 400 recommendations. It is important to recognize that this 
Inventory consists largely of federal actions
    The authors of the 1990 Report had no illusions about the 
difficulty of the initiatives they were launching, and stressed that 
the goals were purposely designed to be ambitious. The authors stated, 
``The Delta Commission recognizes that some may not be fully attained 
within a decade's time, but together the goals outline an overall plan 
that can make the Lower Mississippi Delta and its citizens full 
partners in creating the nation's best possible future when the dawn of 
that new age arrives.''

                       HUMAN CAPITAL DEVELOPMENT

Community Development

    ``Ever since I became President, I have done what I could do to 
increase investment in undeveloped areas through the empowerment zones, 
which give tax credits and put tax money into distressed areas--through 
getting banks to more vigorously approach the Community Reinvestment 
Act and setting up Community Development Financial Institutions.''--
President Clinton, speaking about community development in his 
Clarksdale, Mississippi ``New Markets'' initiative tour, July 6, 1999

    The field of community development embodies one of the Clinton-Gore 
administration's most innovative policy initiatives: the Empowerment 
Zones/Enterprise Communities (EZ/EC) program. The 1990 Report contained 
a major section on ``Community Development,'' the basic principles of 
which are now being supported in EZ/EC communities in the Delta and in 
other regions of the country. In Round I of the EZ/EC program announced 
in 1994, there were eight rural and five urban EZ's and EC's in the 
region, with 39 additional rural communities and four urban communities 
in the region gaining ``Champion Community'' status under the program. 
These communities receive priority assistance in response to 
applications for funding and technical assistance.
    The family of EZ/EC communities enjoyed a major expansion 
nationwide with the announcement of Round II in January, 1999. A number 
of new communities were designated in the Delta, including a new 
Empowerment Zone in rural southern Illinois and 15 new rural Champion 
Communities, bringing the total number of Champion Communities to more 
than 50. The U.S. Department of Housing and Urban Development (HUD) 
administers the urban communities, while rural communities 
participating in the program are assisted by the U.S. Department of 
Agriculture (USDA). The urban Enterprise Communities are in Pulaski 
County, Arkansas; Ouachita Parish, Louisiana; Memphis, Tennessee; 
Jackson, Mississippi and New Orleans, Louisiana. The rural Empowerment 
Zone and Enterprise Communities are as follows: the Mid-Delta 
Mississippi Empowerment Zone, Mississippi; North Delta Mississippi EC, 
Mississippi; Northeast Louisiana Delta EC, Louisiana; Macon Ridge EC, 
Louisiana; Mississippi County EC, Arkansas; East Central Arkansas EC, 
Arkansas; Fayette/Howard EC, Tennessee; East Prairie Enterprise 
Community, Missouri; and, finally, in the Round II designation in 1999, 
the new Southernmost Illinois Delta EZ was established in Illinois.
    EZ/EC principles.--The EZ/EC program is based upon four key 
principles: economic opportunity, sustainable community development, 
community-based partnerships, and strategic vision for change. Each 
community was required to engage in extensive community planning to 
develop a strategic plan for its EZ/EC application. The communities 
received Health and Human Services Social Security block grants, and 
Empowerment Zone employers gained a number of tax incentives, such as 
tax credits equal to 20 percent of the first $15,000 in wages or 
training expenses for qualified employees.
    A crucial feature of the program was the communities' success in 
leveraging their federal funding with commitments from state, county, 
and local governments, private businesses, and nonprofit and foundation 
awards. The average leveraging ratio for rural communities in the 
period from 1994 to the beginning of 1999, for example, was 
approximately 10 dollars of additional funding for each one dollar of 
EZ/EC funding. The total amount these communities drew from EZ/EC 
funding was approximately $10.225 million, which leveraged roughly ten 
times as much, or about $107.4 million. Thus, the great majority of the 
EZ/EC communities managed their financial resources so as to multiply 
the impact of the federal funding and make their community and economic 
development sustainable for the long term.
    The community development section of the inventory provides details 
about specific projects regarding a variety of issues in the Delta, 
including: job creation and retention; housing; health care; 
infrastructure; small business development; small and limited resource 
farmer issues; education and training; and other issues. The program 
looks forward to success for the Round I and Round II communities, as 
well as the possibility of continued expansion through passage of a 
third round of community designations throughout the Delta and the rest 
of the country.
    Moreover, in collaboration with the Department of Treasury, many 
communities have been assisted by the Community Development Financial 
Institutions initiative, which has provided extensive financial support 
for many community development organizations in local areas throughout 
the region. In President Clinton's ``New Markets Initiative'' trip to 
Clarksdale, Mississippi, in July, 1999, he announced nearly $15 million 
in new private investments in the Enterprise Corporation for the Delta, 
a nonprofit organization that uses federal grants to leverage private 
investments in business. The President announced that the Bank of 
America would pledge $500 million in equity for business enterprises in 
low-income areas; of that total, $100 million will go into a Community 
Development Financial Institution (CDFI). The President said that ``We 
are going to do everything we can in the government to give the 
financial incentives necessary for people to invest here.''
    Regional planning.--The communities also played a dynamic role in 
promoting a regional approach to economic and community development. 
The rural and urban EZ's and EC's in the region banded together to form 
the Southern EZ/EC Forum, which is working with other nonprofit 
foundations as well as local, state and federal governments to promote 
their long-range vision of regional development. The Forum, calling 
itself the Mississippi Delta Regional Initiative, was organized in 1995 
and has developed its own multi-state strategic plan. Vice President Al 
Gore has endorsed the Southern EZ/EC Forum's efforts, which are among 
the key forces supporting the overall ``Delta: Beyond 2000'' 
initiative.
    An important regional entity that promotes the Delta's development 
is the Delta Compact, which is largely comprised of community-based 
nonprofit organizations in Arkansas, Louisiana, and Mississippi that 
attempt to direct resources to the most distressed communities and 
populations in the Delta. More than 35 Delta Compact signatories have 
committed over $40 million in resources and technical assistance to 
this collaborative enterprise.
    The Department of Commerce continued its longstanding policy of 
providing regional planning support to the Delta during the 1990s. The 
Agency funded 29 multi-county regional planning organizations (Economic 
Development Districts) helping Delta communities develop comprehensive 
economic development strategies to provide economic opportunity. The 
Economic Development Administration (EDA) provided further support for 
regional planning efforts by funding seven University Centers servicing 
the Delta.
    Examples of EZ/EC community development accomplishments.--The EZ/EC 
program is the most innovative and wide-ranging of the development 
initiatives discussed in this report, since it is inter-related with 
activities for transportation, job creation, health care, education, 
infrastructure, small business development, and other issues analyzed 
in all sections of The Delta Initiatives. The following examples are 
just a tiny sampling of EZ/EC activities, but they reflect the types of 
grassroots community development generated by this program:
  --Job growth promoted by regional distribution center in 
        Mississippi.--Using tax credits and EZ/EC funding, the Mid-
        Delta Mississippi EZ attracted a regional distribution center 
        for Dollar General Stores that created hundreds of jobs in 
        Indianola, Mississippi. The project involves a 800,000-square-
        foot facility that will ship household products to 370 local 
        stores. Public and private investment in this project exceeded 
        $38 million. The Mississippi Department of Community and 
        Economic Development provided $2 million in community 
        development block grant funds. EZ tax credits provided up to 
        $3,000 for every resident hired. Dollar General invested more 
        than $25 million. With all the leveraging of private and state 
        funds, this project received a 30 to 1 return on the initial 
        EZ/EC investment of $900,000. In this largely agricultural 
        area, the job base had been shrinking due to technological and 
        market changes in farming. The CEO of Dollar General, Cal 
        Turner, Jr., stated that his company chose Indianola because of 
        the availability of labor and the total community support. The 
        center provides large numbers of well-paid jobs and has the 
        potential to help stop the brain drain of people leaving the 
        local area.
  --Job creation and/or retention at Macon Ridge EC.--By early 1998, 
        the Macon Ridge Louisiana EC summarized its record regarding 
        jobs: a total of $953,000 was loaned, with leveraging of 
        private funds adding up to $787,000. A total of 118 minority 
        jobs were created or retained, with 111 jobs held by women 
        being created or retained. The EC reported 25 minority-owned 
        businesses and 20 businesses owned by women participating in 
        the program.

            Community Housing Efforts:

    Housing revitalization in Mississippi County.--The Mississippi 
County, Arkansas EC developed and implemented a comprehensive plan for 
affordable housing development and community improvement in Mississippi 
County. The plan coordinates efforts to achieve affordable home 
ownership, rental opportunities, and community improvement projects. To 
address the problem of a lack of information about credit and housing 
opportunities, the EC implemented a credit repair counseling and home 
ownership training program. Since its inception, 70 families have 
participated in this counseling program. The EC area has suffered from 
deteriorating housing stock that has lowered the standard of living for 
many low-income families. In response, the EC created a preservation 
and rehabilitation program for owner-occupied units. The EC surpassed 
its original goal of rehabilitating 20 housing units and now has 
rehabilitated 43 homes. The EC has also focused on creating affordable, 
clean decent rental units for low-income residents. The EC has 
constructed 57 new rental houses for families, again surpassing its 
original goal of 20 new homes.
    Partnerships with nonprofit grassroots organizations.--The North 
Delta Mississippi EC has developed an effective collaboration with 
Tallahatchie Development League (TDL), a nonprofit, grassroots 
organization that promotes community development in ``education, 
economics, and family life.'' TDL is a partner in the EC's Housing 
Preservation Grant Program, and also takes part in the EC's Housing 
Preservation Grant program. In partnership with the North Delta Area on 
Agency, TDL offers 27 meals per day to senior citizens in the Tutwiler 
community. The League has co-developed 72 units of housing within the 
EC. TDL also provides consulting services to communities and other 
nonprofits in preparing applications for housing, Rural Development 
Section 515 programs, the Affordable Housing Program, and community 
development block grant funding.

            Community Health care:

    Delta Futures project for reducing infant mortality and teen 
pregnancy.--This federally funded ``Delta Futures Safe at Home 
Project'' provides a series of services in nutrition, the Women, 
Infants and Children (WIC) supplemental nutrition program, health 
information and education about the dangers of tobacco. The North Delta 
Mississippi EC partners with a consortium of health care providers, 
schools, Head Start, businesses, and community-based organizations that 
contribute solutions to the fight against infant mortality, low 
birthweight, and infant mortality.
    Nursing Assistants Program.--The Northeast Louisiana Delta EC 
sponsored a Nursing Assistants program at the Louisiana Technical 
College's Tallulah campus. Students are enrolled dually in high school 
and the nursing assistants program, which enables them to become 
certified nursing assistants who can go to work immediately after 
graduation. In 1998, 37 students enrolled in two classes in Tallulah 
and 20 enrolled in a class in Lake Providence. Last year, 22 students 
graduated from the program. The program is an excellent preparation for 
students considering a job in the health care industry.
Infrastructure
    Macon Ridge, Louisiana infrastructure development.--Numerous 
examples of infrastructure development took place in 1998 in the Macon 
Ridge Enterprise Community, which received a series of infrastructure 
improvements through USDA Rural Development funding. The following are 
several prominent examples:
    --Turkey Creek Water System received a grant amount of $1,815,000 
            and a loan of $695,000 for the construction of a rural 
            water distribution system, including water production 
            wells, elevated storage tank, distribution lines and 
            service connections for approximately 400 households in 
            Franklin Parish.
    --In Ferriday, Louisiana, a Rural Business Enterprise Grant of 
            $225,000 was used to acquire the land and building for the 
            Macon Ridge Enterprise Community Resource Center.
    --In Harrisonburg, a $250,000 grant and $200,000 loan was used to 
            construct a new wastewater treatment facility.
    --For the Concordia Parish Water District, a $1.294 million grant 
            and $482,000 loan upgraded a water system that had been 
            inadequate by constructing three new water wells, four 
            exchange units, a new metal building and a 200,000 gallon 
            potable water storage tank.
    --In the towns of Wisner, Newellton, and St. Joseph, and Catahoula 
            Parish, USDA Community Facilities grants were used for 
            improvements to fire and police department equipment.
    Railroad improvements to Tennessee industrial park.--The Fayette/
Haywood County EC solved a major transportation problem for the Haywood 
County industrial park in Brownsville, Tennessee. The industrial park 
had been filling up and there were almost no sites remaining with 
railroad access. The EC applied for a $600,000 USDA Rural Development 
grant and started laying a railroad spur to the underserved area of the 
park. A Fortune 500 company got in touch with the park just as the spur 
was being constructed, ultimately resulting in the opening of a $20 
million high-tech papermaking plant employing 35 people. The USDA 
funding was essential to the project, which came in under budget, in 
turn enabling a second spur to be built that will encourage more firms 
to locate at the Brownsville park.
    Telecommunications.--The Fayette County/Haywood County EC is 
working with local and state partners to promote a state-of-the-art 
community telecommunications center for workforce development. The 
Fayette County School Board is creating a Telecommunications and 
Business School that will be equipped with computers and Internet 
access. The EC developed a strategy to establish job training programs 
relevant to the needs of local and regional markets. Local and state 
officials, Shelby State Community College, and Rural Development are 
all cooperating in this joint effort to enhance telecommunications in 
the local area.

            Community Small Business Development:

    Historically Black colleges and Universities grant for business 
incubator.--The Northeast Louisiana Delta Community Development 
Corporation worked with Grambling State University to obtain a grant 
from the U.S. Department of Health and Human Services (HHS) to develop 
a business incubator for new and emerging micro-businesses. The grant 
was awarded through the Office of Community Services' Historically 
Black Colleges and Universities. This project will provide economic 
opportunities and promote self-sufficiency for low-income residents of 
the area.
    North Delta Revolving Loan Fund for small businesses.--The North 
Delta EC has funded 19 small businesses from its revolving loan fund. 
Each loan was in the amount of $10,000. The businesses provide job 
opportunities and entrepreneurial opportunities for local residents. 
The EC's vision for a business revolving loan fund (RLF) became a 
reality for Quitman County, as the EC Board approved Quitman County 
Economic Development District as administrator for the RLF. In 1998, 
the business plan application process led to 15 loans, 88 percent of 
which were made to minorities. The total amount loaned was $166,300, 
which was used for a variety of purposes from business expansion or 
purchasing equipment to inventory replenishments for existing 
businesses.
    One third of the $250,000 available was set aside for businesses 
going into the new business incubator located in Lambert, which will be 
in operation by the fall of 1999. An additional EC initiative is a new 
Community Training Institute, which will provide training in budgeting, 
grant writing, credit repair, and other issues of interest to EC 
residents.

Community Education and Training

    Little Rock preschool program.--In the Pulaski County/Little Rock, 
Arkansas EC, the ``Success by Six'' program is creating a community 
where children have the necessary skills to enter school ready and able 
to learn. The EC is partnering with 10 state and local entities and a 
steering committee representing more than 50 individuals or 
organizations. ``Success by Six'' features home visits by volunteer 
neighborhood residents who are trained as family resource advocates. 
For families with pregnant women or children under 6 years old, home 
visitors conduct assessments, determine household needs, and connect 
family members to community resources such as health care, social 
services, and educational programs. The program is working with roughly 
20 families. Approximately 10 home visitors have been trained, with 
many more submitting applications to take part. Research has 
demonstrated that by reaching out to families when children are in 
their earliest formative stages, serious problems can be avoided in the 
future and less funds will be expended upon remedial education, health 
care, or other social costs. The program is planned as a long-term 
assistant for family resources.
    New Orleans Safe Harbor Schools Initiative.--The New Orleans EC 
created a ``Safe Harbor Schools'' initiative for educational activities 
in 10 sites within the community. Now in its fourth year of operation, 
the program is moving beyond basic survival skills to include creative 
learning experiences in language, arts and math. Safe Harbor Schools 
offered tutoring programs and enrichment activities presented by 
certified teachers. Offerings included computer skills and family 
learning events, as well as classes in conflict resolution and 
mediation. Four of the Safe Harbor sites are for middle and high school 
students. In the Algiers community, the program is focusing on out-of-
school populations due to a high truancy and dropout rate, with GED 
preparation and career counseling being offered to 50 EC youths and 
students. Progress has been made in keeping students motivated by use 
of the computer lab and job training center, and through contact with 
the school's numerous partners. The project has been a success for many 
young people who completed their GED and job training.
    With the success of Round I and the announcement of Round II in 
early 1999, the family of Delta EZ's, EC's, and Champion Communities 
enjoys great promise for future growth. The particular projects 
summarized above represent only a small fraction of the 
accomplishments, but they demonstrate how communities are meeting and 
in many cases surpassing the program's goals, leveraging resources and 
creating sustainable development. Ultimately, the success of the EZ/EC 
idea flows from men and women in the Delta communities who have 
demonstrated the commitment and hard work needed to make their vision 
of opportunity and revitalization become a reality.

Community Efforts to Fight Substance Abuse

    In 1990 the Commission recommended that drug intervention, 
education, and prevention programs be improved and/or created to make 
local communities and schools in the Delta drug-free. Like other areas 
of America, the Delta continues to suffer from drug and alcohol abuse 
and associated problems of student failures, drug dependency, and 
crime. Obviously, federal, state, and local law enforcement agencies 
play a crucial role in the fight against substance abuse. Many of the 
specific steps recommended by the Commission involved the Congress, the 
state and local level, religious organizations, or local school 
districts. The Clinton administration has pursued a variety of 
initiatives to promote collaboration among state, local and federal 
entities. The Office of National Drug Control Policy (or ONDCP, based 
in the Executive Office of the President) coordinates many of these 
collaborative initiatives, including the following examples:
  --High Intensity Drug Trafficking Areas Program (HIDTA).--This 
        program encourages joint efforts among federal, state and local 
        law enforcement agencies to address critical drug trafficking 
        problems that have a harmful impact in surrounding areas of the 
        United States. Each HIDTA assesses regional drug threats, and 
        then designs and implements strategies to combat the threats. 
        Nationwide this program grew from five regional programs with a 
        $25 million budget in 1990 to 31 programs and a $184 million 
        budget in fiscal year 1999. The Delta was included in this 
        expansion: six counties in the region have been designated in 
        three separate HIDTA programs. East Baton Rouge, Jefferson, and 
        Orleans parishes in Louisiana and Hinds County in Mississippi 
        are part of the Gulf Coast program; Cape Girardeau and Scott 
        counties in Missouri are in the Midwestern program.
      The Gulf Coast HIDTA was designated in 1996. The Coast serves as 
        one of the transit and staging zones for drug trafficking, due 
        to the 8,000 miles of coastline, extensive swamps, rivers, 
        hundreds of small airstrips, and an intricate rail system. 
        Funding of $6 million in 1999 was distributed across the Gulf 
        Coast to support state operations centers and associated task 
        forces to disrupt drug trafficking organizations, reduce the 
        demand for drugs, and strive for a drug-free environment in 
        local communities.
  --Drug-Free Communities Program.--The Office of National Drug Control 
        Policy funds community coalitions that work to increase 
        collaboration among government, the private sector and 
        community organizations that demonstrate a long-term commitment 
        to reduce drug use. For example, in fiscal year 1998, the Shady 
        Grove M.B. Church coalition of Greenville, Mississippi received 
        $100,000 to provide after-school and other prevention programs 
        for local youth. This local coalition serves the city of 
        Greenville as well as Washington, Bolivar and LeFlore counties. 
        This grant in fiscal 1998 was funded as part of a nationwide 
        competitive process, and the program is continuing, with 
        another round of grants to be announced later in 1999.
  --The National Youth Anti-Drug Media Campaign.--This campaign is one 
        of the Office of National Drug Control Policy's most important 
        efforts to implement the first goal of the National Drug 
        Control Strategy: ``Educate and enable America's youth to 
        reject illegal drugs, as well as alcohol and tobacco.'' This 
        campaign disseminates drug prevention messages through 
        television, radio, video, newspaper, Internet, and other 
        formats. In 1997, the total Media Campaign funding for the 
        Delta was $3.087 million. This investment also generated 
        significant pro-bono contributions in the form of free air time 
        for the campaign through news and public affairs programs as 
        well as other programming with drug-prevention as its theme.
      The effort serves major media markets in the Delta such as Little 
        Rock, New Orleans, Baton Rouge, Jackson, Paducah, Kentucky, and 
        Springfield, Missouri. Examples of local outlets carrying Youth 
        Anti-Drug Media Campaign messages include television stations 
        such as WNOL in New Orleans, KDEB in Springfield, KBSI in 
        Paducah; radio stations such as KIPR in Little Rock, WEMX in 
        Baton Rouge and KMEX in New Orleans; and newspapers such as The 
        Jackson Clarion Ledger, New Orleans Times-Picayune, and many 
        others. A comprehensive school program reaches middle and high 
        school students throughout the region. Vehicles for the school 
        program include Weekly Reader, Scholastic, Channel One (in-
        school television). The overall media campaign reaches 82 
        percent of teachers, coaches, mentors and other people in a 
        position to directly influence youth on an average of 3.5 times 
        each week. Ninety percent of all teenagers see anti-drug 
        advertising an average of 4.4 times each week.

                                HOUSING

    HUD has worked with local communities throughout the Delta in 
promoting more equitable housing opportunities for moderate and low-
income people. The Housing inventory contains detailed information on 
HUD's efforts to reduce the financial, informational, and systemic 
barriers to homeownership as a part of President Clinton's National 
Homeownership Strategy.
    HUD pursues a series of other projects for assisting moderate and 
low-income people, such as escrow accounts of a percentage of monthly 
rent for high-end rent paying tenants to be used later for down 
payments on homes; Community Development Block Grant funding projects; 
assistance with loans; assistance for the elderly and disabled; and a 
variety of policies aimed at eradicating racial, religious or other 
forms of discrimination in housing. The Commission had recommended that 
an additional 400,000 units of decent, affordable rental housing be 
provided for low-income Delta residents, and HUD reported that building 
permits for an estimated 310,000 such units had already been issued by 
1998.
    Homelessness issues.--An array of initiatives aimed at eliminating 
homelessness from the Delta. While acknowledging that this ambitious 
goal has not yet been achieved, addressing homelessness is one of the 
Clinton administration's priorities. Nationally, funding for HUD's 
homelessness assistance programs grew dramatically from $284 million in 
1992 to $975 million in 1999. An innovative approach called Continuum 
of Care involves comprehensive and cooperative local planning to ensure 
the availability of a range of services--from emergency shelter to 
permanent housing--needed to meet the complex needs of the homeless. 
However, the 1990 Commission set the highly ambitious goal of 
eradicating homelessness by 2001. That goal has not been met.
    Housing discrimination issues.--HUD has greatly expanded efforts to 
enforce the Fair Housing Act. From the early 1990s to 1998, HUD secured 
more than $3.2 million to compensate people who had suffered 
discrimination in violation of housing laws. Using its authority under 
the Fair Housing Act, Title VI of the Civil Rights Act of 1964, and 
Section 504 of the Rehabilitation Act, HUD has investigated, settled, 
and when necessary prosecuted cases of housing discrimination.
    Rural housing.--In addressing housing problems for rural areas, 
USDA's Rural Housing Service assisted nearly 43,000 Delta households to 
buy or improve their homes. These loans for single-family housing in 
the region from fiscal years 1993 through 1999 came to a total of 
$2.236 billion. Regarding rental housing, the 1990 Report recommended 
that Section 515 Rural Renting Housing and Section 521 Rental 
Assistance programs be expanded. Through these programs, RHS provided 
more than $254 million in low-interest loans for more than 10,000 
rental units in the rural areas of the Delta.
    As the distressed rural counties of the Delta suffered many of the 
worst unemployment rates, these areas also experience many of the worst 
housing problems. The Housing Assistance Council reported in 1997 that 
people in rural areas of the Delta are more likely to live below the 
poverty line: 24 percent of the Arkansas rural residents lived below 
the level, 29 percent of the Louisiana residents, and 31 percent of the 
Mississippi rural residents lived below the poverty line. Yet even 
these statistics mask the staggering levels of poverty among the most 
vulnerable rural groups: for the three states mentioned above, rural 
African Americans in the Arkansas Delta have a 51 percent poverty rate, 
the African American rural poverty rate in Louisiana is 54 percent, and 
for Mississippi the level is 52 percent. Among all races, single-parent 
families with children are the most likely to be poor. Among all 
families, poverty rates in the rural Delta on average are approximately 
6 to 9 percent higher than in urban Delta areas. African American, 
female-headed households in the rural Delta faced poverty rates of 76 
percent in Arkansas, 79 percent in Louisiana, and 75 percent in 
Mississippi.
    These poverty rates obviously pose serious problems for housing in 
the region. About 6 percent of African American households in Arkansas 
lack plumbing, 4 percent in Louisiana, and 6 percent in Mississippi--
the averages of the entire population are almost three times superior 
to that rate. People in the Delta have a higher housing cost burden--
defined as paying greater than 30 percent of monthly income for shelter 
costs. In Arkansas 42 percent of the rural households and 39 percent of 
the urban are cost-burdened, 47 percent of the rural households and 44 
percent of the urban in Louisiana, and 44 percent of rural households 
and 43 percent of the urban in Mississippi. Senior citizens are 
especially vulnerable: 58 percent of rural elderly renters in Arkansas, 
Louisiana and Mississippi as a whole are cost-burdened. Thus, while 
some areas of the Delta have experienced some advances in housing, 
major populations have been left behind, especially the low-income 
elderly and African Americans in rural areas.

 HOUSING EFFORTS HELP REVITALIZE DOWNTOWN JACKSON, MISSISSIPPI DISTRICT

    Forty years ago, Jackson, Mississippi's Farish Street district was 
a thriving commercial and residential area where African-American 
businesses and blues clubs flourished. The 125-block district traces 
its roots to a settlement founded by freed slaves in the 1860s.
    ``From the 1920s through the era of Jim Crow, Farish Street was 
really in its heyday,'' says Michael Hervey, Executive Director of the 
Farish Street Historic District Neighborhood Foundation. ``It was a 
self-contained community because African-Americans had no place else to 
go. After integration, though, many residents elected to move out and 
look for the American Dream in the suburbs.''
    Like other inner cities neighborhoods across the country, the 
Farish Street district experienced its share of disinvestment during 
the 1960s and 1970s. However, Farish Street was luckier than other 
inner-city neighborhoods that watched urban renewal change their unique 
characters. Historic buildings along Farish Street remain standing and 
intact. When the area received a historic district designation in 1994, 
its downward spiral began to reverse.
    The first sign of that reversal was the Farish Street Housing 
Project, a $2.5 million, foundation-initiated project that renovated 35 
historic shotgun houses during 1998. The foundation is now seeking 
support for a $15-million project to create an entertainment district 
that Hervey hopes will become a regional tourist destination.
    The housing project, completed in March 1999, involved a host of 
partners. The National Equity Fund provided $1.6 million from the sale 
of Historic Preservation Tax Credits. A consortium of local banks 
furnished $600,000 and the City of Jackson gave $175,000 from its 
Community Development Block Grant allocation from the Department of 
Housing and Urban Development.
    The shotgun homes, built between 1930 and 1950, were completely 
gutted inside and their outside structures were retained and restored. 
Each home required new plumbing, electrical wiring, fixtures, and 
appliances. Eligible residents who qualify for Section 8 rental 
subsidies will be able to rent the one-, two-, and three-bedroom 
bungalows. After the 15-year tax credit compliance period ends, the 
homes will be sold to qualified buyers. For now, tenants won't pay more 
than 30 percent of their incomes for rent.
    The project will provide much-needed housing in an area where more 
than half of the residential stock is vacant, substandard, or 
abandoned. In addition, the project already has helped the local 
economy by providing construction jobs for almost 60 local workers. 
Minority-owned firms received 80 percent of the project's business.

                               EDUCATION

    While education is primarily a responsibility of state and local 
governments, improving K-12 education is a major priority of the 
Clinton-Gore Administration. During this decade, the U.S. Department of 
Education worked in partnership with the state and local level to help 
increase levels of student achievement, create greater regulatory 
freedom, and expand targeted funding in the Mississippi Delta region.
    Targeting of funds to poor communities.--The Clinton-Gore 
Administration has met the Commission's 1990 goal of providing 
``targeted services to low-income, rural students'' in the Mississippi 
Delta. The Department of Education--through its Title I program--
provided over $350 million in fiscal year 1998 alone to high-poverty 
school districts in the Delta to help improve student achievement. 
Under the Administration's Class Size Reduction Initiative, Delta 
school districts received over $50 million in fiscal year 1999 to hire 
up to 1,500 new teachers in the early grades. The Project Star study 
conducted in Tennessee demonstrates the positive impact of smaller 
classes of 13-17 students in the early grades on student achievement, 
especially among poor students.
    Migrant farmworkers and their children living in the Delta have 
also benefited from Federal funding. During the 1998-99 school year, 91 
percent of the 135 migrant students who participated in a University of 
Tennessee Program--supported by a $350,000 Federal grant in fiscal year 
1999--completed their G.E.D. A $270,000 Federal grant in fiscal year 
1999 provides family literacy services to 120 migrant families residing 
in the Kentucky Delta through the Ohio Valley Educational Cooperative 
(OVEC). Native-American students living on reservations in the region 
have also received additional Federal funding. The Department of 
Education awarded $177,097 in fiscal year 1999 to the Mississippi Band 
of Choctaws to implement a tutorial program aimed at improving student 
academic achievement.
    Access to technology.--The Delta region has received millions of 
dollars in Federal funding during the 1990s to help insure that 
teachers have the skills and resources to provide students with a rich 
educational experience enhanced by advanced technology. Four Federal 
programs--the Technology Literacy Challenge Fund (TLCF), Technology 
Innovation Challenge Grants (TICG), Star Schools and the E-rate--all 
target funding for technology to high-poverty regions. In fiscal year 
1998 alone, Delta districts in Louisiana received $4,600,000 of the 
$5,900,000 in TLCF funding allocated by the State in subgrants directly 
to districts. For example, St. Barnard, Plaquemines, St. Charles, and 
Jefferson Parishes in Louisiana received a $425,000 TLCF grant in 
fiscal year 1998 to provide teacher-training initiatives focused on 
technology-connected lessons in mathematics and language. Between 
fiscal year 1998 and fiscal year 1999, Concordia and Catahoula Parish 
Schools in Louisiana received over $2,600,000 in Federal TICG funding 
to expand the successful Trainer of Teachers program to poor, rural 
school districts in order to help teachers use technology to improve 
student learning in core academic subjects, such as English, 
mathematics, and science.
    Increased flexibility for states and schools.--The increased 
flexibility provided to states and schools by the Department of 
Education has helped bring about improved student achievement. The 
Commission recommended in 1990 that Congress allow ``states and/or 
school districts to employ innovative pilot projects to educate low-
income, at-risk students.'' Schools and districts were given greater 
authority to create their own reforms through the 1999 reauthorization 
of the Elementary and Secondary Education Act (ESEA). Due in great part 
to the implementation of a research-based schoolwide reform supported 
by Federal legislation and funding, the percentage of fourth graders in 
the Memphis City Public Schools scoring `proficient' on the Tennessee 
Comprehensive Assessment Program (TCAP) Writing Assessment increased 
from 20 percent in 1996 to 34 percent in 1997. According to Memphis 
City School Superintendent--and 1998-99 American Association of School 
Administrators (AASA) Superintendent of the Year--Dr. Gerry House, 
``the increased funding and flexibility in Federal programs support our 
goal of improving student achievement by focusing resources in a 
coordinated way to meet the diverse educational needs of our urban, 
poor children.''
    In 1997, a pilot program called Ed-Flex granted 12 states 
(including Illinois) increased flexibility in decision-making on the 
use of Federal funds in exchange for increased accountability for 
improved student achievement. President Clinton signed legislation in 
1999 expanding Ed-Flex eligibility to all 50 states.
    Mathematics achievement.--During the 1990s, students in the 
Mississippi Delta have made the greatest achievement gains in 
mathematics. The Commission called for all Delta students to 
demonstrate ``competency'' in mathematics and science at ``grades four, 
eight and twelve.'' Results from the voluntary National Assessment of 
Educational Progress (NAEP) demonstrate that mathematics scores have 
improved this decade in the three states where a majority of the 
population reside in the Delta region. NAEP test scores for fourth and 
eighth grade students in Arkansas, Louisiana and Mississippi improved 
by significant amounts between 1992 and 1996. Many schools within these 
three States experienced substantial improvements during this period of 
NAEP score increases. For example, fourth grade students at the Glen 
Oaks Park Elementary School in East Baton Rouge Parish, Louisiana have 
improved their median national percentile rank on the mathematics 
section of the California Achievement Test (CAT) from the 29th 
percentile in 1993 to the 75th percentile in 1997. The federally funded 
Eisenhower Math/Science Educational Consortium has provided numerous 
teachers in the Delta with training aimed at improving teaching and 
learning. The Consortium recently funded Algebra Project training 
sessions for teachers in Jackson, Mississippi. Studies have 
demonstrated that the Algebra Project has had a beneficial impact in 
Jackson on student motivation and problem-solving skills.
    Literacy levels.--The Commission in 1990 called for a general 
increase in ``literacy'' for children and adults in the Delta. Under 
the Clinton-Gore Administration's America Reads Work-Study Program, the 
Federal government pays 100 percent of the wages of work-study students 
who tutor children or adults in literacy programs. Numerous colleges 
located in and near the Delta region take part in the America Reads 
program in order to help reach the President's goal of ensuring that 
all children can read by the end of the third grade. Federal funding 
has supported efforts in the Delta to improve literacy levels for both 
children and adults. Since instituting an innovative reading program 
through a $60,000 Department of Education grant in 1994, the Portland 
Elementary School in Ashley, Arkansas saw average third grade reading 
scores on the Stanford Achievement Test increase from the 25th 
percentile in 1993 to the 46th percentile in 1999. Over 1,400 adult 
learners in five Mississippi Delta counties in Louisiana--East Carroll, 
Madison, Tensas, Catahoula, and Concordia--are provided literacy 
training and life skills by a $330,000 matching Federal-State Adult 
Education grant.
    The Department of Education and other advocates of improved 
education in the region recognize that these improvements are just a 
beginning, and much more progress needs to be achieved to bring all the 
Delta's schools up to the level of opportunity enjoyed by most 
Americans.

 TEST SCORES IMPROVE AT NEWBERRY ELEMENTARY SCHOOL MEMPHIS CITY SCHOOL 
                                DISTRICT

    The Newberry Elementary School in Memphis, Tennessee enrolls over 
850 students in kindergarten through the fifth grade. Over fifty-five 
percent of the students at Newberry are eligible to receive free or 
reduced-price school lunches. Supported by Federal legislation passed 
in 1994 that expanded opportunities for schoolwide reforms, Newberry 
implemented a research-based reform model through New American Schools 
known as Expeditionary Learning Outward Bound (ELOB). Through adopting 
the ELOB model, educators at Newberry have instituted a schoolwide 
curriculum that centers on the purposeful, in-depth study of two or 
three projects each year from an interdisciplinary perspective. School 
projects usually take students outside the school and bring the 
community inside the school.
    Students at Newberry have demonstrated dramatic improvements in 
writing. The number of fourth grade students scoring `proficient' on 
the Tennessee Comprehensive Assessment Program (TCAP) Writing 
Assessment increased from 13 percent in 1994 to 79 percent in 1999. 
Teachers at Newberry foster a `culture of revision' by maintaining 
writing portfolios for all students and providing real-life writing 
exercises. For example, during the 1998-99 school years, students were 
asked to write letters to local businesses requesting supplies to 
create a school garden. ``When students write to business people in 
their own community requesting products, they are motivated by a desire 
to express themselves clearly and accurately,'' explains Newberry 
fourth grade teacher Kelly Douglas.
    Technology has helped students at Newberry improve their writing 
skills. Federal funding has allowed the Newberry school and similar 
schools across the country to substantially increase their number of 
computers and Internet hook-ups. ``The Internet pushed the roof off the 
building and collapsed the walls. Now the whole world is our 
classroom,'' explains Newberry Principal Marilyn Ingram.

                               JOB GROWTH

    In the six years following the completion of the Lower Mississippi 
Delta Development Commission's Final Report, 365,000 new jobs were 
created in the region, an increase of almost 12 percent. In 1993, the 
annual average unemployment for the entire 219-county region was 7.5 
percent. (Averages over an entire year are more accurate than comparing 
the figures for a single month, which can contain temporary 
aberrations.) By 1998, the annual average unemployment had fallen 
almost two percentage points, to 5.7 percent. Over this period, all but 
35 counties in the region experienced job growth.
    Despite the general improvement in the region's employment level, 
many of the poorest counties still suffer from high unemployment. For 
example, in 1988, West Carroll Parish in Louisiana had an unemployment 
rate of 24.86 percent. By 1998, the annual unemployment rate for West 
Carroll Parish had declined by more than 10 percent, but it remained at 
the high level of 14.8 percent. In Arkansas, St. Francis County's rate 
fell from 13.4 to 9 percent from 1993 to 1998, while Lee County's 
unemployment fell from 11.2 to 9.2 percent; the lower levels are still 
far higher than the national rate that hovered roughly in the 4.3 
percent range in 1998-99. Unemployment in Williamson County, southern 
Illinois, fell from 12.8 to 8.2 percent. There were other rural 
counties that did not improve over this period. Coahoma County, 
Mississippi, for example, had a 10.9 percent unemployment rate in 1993, 
and by 1998 the level was still at 10.4 percent.
    In contrast, many of the urban areas of the region enjoyed low 
unemployment levels in the 1990s. Pulaski County, Arkansas (4.9 to 4.0 
percent), Jefferson Parish, Louisiana (6.1 to 4.1 percent), Shelby 
County, Tennessee (5.5 to 3.7 percent), Hinds County, Mississippi (from 
5.3 to 4.1 percent) all improved to rates that were comparable or 
slightly lower than the national average from 1993 to 1998. Clearly, 
these figures show that the more rural areas in the heart of the Delta 
either did not participate at all in the economic boom, or their 
relative improvement left them at still unacceptably high levels. While 
problems remain in some areas of the large cities, the most urgent need 
for economic regeneration lies in the rural areas like West Carroll 
Parish or St. Francis County that continue to suffer from unemployment 
rates two and three times higher than the national average.
    Job training.--The 1990 Commission Report emphasized that ``even 
entry level positions now require advanced skills attainment,'' and 
therefore it is essential that Delta residents have access to the most 
comprehensive job training programs possible. The U.S. Department of 
Labor has promoted a series of job training and welfare-to work 
projects that are summarized in this section. President Clinton has 
signed the Balanced Budget Act of 1997 and the Workforce Investment Act 
(WIA) of 1998, two major pieces of legislation that will have a major 
impact on achieving this goal:
    Welfare-to-Work.--Moving people from welfare-to-work is now one of 
the primary goals of Federal welfare policy. The Balanced Budget Act of 
1997, signed by the President on August 5, helps to achieve that goal 
by authorizing the U.S. Department of Labor to provide Welfare-to-Work 
Grants to states and local communities to create additional job 
opportunities for the hardest-to-employ recipients of Temporary 
Assistance for Needy Families (TANF). This program is helping Americans 
make the transition from welfare and dependency to work and self-
sufficiency.
    In order to receive formula funds under the Welfare-to-Work 
program, a state must submit a plan to the Department of Labor for the 
administration of a grant. After the Department determines that the 
plan meets statutory requirements, states administer the formula funds 
and assure that they are coordinated with funds spent under the TANF 
block grant. Generally, private industry councils (or workforce 
investment boards) established under the Job Training Partnership Act 
administer the program at the local level in coordination with elected 
officials. Funds allocated to states are based on a formula that 
equally considers states' shares of the national number of poor 
individuals and adult recipients of TANF assistance. A state is allowed 
to retain 15 percent of the money for welfare-to-work projects of its 
choice. For every two dollars of federal funding, states provide one 
dollar of non-federal funding.
    Under this program, the 25 percent of funds not allocated by 
formula are available for competitive grants awarded by the Secretary 
of Labor directly to local governments, private industry councils, 
community development corporations, community action agencies, and 
other private organizations that apply in conjunction with a private 
industry council or local government.
    In 1998, substantial federal welfare-to-work formula allocations 
were devoted to the Delta. The 45 Delta parishes of Louisiana received 
a total of over $15 million in 1998. The Service Delivery Area (SDA) 
including Cross, Phillips, Crittenden, St. Francis, and Lee counties in 
east Arkansas received over $1.4 million, while the Southeastern SDA 
including Grant, Arkansas, Lincoln, Bradley, Ashley, Desha, Jefferson, 
Cleveland, Drew, and Chicot received over $1.25 million. The central 
area including Arkansas' largest county, Pulaski, as well as Prairie, 
Monroe, and Lonoke counties received $826,311. The northeastern 
Arkansas SDA received over $750,000. Mississippi did not submit state 
welfare-to-work plans in either 1998 or 1999. The Inventory section on 
job training contains an in-depth analysis of statistics on each local 
area in the region.
    Examples of the kinds of programs designed to move people from 
welfare to work are much more instructive than a recitation of the 
dollar figures:
  --New Orleans Welfare-to-Work Collaborative.--Under the competitive 
        grant part of the program, an important example was the $5 
        million project awarded to the City of New Orleans for the New 
        Orleans Welfare-to-Work Collaborative, an organization made up 
        of more than 60 businesses, service providers and consumer 
        representatives. This project emphasizes pay for performance 
        and family self-sufficiency. It will provide specialized 
        services for substance-abusing mothers and noncustodial parents 
        of children receiving welfare benefits. The target community--
        in the central city of New Orleans in an Enterprise Community, 
        New Orleans East and Lower Ninth Wards--faces a shortage of 
        low-skill jobs that pay a wage sufficient to sustain a family. 
        A lack of education, inadequate transportation and child care, 
        and substance abuse are major problems this project will 
        address. The Orleans Private Industry Council will establish an 
        Employer's Information Line to provide information on the 
        incentives to employers to hire welfare recipients. This line 
        will also be a rapid response mechanism to solve any workplace 
        problems in relation to newly hired workers in the program. A 
        work center will provide job skills and educational assessments 
        of each participant; it will work with local agencies to expand 
        transportation and child care facilities. The program aims to 
        move these populations into long-term employment, thereby 
        increasing both the financial and emotional support that 
        noncustodial parents give to their children.
  --Little Rock one-stop work center.--Another $5 million under the 
        competitive grant phase of this program was awarded to the City 
        of Little Rock for an innovative project that focuses on a 
        ``one-stop center'' anchoring employment and supportive 
        services. A unified, individualized Employment Support Plan 
        will be developed with each client, with the goal being a 
        connecting and focusing of services that promote sustained 
        employment. A ``whole family'' approach includes job placement, 
        employment education and training, substance abuse treatment, 
        assignment of a personal mentor/job coach to assist with job 
        retention, child care and transportation assistance, and help 
        in locating housing. The Pulaski County plan integrates ``high 
        tech'' assistance based on computer-linked providers and data 
        bases with ``high touch'' help from personal mentors and job 
        coaches. This plan involves a coalition of state, federal, 
        university, private business, and nonprofit foundations as 
        partners, including: Advocates for Battered Women, Goodwill 
        Industries, United Way of Pulaski Center, Housing Authority--
        Little Rock, Southwest Airlines, University of Arkansas at 
        Little Rock, and Arkansas Employment Security Department.
  --Hinds County, Mississippi Remedial Employment Opportunity Program 
        (REOP).--Although Mississippi did not submit a state plan and 
        thus did not take part in the formula funding for welfare-to-
        work, Hinds County, Mississippi did receive a $3,294,191 award 
        under the competitive grant part of the program. The target 
        community includes the city of Jackson, an Enterprise Community 
        in an area of historically high poverty. The project aims to 
        address the same fundamental problems as do the New Orleans and 
        Little Rock plans: inadequate education, poor work histories, 
        substance abuse, inadequate transportation and child care, and 
        inadequate job skills. The goal of REOP is to match new workers 
        and their need for economic self-sufficiency to area employers. 
        Local substance abuse treatment centers, housing and other 
        community organizations will work with private employers. The 
        Education and Training Institute, Inc., (ETI) is a social 
        service corporation charged with strengthening the family 
        through self-sufficiency. ETI will manage the program in the 
        recruitment, outreach, eligibility requirements, case 
        management, referrals and follow-up for the Hinds Private 
        Industry Council.
    Workforce Investment Act of 1998.--On August 8, 1998, President 
Clinton signed the Workforce Investment Act (WIA) of 1998. This new 
authority overhauls the job training system by repealing the Job 
Training Partnership Act effective June 30, 2000 and by bringing 
together many Federal, State and Local partners into a comprehensive 
one-stop service delivery system--a customer-driven overhaul that will 
help employers get the workers they need and empower job seekers to 
meet the challenges of the new century by getting the training they 
need for the jobs they want.
    Annually, the Department of Labor allots by formula federal job 
training funds to the seven states in the Lower Mississippi Delta 
Region. These funds may be used to provide a wide array of services 
based upon individual need for low-income adults and youth, welfare 
recipients, and dislocated workers. Governors, in turn, allocate the 
funds to local communities where decisions are made on who will be 
served from among the eligible population, and how the funds will be 
used to help or qualify individuals find new jobs or first jobs. State 
and local officials have significant flexibility regarding how these 
funds are used and generally make decisions based upon the population 
being served and the needs of the local communities. One stop delivery 
systems have been developed throughout the Delta, where access to 
America's Job Bank and America's Talent Bank is available to all job 
seekers. Approximately twenty Job Corps Centers are located in the 
region, with more than 10,000 youth receiving residential basic and 
vocational training annually.
    The welfare-to-work and workforce investment reforms are relatively 
new programs, and thus data on their effects are not complete as of 
yet, although the gradual increases in job growth and reduction in 
welfare rolls appear to be moving in the right direction. The welfare-
to-work programs provide innovative new approaches to the old problems 
of ending the debilitating cycle of dependency and unemployment.

   LINKING LIVABLE COMMUNITIES, TRANSPORTATION AND JOBS IN THE DELTA

    In many areas of the Delta, small communities struggle with the 
challenge of finding jobs and obtaining transportation to the 
workplace. Some rural counties in Mississippi, for example, face a 
rising demand for transit due to substantial growth in the number of 
people commuting to job sites, as well as a growing population of 
senior citizens. Aurelia Jones-Taylor is a dynamic grassroots leader 
who has worked with the Federal Transit Administration (FTA) and other 
federal, state and local organizations to promote connections between 
transportation and job growth. She has a master's degree in Business 
Administration and 25 years experience in project management.
    Ms. Jones-Taylor was instrumental in implementing a series of 
public transportation accomplishments in the north Mississippi Delta. 
Through a Livable Communities Project, the FTA provided a $100,000 
grant for marketing and communications, improving transit facilities 
such as bus stops and shelters, and expanding access to job 
opportunities. Passengers have better knowledge of arrival and 
departure times of buses. The project helped to enhance other capital 
projects and leveraged funding from other agencies. ``It means improved 
service delivery, safe and secure places where clients can wait for 
rides and better on-time services,'' says Ms. Jones-Taylor.
    Another innovative transportation project was ``JOBLINKS,'' 
designed to help Temporary Assistance for Needy Families (TANF) 
recipients in the North Delta Mississippi Enterprise Community find 
transportation to job sites. The project succeeded in helping to 
connect 279 people in rural northern Mississippi with jobs and to 
develop relationships with employers.
    JOBLINKS was created by the Delta Area Rural Transit System 
(DARTS), which received $90,000 from the Community Transportation 
Association of America to provide general public transit services. When 
Welfare-to-Work was first being implemented in Mississippi, DARTS 
partnered with local stakeholders to interview residents of housing 
projects about job readiness, need for child care and transportation to 
jobs. DARTS provided vouchers for people seeking jobs, as well as free 
transportation for the first two weeks after they obtained employment, 
until the person received the first paycheck.
    Ms. Jones-Taylor is Executive Director of DARTS, which was 
established in 1992 by the Aaron E. Henry Community Health Services 
Center, a private, nonprofit corporation providing primary health care 
services. The Health Services Center began providing rural public 
transit services for access to health care in the 1990s. The Federal 
Transit Administration (FTA) approved the transportation plan for this 
project. In 1997 alone, for example, more than 130,000 one-way trips 
were provided, of which more than 80 percent were employment and job-
training related.
    Jones-Taylor pursued a strategy of obtaining funding from multiple 
sources. She coordinated an Innovative Financing Grant of $290,000 from 
FTA to renovate an existing facility to become a Regional 
Transportation Center. A Rural Business Enterprise Grant of $234,000 
from USDA was used to provide matching funds and purchase buses. The 
Mississippi Department of Economics and Community Development also 
provided $200,000 to buy vehicles. Service is provided 24 hours per 
day, seven days per week. The Regional Transportation center provides 
``one-stop shopping'' services for multi-county areas. Jones-Taylor 
said, ``The problem is moving a few people over a large distance with a 
little money. Without the cooperation of all transportation providers, 
it won't be done.'' The center allows the coordination of dispatching, 
vehicle storage and maintenance for rural and specialized transit 
providers. The providers each had separate contracts with fuel 
suppliers, maintenance garages and service organizations; they would 
often provide service in overlapping areas. The new transportation 
coordinating center allows these transit providers to increase daily 
service up to 20 percent with their existing staff and equipment, while 
remaining within existing levels of funding.
    Before these transportation improvements, many people in Coahoma 
and Quitman counties had to endure round-trip commutes exceeding 140 
miles to the job center where they worked in Robinsonville, 
Mississippi. DARTS expanded public transportation from those counties 
to Robinsonville; in addition, the enhanced system supports the 
transportation needs of employees at small businesses by providing 
group rides to day care centers, job placement centers, and employment 
sites. Says Jones-Taylor, ``The Livable Community grant, JOBLINKS, and 
the other innovative transportation improvements help rural people in 
the Delta make the critical transition from poverty to self-
sufficiency.''

                       HEALTH AND HUMAN SERVICES

    The 1990 Report placed great emphasis upon issues in the field of 
health and human services. In the Inventory, the Department of Health 
and Human Services (HHS) provides an in-depth review of Medicare, 
Medicaid, Temporary Assistance for Needy Families (TANF), and other 
major programs.
    Medicaid.--Through HHS' review and revision of Medicaid plans, HHS 
and the Delta states have been working in partnership to maximize 
Medicaid coverage for eligible recipients and increasing coverage to 
the working poor not previously covered through state plans. Title XXI 
(the Children's Health Insurance Program, or CHIP) has allowed states 
to expand access to health care coverage through Medicaid and new 
state-designed insurance programs. The Department has exercised its 
authority under the Social Security Act to expand health care coverage.
    The Temporary Assistance for Needy Families (TANF) now partners 
with Medicaid to assure that transitional Medicaid services are 
available to TANF recipients as they move from public assistance to 
self sufficiency. Moreover, in March, 1999, HHS agencies issued a guide 
to states that in part sets out opportunities the states have under the 
law to expand coverage under Medicaid to low-income working families. 
HHS will be contacting all states about these opportunities as well as 
reviewing how effectively they coordinate Medicaid and TANF.
    HHS also reviews a series of programs for improving health care 
access for senior citizens, minorities, and HIV/AIDS treatment and 
services in the Delta. The Agency for Toxic Substances and Disease 
Registry (called ASTDR, this is part of the Centers for Disease Control 
and Prevention) has been working through the Mississippi Delta Project: 
Health and Environment, a partnership among federal, state and local 
governments, Historically Black Colleges and Universities (HBCU), 
faith-based organizations, community organizations, and environmental 
advocacy groups in 219 counties in the Delta. This initiative includes 
health education, training and research. The research projects are 
designed as models for developing partnerships regarding environmental 
and public-health related concerns in the region. For example, the 
ASTDR has developed an Assessment Protocol for Excellence in 
Environmental Health that has been used in pilot projects in Arkansas 
and Mississippi to identify environmental hazards. In fiscal year 1999, 
the ASTDR will implement this protocol in Memphis, Tennessee, in 
collaboration with the Memphis-Shelby County Health Department and 
local community groups. ASTDR is also working with EPA as well as state 
and local health officials and environmental justice advocates on an 
initiative based in Memphis and other Delta areas on an initiative 
focusing on environmental justice issues. This effort primarily 
involves minority and low-income people regarding environmental health 
issues.
    HIV/AIDS.--The HIV/AIDS Bureau of HHS targets medical services for 
unserved or underserved populations. This program involves formula 
grants awarded to states to improve the quality, availability, and 
organization of health care and support services for people living with 
HIV. The AIDS Drug Assistance Program provides assistance in providing 
HIV/AIDS medical therapies to uninsured or underinsured people. A 
Special Projects of National Significance Program provides funding to 
public and private nonprofit entities to assist in the development of 
innovative models of HIV care. For example, a project at the University 
of Mississippi Medical Center is enhancing the capacity of health care 
providers in rural clinics to diagnose and treat HIV by expanding the 
Delta AIDS Education and Training Center's capacity to provide clinical 
training. In particular, this project gives training for rural health 
care providers with a computer-based distance learning system. For 
areas of the highest HIV incidence, the Center makes available updated 
medical references, means for interactive training, and access to 
sources of additional HIV funding.
    Child care.--The Head Start program provides early childhood 
education to young people throughout the nation, and the Delta in 
particular enjoyed substantial increases in the number of children 
enrolled from 1990 to 1998. In Arkansas, Louisiana and Mississippi, the 
number of children enrolled in Head Start expanded from 41,996 in 1990 
to 55,248 in 1998. Head Start in the Delta in recent years has 
increasingly placed emphasis on full-day, full-year models that meet 
child care needs of working parents.
    The Child Care Development Fund, which is the primary source of 
federal funds to states, Indian Tribal Organizations and territories to 
assist low-income families to pay for child care, has had a major 
impact in the Delta. A series of initiatives for improving child care 
are now underway. The Child Care and Head Start bureaus have launched a 
new training and technical assistance initiative, Quality in Linking 
Together: Early Education Partnerships (QUILT), which will work with 
state, tribal, and regional leaders to develop a strategic approach to 
support early education partnerships at the local level. A Head Start/
Child Care Workgroup has been established to address the need for full-
day, full-year services to children and families. Members from central 
as well as regional offices of Head Start, Child Care and QUILT are 
developing strategies for combining resources, sharing information on 
training and technical assistance. The Healthy Child Care America 
Campaign is a collaborative effort of health professionals, child care 
providers, and families that has developed a Blueprint for Action, 
which identifies goals for child care and suggests specific ways of 
achieving these goals. The Inventory discusses in detail a series of 
other child care initiatives on childhood immunization, dissemination 
of child care information, and related issues.
    Youth services.--The Family Youth Services Bureau provides programs 
that serve vulnerable youth in the Delta. The Basic Center Program 
provides temporary shelter to runaway youth while working to reunite 
them with their families when possible. The Transitional Living Program 
provides long-term residential, educational and vocational resources to 
homeless youth. This program works to keep youth from dropping out of 
school, and it especially focuses on helping teenage parents make the 
transition to work and self-sufficiency, thereby preventing them from 
becoming dependent on public assistance. There are two Basic Center 
shelters and a Transitional Living Program in Jackson, Mississippi, and 
a Basic Center shelter in Vicksburg, Mississippi. There are four Basic 
Centers in Arkansas, five in Louisiana, three in Kentucky, and 
Tennessee has several Centers, including one in Memphis.
    Teen pregnancy.--Finally, teen pregnancy decreased in the years 
from 1991 to the mid-1990s in the Delta, but is still too high. 
Arkansas and Louisiana reduced their rates of teen birth and 
pregnancies by a higher percentage than the nation as a whole between 
1991 and 1995: Arkansas' reduction was by 7.9 percent and Louisiana 
reduced its rate by 8.2 percent, as compared to the national reduction 
of 6.5 percent. Mississippi's rate decreased by 5.9 percent. In 1995, 
the President created the National Campaign to Prevent Teen Pregnancy, 
through which HHS has developed partnerships with national, state and 
local organizations, private business, faith-based organizations, 
tribal organizations, parents and other family members, and 
adolescents. The goal is to build new partnerships that promote 
community-wide efforts to prevent teen pregnancy.
    Infant mortality.--Infant mortality declined overall in the 219 
Delta counties during the last decade. Those counties experienced a 
16.6 percent reduction in infant mortality between the aggregated 
average calculated for the four-year period 1986 through 1989 and the 
period 1994 through 1997; for those same periods, the national infant 
mortality rate declined by 25 percent.
    For the densely populated counties of Pulaski, Arkansas; Hinds, 
Mississippi; Shelby, Mississippi; and East Baton Rouge, Jefferson, 
Orleans, Ouachita, Rapides, and St. Tammany Parishes in Louisiana, 
there were 12.42 infant deaths per 1,000 live births in 1990. That 
number gradually declined in the 1990s, falling to 10.71 in 1997 (the 
most recent year for which statistics are available). Thus, infant 
mortality rates declined by approximately 14 percent from 1990 to 1997 
in these eight Delta counties.
    These major population centers in the Delta still lag behind the 
national average, which declined from 9.22 infant deaths per 1,000 live 
births in 1990 to 7.23 in 1990, a decrease of 22 percent. Even more 
disturbing was the plight of minorities in the Delta: for example, in 
Mississippi, African Americans' infant death rates fell from 15.5 to 
14.7 per 1,000 live births from 1989 to 1996; similar statistics for 
Arkansas showed a decline from 15.5 to 13.8, and in Louisiana a decline 
from 15.6 to 14.7. The rates for African Americans are approximately 
double those of whites in these three states. The rates for all people 
declined from 11.7 to 10.8 in Mississippi; 9.9 to 9.1 in Arkansas; and 
11.0 to 9.8 in Louisiana. Despite the decreases, infant mortality rates 
in the Delta are still much too high.
    Rural health care.--The Commission recommended a careful review and 
revision of Medicare/Medicaid reimbursements to eliminate inequities in 
payments to rural hospitals.'' The Medicaid program provides the 
following options:
  --ADD-ON PAYMENT.--States currently have considerable latitude in 
        determining rates of payment in the Medicaid program. Rural 
        hospitals receive Medicaid funding as described in their State 
        plans. One way for a State take into account the unique 
        position of rural hospitals is to establish within that State's 
        Medicaid plan a methodology that specifically targets rural 
        hospitals. Through a State Plan Amendment, a State could elect 
        to institute a special add-on payment for rural hospitals in 
        addition to their regular reimbursement.
  --DISPROPORTIONATE SHARE HOSPITAL PROGRAM.--Another avenue of 
        flexibility currently open to States is the Disproportionate 
        Share Hospital (DSH) program. Within certain Federal limits, 
        States can designate any group of hospitals as qualifying for 
        DSH payments, including rural hospitals. States can amend their 
        State plans to implement a DSH payment that would be geared 
        toward their rural hospitals: the qualifications for this DSH 
        payment can be crafted in such a way that any uncompensated 
        care costs incurred by rural hospitals could be met through the 
        State's DSH program. Such an option would be feasible to the 
        extent that these hospitals have incurred uncompensated free 
        care and Medicaid costs, and provided that the State's DSH 
        methodology overall does not cause the State to exceed the 
        hospital-specific DSH payment limits or the State's 
        statutorily-defined DSH allotment.
    The Medicare program provides:
  --Rural Referral Centers.--Rural referral centers (RRCs) were first 
        identified for special consideration in the 1983 Prospective 
        Payment System (PPS) legislation. Congressional intent was to 
        recognize that, within rural areas, there were hospitals that 
        provided care in a volume and with the sophistication of 
        hospitals in urban areas. These hospitals serve as ``referral'' 
        sites for rural physicians and other community hospitals that 
        may lack the resources or expertise to handle cases outside the 
        norm. Any hospital that was classified as a rural referral 
        center (RRC) in 1991 and had since lost that status was 
        grandfathered back into the RRC program by the Balanced Budget 
        Act. In addition, the BBA made it easier for RRCs to get a 
        higher wage index under PPS.
  --Medicare-Dependent Hospitals.--The Medicare Dependent Hospital 
        (MDH) program was reinstated by the Balanced Budget Act of 
        1997. The Medicare-Dependent Hospital designation was 
        originally created under the Omnibus Budget Reconciliation Act 
        of 1989. It provided extra financial assistance to rural 
        hospitals with less than 100 beds that had 60 percent or more 
        of inpatient days or discharges attributable to Medicare 
        patients. Originally, the Medicare Dependent Hospital 
        designation was set to expire for cost reporting periods ending 
        on or before March 31, 1993. The Omnibus Budget Reconciliation 
        Act of 1993 extended the designation until September 30, 1994 
        with a smaller financial benefit for MDH status. The Balanced 
        Budget Act reinstated the MDH program for cost reporting 
        periods beginning on or after October 1, 1997 and before 
        October 1, 2001.
    In 1998, the Balanced Budget Act provided for funding to States to 
help stabilize small rural hospitals, develop networks and integrate 
emergency medical services in rural areas. These development grants are 
being made under the State Rural Hospital Flexibility Program, 
authorized at $125 million through fiscal year 2002. With a $25 million 
appropriation for fiscal year 1999, this new grant program will help 
stabilize rural hospitals and improve access to health services in 
rural communities. Grants will be awarded to states for: (1) developing 
and implementing rural health plans with broad collaboration; (2) 
stabilizing rural hospitals by helping them consider, plan for, and 
obtain designation as ``Critical Access Hospitals'' (CAH); (3) 
supporting CAHs, providers and communities as they develop networks of 
care; and (4) helping improve and integrate emergency medical services.
    Hospitals that are designated as Critical Access Hospitals will 
receive cost-based payments from the Medicare program. Medicare 
payments to all other hospitals will not change. Delta states have the 
option of participating in this program.

        ONE DELTA COMMUNITY'S STRUGGLE FOR ADEQUATE HEALTH CARE

    Many distressed communities in rural areas struggle to preserve 
access to health care. Como, Mississippi, home of the famous blues 
artist ``Mississippi'' Fred McDowell, is an underserved town in the 
Delta with 1,500 residents in town and 1,500 residents in the outlying 
country. ``It's a sleepy, laid-back town that's had a little health 
clinic since God was a boy,'' says Stuart Guernsey, local administrator 
for the North Delta Mississippi Enterprise Community. Then, as happens 
in too many rural areas, the for-profit hospital that operated the 
clinic gave two weeks notice and left town.
    This posed a huge burden for many residents. For the aged and 
disabled who lived far from town, the additional 10 miles to the next 
town was a logistical and economic burden. Many couldn't afford the $20 
it would cost to be driven there and back.
    The town publicized the need to raise money to tide the clinic over 
to the next funding cycle. They sponsored many events, including one at 
the elementary school on Martin Luther King Day, and managed to raise 
$10,000 in goods and services. They still needed $20,000 to keep the 
clinic open for six months. Then the local people hit on a new idea: 
they asked the elementary school principal to have his fourth and fifth 
grade students to write an essay beginning, ``We need a health clinic 
in Como because. . .''
    Responses ranged from the touching to the hilarious. Sixty of these 
letters were sent overnight to Doris Barnett and Janet Wetmore of the 
Health Resources Services Administration, with whom Guernsey had been 
corresponding. Three days later he received a call. The money had been 
awarded. ``We would probably have gotten their money anyway,'' says 
Guernsey, ``but the timing of the letters was perfect and their 
poignancy bumped things along.''
    The Aaron Henry Community Health Center re-opened in April, 1998 to 
the delight of Como residents and students. One of the fifth grade 
students who wrote a letter, Ortavius Towns, expressed his gratitude by 
saying, ``We want to thank the government for opening the clinic back 
up to provide health care for children and adults. I'm glad I wrote 
that letter.''
    The Enterprise Community (EC) helps the clinic with transportation 
for clients and publicity, as well as in bringing partners to the table 
in cases such as the closure. The EC also assists another clinic in 
nearby Crenshaw, Mississippi that has a dental office, pharmacy, and 
general family practice clinic. Crenshaw--like so many rural places in 
the Delta--is even more isolated than Como, with nearest town 15 to 20 
miles away. The arduous efforts of these small towns exemplify the 
struggles of many Delta communities to maintain adequate health care.

                  HUNGER, NUTRITION AND FOOD SECURITY

    ``There are others from whom we avert our sight. Some of them--are 
on the back roads of Mississippi, where thousands of children slowly 
starve their lives away, their minds damaged beyond repair by the age 
of four or five.''--Senator Robert F. Kennedy, speaking in 1967 about 
hunger and poverty in the rural Mississippi Delta

    In 1967, Senator Robert F. Kennedy riveted the nation's attention 
on the terrible plight of hungry people in the Mississippi Delta. As a 
member of the Senate Labor Committee's Subcommittee on Poverty, Kennedy 
went with Marian Wright Edelman, Charles Evers and others to the 
poorest places in the Delta. Edelman recalled Kennedy holding children 
with bellies swollen from malnutrition and lamenting, ``How can a 
country like this allow it? Maybe they just don't know.'' Partly as a 
result of the national outcry generated by Kennedy and others in that 
era, the hunger safety net has been strengthened for the hungry in the 
Delta and other depressed areas of America: school lunch, food stamps, 
the Special Supplemental Nutrition Program for Women, Infants, and 
Children (WIC), and the Cooperative Extension nutrition programs have 
become bulwarks in the fight against hunger in America. While it is no 
longer easy to find flagrant instances of hunger and malnutrition that 
existed in the 1960s, there are still many people in the Delta who do 
not have secure access at all times to a high-quality, reasonably 
affordable food supply.
    The more subtle, but nonetheless serious problem of hunger and food 
insecurity in the prosperous world of the 1990s confronts the basic 
dilemma Kennedy regretted three decades ago--the reality that many 
prosperous Americans are unaware that so many people, especially 
children, often go to bed hungry in underdeveloped areas like the 
Delta. The Commission in 1990 recognized the importance of these 
nutrition programs. Vice President Al Gore has attempted to address 
this issue, working with U.S. Department of Agriculture Secretary Dan 
Glickman in convening the 1997 National Summit on Food Security to 
awaken public consciousness about this persistent problem. The Vice 
President has emphasized the need for supporting the bedrock anti-
hunger programs such as school lunch, WIC, and food stamps. The Vice 
President endorsed the efforts of USDA and other federal agencies to 
work with private anti-hunger institutions to expand field gleaning 
activities to provide food for the hungry, and to increase the amount 
of food rescued from being thrown away and given to food banks and 
similar organizations. President Clinton signed the Good Samaritan Act, 
which reduced liability concerns for good faith donors of food to anti-
hunger organizations. The Lower Mississippi Delta Nutrition 
Intervention Research Initiative and other anti-hunger organizations 
have played an important role in the quest to promote adequate 
nutrition in the region.
    The 1990 Commission specifically recommended that residents of the 
Delta should have access to health education programs, of which food 
security is a vital part. As an example of research on the food 
security issue, USDA's Economic Research Service Geographic Information 
System (GIS) analyzed access to grocery stores in the Delta. The 
analysis combined data on the location and sales of grocery stores by 
postal ZIP code, with the location of all consumers, as well as 
consumers with incomes below the poverty level. The analysis 
demonstrated that substantial areas in the region are underserved by 
grocery stores, leaving substantial numbers of residents with little 
access to stores offering a wide variety of food at reasonable 
distances.
    In response to the nutrition needs of the Delta, USDA joined with 
community leaders and nutrition experts in the region to form the Lower 
Mississippi Delta Nutrition Intervention Research Initiative. The 
mission of this Initiative is to evaluate nutritional health in the 
Delta, and to help develop successful strategies for addressing 
nutritional problems on a larger scale. Participating institutions 
include Alcorn State University, Arkansas Children's Hospital Research 
Institute, Southern University, University of Arkansas at Pine Bluff, 
and the University of Southern Mississippi.
    The Delta Nutrition Intervention Research Initiative completed a 
survey of 36 Delta counties and parishes in Arkansas, Louisiana and 
Mississippi on nutrition and health problems, community resources 
available to address them, and other community-based food security 
issues. The Initiative completed a ``Foods of Our Delta Survey'' that 
studied collection of dietary intake data and pilot projects on food 
security, health preferences, and food assistance programs. The 
Initiative continues to pursue ongoing nutritional research projects, 
as part of the overall effort to expand public awareness of the 
persistent problem of hunger and inadequate nutrition, and to develop 
sound models to address those problems.
    Despite the progress on some issues, problems persist in the health 
and human services arena, particularly in providing appropriate 
services to low-income and minority Delta residents. HHS and its local, 
state, and private partners are committed to building upon the 
accomplishments made thus far in the 1990s to bring equal opportunities 
in health and human services to the people of the Delta.

                  MISSISSIPPI ANTI-HUNGER PARTNERSHIP

    Mississippi Anti-Hunger and Poverty project.--Formed in the 
afternoon of the Civil Rights Movement, the Mississippi Action for 
Community Education (MACE) is a non-profit community development 
corporation that tries to break the cycle of chronic poverty and 
deprivation suffered by the rural poor in an 18-county area in the 
Delta.
    A close look at socioeconomic conditions confronting African 
Americans in the Mississippi Delta reveals some startling statistics. 
One out of every five families is poor--twice the national average. One 
out of every two African American Mississippi children are born into 
poverty. The unemployment rates for people of color living in the MACE 
service area average 9.6 percent, with between 46.4 percent and 62.8 
percent of all non-white families living below the poverty level. 
Against this background, MACE created its Anti-Hunger Partnership and 
Empowerment Program (MAPEP), consisting of a diverse group of 
AmeriCorps members working with action-oriented community-based 
organizations located throughout the Delta.
    MACE has attempted through intensive research and collaboration 
efforts with various social service agencies, community-based 
organizations, empowerment zone initiatives, and government entities to 
develop a strategic plan and set of objectives that build upon each 
other. The anti-hunger program targets the counties of Humphreys, 
Washington, Sharkey/Issaquena, Madison, Tallahatchie, and Quitman. A 
major part of MACE's service area is located within the Mid-Delta 
Empowerment Zone (MDEZA) and the North Delta Enterprise Community 
(NDEC). The objectives of MAPEP are food stamp outreach, nutrition 
outreach, support for local food pantries, and growth of Summer Feeding 
and School Breakfast Programs.
    During 1994-95, MACE sponsored a food stamp outreach program 
through a grant sponsored by USDA. MACE was instrumental in identifying 
and enrolling thousands of low-income and/or elderly people living in 
rural areas of the Mississippi Delta region who were eligible for but 
not receiving benefits. The members use direct door-to-door contacts 
with program-eligible residents within the target counties plus other 
areas in need, and provide other appropriate technical assistance, 
transportation, and related services to connect residents with food 
stamp benefits.
    MAPEP AmeriCorps members promote nutrition and food safety among 
low-income families and elderly residents. This consists of community 
outreach including workshops held at senior citizens' facilities, 
faith-based organizations, schools, recreational centers and in-home 
visitations. MAPEP AmeriCorps members also provide referrals on behalf 
of elderly residents to such programs as Meals on Wheels, elderly 
nutrition centers, and church-sponsored feeding programs. Where 
necessary, the AmeriCorps members make every effort to provide 
transportation for these residents. The members work with local 
extension agencies, specifically with their nutrition experts, to 
sponsor workshops in the counties served by MACE.
    Despite efforts to provide adequate, nutritious food supplies to 
poverty-stricken residents of the Delta, many obstacles still inhibit 
this process--low wages, long distances to major grocery stores, poor 
transportation, and inadequate education. In 1998-99, nine community 
gardens and three food pantries were set up, with more than 50,000 
pounds of food distributed. MACE also works with six local school 
districts to support expansion of the Summer Food Service Program and 
the School Breakfast Program. These are important supplements to the 
school lunch program. Educational research studies have amply 
demonstrated the importance of a healthy breakfast for students to 
learn.
    MACE followed the principle that community self-help efforts are 
most effective when all segments of the community participate. Its 
local affiliates, located throughout the Delta, have extensive 
histories of providing direct services for the social and economic 
interest of rural residents, who comprise 95 percent of their 
membership. Placing MAPEP AmeriCorps members with the affiliates gave 
the program immediate acceptance among those it seeks to serve.
    Melvina Carter of Hollandale, Mississippi stated her appreciation 
for this grassroots anti-hunger effort by saying, ``Before I started 
getting food from MAPEP, we could hardly make ends meet. We had to use 
extra money to pay the electric bill, but now we get cheese, powdered 
milk, margarine and a lot of other stuff that we couldn't afford.''

               ENVIRONMENTAL, NATURAL AND PHYSICAL ASSETS

                             TRANSPORTATION

    ``The Mississippi Delta is the crucible of Southern culture. Its 
celebrated Highway 61 crosses the historic landscape of the Native 
American settlements, slave plantations, blues juke joints, civil 
rights scenes, agribusiness, third-world poverty and settings from the 
fiction of Richard Wright and Tennessee Williams. These diverse worlds 
offer a unique portrait of both the American South and our Nation.''--
William Ferris (now chairman of the National Endowment for the 
Humanities), writing in Encyclopedia of Southern Cultures, 1989

    Transportation is crucial to the achievement of the Commission's 
goals. Transportation allows people to reach health care facilities, 
jobs, markets, tourist sites, and educational institutions. It helps 
businesses prosper by providing access for workers and customers, and 
it helps farmers get their produce to market. It is, as Secretary 
Rodney Slater says, ``the tie that binds.'' As previously mentioned, In 
the six years after Governor Clinton submitted the 1990 Report, 365,000 
new jobs were created in the Delta, an increase of almost 12 percent. 
In the period from 1993 to 1998, overall regional unemployment fell 
from 7.5 to 5.7 percent. Advances in the region's transportation system 
played a crucial role in this economic development.
    The Commission's 10-year goal was an improved system of limited 
access highways, airports, and rail and port facilities in order to 
promote economic expansion and growth. More than 70 of the Commission's 
recommendations were related to what it described as the creation of a 
``Delta Transportation Network.''
    The Commission made several general highway recommendations, 
beginning with one urging that Congress and the President should 
release funds currently being held in the Highway Trust Fund. Highway 
Trust Fund investment in highways and transit was increased 
dramatically by the Intermodal Surface Transportation Efficiency Act of 
1991 (ISTEA) and the Transportation Equity Act for the 21st Century of 
1998 (TEA-21). ISTEA authorized $151 billion over six years for highway 
and transit programs while TEA-21 went one step further. The 1998 act 
created new budget categories for highway and transit discretionary 
programs, establishing a budgetary firewall between the transportation 
programs and other domestic discretionary spending. As a result, TEA-21 
guaranteed a spending level of $198 billion over six years. In 
addition, TEA-21 increased to 90.5 per cent the minimum annual return 
on contributions to the Highway Trust Fund for every state. The Delta 
region states are expected to receive additional Federal transportation 
funding through this provision.
    The Great River Road.--Another major recommendation stated that 
Congress should prioritize funding for the Great River Road and 
immediately provide funds for its completion. Individual states are 
using the flexibility established in ISTEA to fund improvements to the 
Great River Road and for scenic easements, historic preservation and 
other projects. For example, in Arkansas since 1990 about 120 miles of 
improvements, including easements, historic preservation, highway 
reconstruction, highway resurfacing and major widening, have been 
completed at a cost of about $140 million.
    Aviation.--The Federal Aviation Administration (FAA) provided 
approximately $48 million to airports in the Delta for the Airport 
Improvement Program (AIP) between 1993 and 1999. Federal legislation 
authorizes the Secretary of Transportation to make project grants for 
airport planning and development under the AIP to maintain a safe and 
effective system of airports. Eligible projects under the AIP include 
airport system and master plans; construction, expansion or 
rehabilitation of runways, taxiways and aprons; items needed for safety 
or security; navigational aids; land acquisition; noise control; and 
limited terminal development.
    Rail service.--The Department of Transportation has engaged in a 
series of rail service improvements in the region. For example, in 
November, 1998, Secretary Slater announced the designation of the Gulf 
Coast High Speed Rail Corridor linking New Orleans with Baton Rouge and 
other cities in the South. Under TEA-21, this Corridor received 
approximately two million dollars in earmarks for high-speed rail 
development and grade crossing.
    Completion of Commission's transportation projects.--The heart of 
The Delta Initiatives transportation recommendations consisted of a 
detailed inventory of transportation improvements for the highways, 
aviation, maritime, and rail network of the Delta. Probably no other 
area discussed in the 1990 Report contained such a large number of 
highly specific recommendations; and there is probably no area that now 
displays as many successful completions of those recommendations. These 
efforts were led by the Department of Transportation, with important 
contributions by the Army Corps of Engineers and other agencies. The 
Corps, DOT, Commerce and other agencies contributed substantial federal 
investments in the area of maritime transportation. For example, 
Commerce funded feasibility studies for port facilities in seven 
communities of Louisiana alone. The Corps completed over 30 navigation 
projects along the Mississippi River, while DOT completed numerous 
maritime transportation projects throughout the entire region. The 
great majority of the nearly 70 specific recommendations for all modes 
of transportation in the original report have either been completed, or 
significant progress has been made in completing them. These 
transportation projects have provided a powerful impetus to improving 
the quality of life and economic development in the region.

TRANSPORTATION AND TOURISM-RELATED PUBLIC INVESTMENTS PROMOTE PHILLIPS 
                                 COUNTY

    Transportation projects and public investments related to promoting 
the tourist industry served as a catalyst for economic development in 
Phillips County, Arkansas in the 1990s. Important improvements 
included:
  --1990--Resurfacing and road rehabilitation projects were begun on 
        more than 32.4 miles of state highways connecting population 
        and production areas.
  --1990--The Delta Cultural Center, a museum with exhibits on the 
        culture and landscape of the Arkansas Delta, opened in Phillips 
        County.
  --1991--The Arkansas General Assembly approved a highway improvement 
        program that included substantial capacity improvements for 
        Phillips County.
  --1993--Stage I of the new Helena Slackwater Harbor was finished and 
        Stage II was begun. The harbor will facilitate the transfer of 
        bulk goods (particularly agricultural goods) between highway 
        and water transportation.
  --1994--The King Biscuit Blues Festival, begun in 1986, had a record 
        success. Attendance at this festival, an annual tourist event 
        held in downtown Helena, grew from 15,000 to 80,000 in less 
        than a decade. Attendance continued to be high through the late 
        1990s.
  --1995--Developments continued on the Helena Riverwalk, an elevated 
        boardwalk with a view of the Mississippi River. Site visits for 
        passengers on the Mississippi riverboats, and the Lexa-to-
        McGehee bicycle and pedestrian trail (acquired partly with 
        transportation enhancement funds) enlarged the county's scope 
        for tourism.
  --1995--Further transportation improvements consisted of widening, 
        reconstruction, and resurfacing were developed for about 32 
        miles in the county.
  --1995--Contracts were let for seven miles of new railroad 
        construction to provide rail access to the slackwater harbor 
        and for a 16-inch water line to serve industrial tenants. 
        Construction began for a new road to the north end of the 
        slackwater harbor.
  --1995--The first tenant for the slackwater harbor was announced and 
        appropriate site construction began. A new plant was located in 
        the industrial park adjacent to the slackwater harbor.

                              AGRICULTURE

    The 1990 Report recognized the major importance of the agricultural 
sector in the Delta. Adequate credit must be made available to high-
risk farmers, and the Report generally emphasized the need for helping 
minority or limited-resource farmers who are troubled by small acreage 
and limited capital. The Commission urged more attention to direct 
marketing and other alternative marketing methods, and the development 
of sustainable agriculture. USDA under Secretaries Mike Espy and Dan 
Glickman inherited a problem of discrimination against minority farmers 
by USDA in the past, and while they have acknowledged the terrible 
plight of African American farmers and how much remains to be done to 
alleviate this problem, they have changed policies at the Department 
and promoted greater attention to the problems of minority and limited 
resource farmers. USDA attempted to reverse policies of the past that 
had discriminated against small and minority farmers, and such programs 
as farm credit for socially disadvantaged farmers were expanded. In the 
Clinton administration, USDA has devoted tremendous attention to the 
task of improving the plight of the small and minority farmer.
    Marketing for minority and limited resource farmers.--During the 
1990s, USDA increased its efforts to promote farmers' markets and other 
direct marketing initiatives to assist limited resource farmers. 
Secretary Dan Glickman pursued a series of objectives recommended by 
the National Commission on Small Farms in 1997-98, including promotion 
of better marketing for the roughly 94 percent of America's farmers who 
are in the medium to small range in size.
    USDA conducted a series of marketing feasibility studies and other 
technical assistance were provided to farmers' markets in the Delta. 
Marketing initiatives for aquaculture, for farmers seeking to change 
from tobacco to other crops, and other alternative agriculture projects 
were assisted. The Women, Infants and Children (WIC) Farmers' Market 
Nutrition Program greatly expanded in scope from 1993 onwards. The WIC 
farmers' market program simultaneously creates a new market for small 
fruit and vegetable farmers while promoting better nutrition for 
nutritionally at risk women, infants and children. Missouri, Illinois, 
Kentucky were part of the program before 1998, and Arkansas and 
Mississippi joined the WIC Farmers' market program in 1998; the Delta 
is the center of activity for this program, because the region contains 
large concentrations of produce farmers as well as WIC clients. In 
addition, the Foreign Agriculture Service has conducted a new series of 
policies designed to include small farmer cooperatives in farm export 
trade opportunities.
    Cooperatives' assistance for small farmers.--In other initiatives 
addressing the Commission's concern for limited resource farmers, USDA 
promoted its programs for assisting cooperatives, which are ideal 
mechanisms for addressing low population densities, smaller markets, 
and higher service costs. USDA's Rural Business Cooperative Services 
funded 25 technical assistance projects in the Delta, and conducted a 
series of projects with 1890 land grant institutions.
    Sustainable agriculture.--The Commission urged Congress and USDA to 
support a stable, sustainable, agriculture, which is profitable yet 
preserves the environment. On this subject, USDA has formed the 
Sustainable Agriculture Research and Education program (SARE). SARE has 
pursued a variety of projects in the Delta aimed at promoting value-
added enterprises, sustainable forestry practices, and environmental 
research projects. The Delta will also benefit from President Clinton's 
Executive Order of August 12, 1999 creating a national initiative to 
accelerate the growth of bioenergy, which is the use of biomass 
(organic matter) to produce electricity, transportation fuels such as 
ethanol, or chemicals. Corn has long been used to produce ethanol, and 
the technology is improving for using rice straw as a viable biomass 
resource.
    The farm crisis.--The Delta is one of the most prolific 
agricultural regions in America. Annually the region's farmers produce 
huge quantities of cotton, rice, soybeans, and many other agricultural 
products. USDA assists the Delta's farmers in their vital efforts to 
provide the food and fiber essential for America's livelihood. However, 
in the late 1990s, farmers in the Delta suffered from a national and 
international crisis in agriculture. Federal relief for farmers emerged 
in the summer of 1999, and this legislation and the farm crisis will be 
a vital part of the dialogue in the listening sessions and the 
recommendations for the future.

                             INFRASTRUCTURE

    The Commission recommended that local infrastructure, such as 
adequate water and sewer systems, telecommunications, electricity and 
natural gas, rural health care, public safety and other projects were 
essential in the quest for greater economic development and improved 
quality of life. The Commerce Department, HUD, and USDA's Rural 
Development brought numerous infrastructure projects throughout the 
Delta. For example, from 1993 to mid-1999, EDA provided over $114 
million in assistance. The total funding for Rural Development's Rural 
Business Programs, Community Facilities, and Water & Waste programs 
amounted to approximately $858,224,000 for the period from 1993 to mid-
1999.
    Water and waste programs.--The water and waste programs provided a 
sound water supply and improved water and waste disposal systems in 
many rural areas. EPA's Clean Water and Drinking Water State Revolving 
Funds (CWSRF and DWSRF) are providing millions of dollars in low-cost 
financing for a broad range of infrastructure projects, including the 
construction or improvement of wastewater treatment plants, management 
of stormwater and sewer overflows, and implementation of polluted 
runoff control projects. In addition, they are providing financing for 
the installation, upgrading, or replacement of water infrastructure to 
ensure that systems provide drinking water that meets all public health 
standards. In recognition of the special needs facing small systems, a 
minimum of 15 percent of the funds available through the DWSRF must go 
to systems serving under 10,000 persons. Also, to assist rural 
communities where even a low-interest loan may not be affordable, 
states have the option of providing additional subsidies to 
disadvantaged systems through their DWSRF, including forgiveness of 
principal and extended loan repayment terms.
    USDA's Rural Utilities Service provided $287,945,936 in loans and 
$217,664,431 in grants for water and waste services. In addition to 
financial assistance, Rural Development provided extensive technical 
assistance through engineers and other USDA personnel. Many of the 
areas served were previously burdened by inadequate or nonexistent 
infrastructure, as well as deficiencies in organizational structure and 
management needed to obtain financing. The quality of life in many 
areas has been substantially improved by provision of sewer, water and 
other services in the 1990s, although many other rural areas in the 
region still lag behind in infrastructure. Rural Development continues 
to receive a large number of applications for these types of funding.
    Energy supply and delivery.--Assuring an adequate, reliable supply 
of electric power to the Delta is crucial for the economy. Industry 
will not locate new businesses and factories without reliable power. 
The Department of Energy (DOE) and the Rural Utilities Service pursue a 
variety of programs for supporting electric infrastructure. DOE 
conducts numerous research and grant programs that support this 
critical infrastructure, benefitting public and private utilities, 
universities, small businesses, farms and families. Three modern 
nuclear power plants are located in the region: Riverbend in West 
Feliciana Parish, Louisiana, Waterford in St. Charles Parish, 
Louisiana, and Grand Gulf in Claiborne County, Mississippi. These 
plants produce large amounts of electric power--over a third of the 
region's entire electricity supply--without emitting noxious fumes 
displacing tons of greenhouse gas emissions. The emissions associated 
with acid rain and global climate change are not emitted from the 
region's nuclear power plants, thereby maintaining economic development 
without damaging air quality.
    Beginning in fiscal year 2000, the Department of Energy's Nuclear 
Energy Plant Optimization (NEPO) program will work with utilities in 
the Delta and elsewhere to develop new technologies to assure that 
these economically vital power plants to continue supporting 
sustainable, environmentally responsible economic growth well into the 
21st century. The Department of Energy also works with the region's 
universities, in cooperation with local electric utilities, to provide 
research and technology development. This year a new grant was awarded 
to Louisiana State University. DOE's nuclear technology program 
provides substantial support to Historically Black Universities and 
Universities (such as Southern University and Xavier University in 
Louisiana, Tennessee State University, and others) including grants and 
scholarships.
    Rural electric power.--The Rural Utilities Service (RUS) plays an 
important role as a federal credit agency, providing financial 
assistance and technical guidance for rural utilities. RUS is the 
successor to the Rural Electrification Administration (REA), which was 
formed in 1935 at a time when only 10 percent of the nation's rural 
homes had electricity. The agency makes loans for construction of 
distribution lines, transmission lines, generating plants and related 
facilities so that they can provide electric service to rural areas at 
affordable costs. RUS makes the loans primarily to rural electrical 
cooperatives, nonprofit associations, and public utilities. Borrowers 
repay the loans with interest from their operating revenues. The 
electric projects contribute to job creation and encourage small 
business, farming and retail establishments in the region. The projects 
are far too numerous to list in their entirety, but to give two 
examples:
  --Woodruff Electric Cooperative Corporation, Forrest City, 
        Arkansas.--Woodruff Electric Coop received RUS loans for 
        investments in electric infrastructure for projects that had 
        created several hundred jobs by mid-1999, with estimates of 
        total job creation over the period of the loans estimated at 
        approximately 900 jobs by the fall of 2001. Through the aid of 
        the statewide electric cooperatives association, Woodruff was 
        instrumental in recruiting several major industries to counties 
        with endemic poverty, including Cross, Lee, Monroe, St. 
        Francis, Woodruff, Prairie, and Phillips counties.
  --Southwest Tennessee Electric Membership Corporation, Brownsville, 
        Tennessee.--This coop engaged in numerous infrastructure 
        projects in eight western Tennessee counties during the 1990s. 
        Approximately 4,000 jobs were generated by investments in 
        electric power involving RUS loans. Loans included one for more 
        than $2 million to clients in Haywood (part of the Fayette/
        Haywood Enterprise Community), as well as $1,433,958 for 
        Lauderdale County and $1,145,000 for Hardeman County. The 
        agency makes substantial loans to ``outmigration'' counties--
        where more people are leaving than coming into the county.
    Telecommunications, health care and distance learning.--Rural 
Development provided first-time telephone service to thousands of rural 
residents, while more than 77,000 residents received improvements in 
the form of upgraded telecommunications infrastructure. The Rural 
Utilities Service provided a total of $298 million from fiscal years 
1993 through 1999 for electric, telecommunications, and distance 
learning. USDA's Distance Learning and Telemedicine program combined 
improvements in access to health care and educational opportunities in 
the health care field for approximately 800,000 rural residents of the 
region.
    USDA's Rural Development invested a total of $3.39 billion for 
infrastructure, housing and business development projects in the Delta 
from 1993 to 1998. However, mere dollar figures do not themselves tell 
the story of accomplishments or deficiencies. Community development 
leaders increasingly stress the importance of embracing a comprehensive 
approach that takes into consideration all phases of an area's social, 
educational and economic life. As discussed in the Community 
Development section, the Empowerment Zones, Enterprise Communities and 
Champion Communities have promoted business and industrial development 
in their communities, and they provide an effective model for community 
development. These activities, in addition to those of SBA, RBS, 
Commerce, as well as state and local entities, have promoted private 
sector development in the region. Yet it is painfully clear that in 
some areas of the Delta, the impact of the economic recovery has not 
been experienced, and the region as a whole has not participated fully 
and fairly in the prosperity of this decade.

                   ENVIRONMENT AND NATURAL RESOURCES

    The Commission recognized the importance of protecting and 
enhancing the vast natural resources of the Delta while improving the 
quality of life and economic viability of local communities. The 
Commission focused on a variety of concerns about natural resources, 
including wetlands, water quality and quantity, air quality protection, 
and other environmental issues.
    The Environmental Protection Agency and the Departments of 
Agriculture, Commerce, the Army Corps of Engineers and other divisions 
of the Department of Defense, and Interior have partnered with tribal, 
State, and local governments, as well as with the private sector, to 
achieve the Commission's goals. These collaborative efforts have 
resulted in a wide spectrum of accomplishments in the areas of 
environmental protection, water and air quality improvements, waste 
management, wetland quality and quantity, habitat preservation and 
restoration, forestry and minerals management, environmental outreach 
and planning, and support of local empowerment efforts. A total of 
approximately 300,000 acres of wetlands were protected, enhanced or 
created by the various wetlands programs, including the Wetlands 
Reserve Program. In addition, by the end of the decade a total of 2 
million acres were enrolled in the Conservation Reserve Program (this 
program is discussed below; it had begun before the 1990s and was 
expanded during the decade.) The following examples highlight the 
Clinton Administration's achievements in these areas.
  --A fair, flexible and effective federal wetlands policy.--Following 
        years of controversy over wetlands regulatory policy, the 
        Clinton-Gore administration established a policy in 1993 that 
        provides increased regulatory certainty for private landowners 
        while protecting wetlands. This bold Administration action has 
        substantially reduced the controversy over wetlands. Highlights 
        include the use of a single, widely acceptable, wetland 
        delineation procedure that all federal agencies use, 
        establishment of an administrative appeals process, and rules 
        ensuring that certain prior converted croplands are not subject 
        to wetland regulations.
  --Protecting and restoring freshwater wetlands and bottomland 
        hardwoods.--Through land acquisition, reforestation, 
        conservation easements, and partnerships with public and 
        private landowners and conservation agencies, freshwater 
        wetlands and bottomland hardwoods were restored and protected 
        throughout the Delta. Federal agencies are collaborating with 
        various groups on projects in Louisiana, Mississippi, 
        Tennessee, and Kentucky. About 22,000 acres of wetlands have 
        been restored on National Wildlife Refuges, in addition to more 
        than 150,000 acres restored in cooperation with private 
        landowners and State agencies. In addition, an extensive 
        database has been compiled that is of wide practical value for 
        wetlands and environmental issues.
  --The Wetland Reserve and Conservation Reserve Programs.--By the end 
        of 1999, nearly 300,000 privately owned wetland acres will be 
        voluntarily enrolled in the Wetland Reserve Program, which is 
        aimed at restoring wetlands on marginally productive 
        agricultural land. Expanding wetlands enrollment is one of the 
        key actions in the Clinton-Gore Administration's Clean Water 
        Action Plan. The financial benefits of the Wetland Reserve 
        Program, including permanent and long-term easements and 
        alternative sources of income in the form of hunting and other 
        recreational leases, have enabled landowners to reduce their 
        debt and stay on their land while restoring wetlands on a 
        voluntary basis. In addition, privately-owned acres throughout 
        the Delta are also currently enrolled in the Conservation 
        Reserve Program, which encourages voluntary enrollment of 
        highly erodible land, cropped wetlands, wildlife habitat, and 
        wetland restoration acres to ensure protection from erosion 
        while improving water quality and wildlife habitat. 
        Approximately two million acres are currently enrolled in the 
        Delta.
  --Restoring coastal wetlands.--Federal agencies have been active in 
        the protection and restoration of Louisiana's coastal marshes 
        and swamps, which have been disappearing at the rate of 25 to 
        35 square miles per year. Since 1991, more than 90 coastal 
        wetlands restoration projects have been undertaken to protect, 
        restore or create as many as 80,000 acres of coastal wetlands. 
        The 74 active projects will protect, restore or create about 
        64,400 acres of coastal wetlands.
  --Reducing pollution threats to National Wildlife Refuges.--
        Restoration of wetlands and shallow water areas on former 
        agricultural lands through Interior programs as well as USDA 
        habitat restoration programs have reduced pollution threats to 
        National Wildlife Refuges in the Lower Mississippi Valley.
  --Protecting and improving water quality and quantity.--Efforts to 
        protect water quality in the Delta region continue to progress 
        on many fronts, with federal, state, public and private 
        partners working together. More than 35,000 acres of riparian 
        buffers have been installed, and multiple polluted runoff 
        control projects have been implemented. Best Management 
        Practices to help reduce agricultural runoff have been 
        evaluated for most commodities produced in the Delta. 
        Freshwater diversions and barrier island restoration projects 
        are also on-going in the Delta to enhance marshlands. In 
        addition, a series of ground water projects addressing 
        withdrawal and recharge issues are being conducted to evaluate 
        future demand and availability of water, including studies on 
        the Mississippi River Valley Alluvial Aquifer in eastern 
        Arkansas--one of the major agricultural areas in the nation--as 
        well as the Sparta aquifer in Arkansas and Louisiana, a major 
        source of water for public and industrial needs.
  --Mississippi River/Gulf of Mexico Nutrient Task Force.--Scientific 
        investigations in the Gulf of Mexico have documented a large 
        area with oxygen levels so low that most aquatic species cannot 
        survive. A coalition of federal and state agencies have banded 
        together to assess the causes and consequences of this Gulf 
        ``dead zone,'' and to develop strategies for reducing nutrient 
        loads in the lower Mississippi Delta, which are thought to be 
        the predominant cause of the oxygen depletion. While the focus 
        of the assessment is on hypoxia in the Gulf of Mexico, the 
        effects of changes in nutrient concentrations, loads, and 
        ratios on water quality conditions within the Mississippi-
        Atchafalaya riverine systems is also addressed, and the Task 
        Force has become a major force for addressing overall water 
        quality issues in the Gulf.
  --Remediation, reclamation, and redevelopment.--Remediation and 
        reclamation activities in the Delta region include Interior's 
        rural abandoned mine program, which has reclaimed two-thirds of 
        the 22,000 coal mine acres in the Delta. In addition, several 
        Brownfields Assessment Demonstration Pilots are being conducted 
        in the Delta to provide a cleaner environment, new jobs, and an 
        enhanced tax base. These goals are achieved by addressing 
        abandoned or under-utilized industrial and commercial 
        facilities, the expansion or redevelopment of which are 
        complicated by real or perceived environmental contamination.
  --Environmental Education and Outreach.--Federal and State agencies 
        and private organizations worked together to empower 
        communities, and increase environmental education and regional 
        awareness in the Delta region. Activities included efforts to 
        increase public awareness of chemicals released into the air 
        and water, medical testing on the impact of the pesticide 
        methyl parathion, and funding of the Centers for Children's 
        Environmental Health and Disease Prevention Research to provide 
        community-based prevention and intervention projects.
  --Environmental Justice.--Federal agencies helped provide community 
        training, infrastructure development, data collection and 
        dissemination, community clean-up projects, children's health 
        initiatives, business start-ups, strategic planning, and 
        cooperative business ventures in low-income and minority 
        communities through the Environmental Justice Program, various 
        rural assistance programs, and other activities.
  --American Heritage Rivers Initiative.--The Lower Mississippi River 
        was designated as one of fourteen American Heritage Rivers, 
        with segments along Memphis, Tennessee, and between Baton Rouge 
        and New Orleans, Louisiana. The local communities that 
        nominated their stretches of the river have identified 
        environmental priorities linked to reclaiming lands for people 
        and wildlife, including wetlands protection, brownfields 
        redevelopment, and riverfront redevelopment. Several federal 
        agencies, including the National Park Service, Environmental 
        Protection Agency, Army Corps of Engineers, Fish and Wildlife 
        Service , National Marine Fisheries Service, and U.S. 
        Geological Survey are working with local community groups to 
        protect natural and wildlife amenities, preserve historic 
        sites, develop tourism opportunities, and enhance greenways 
        along the river.
    Federal agencies have been active in the Delta in many ways. The 
Administration continues to work with local, state, and private 
partners in addressing the remaining challenges in the field of the 
environment and natural resources.

                PRESERVING THE DELTA'S NATURAL RESOURCES

    The lower Mississippi River valley has lost more than 85 percent of 
its bottomland hardwood forests over the last 50 years. Now, actions 
are being taken on public and private lands to reverse the downward 
slide, and to grow new forests.
    On and around Yazoo National Wildlife Refuge in Mississippi, 14,000 
acres have been replanted since 1989. In 1999 alone, almost 5,300 acres 
were planted with bottomland hardwood seedlings, including a variety of 
oaks such as Nuttall, willow, water and cherry bark, as well as ash, 
cottonwood, sycamore, persimmon, sweet pecan and sugar berry. This 
extraordinary effort involved the Yazoo National Wildlife Refuge, the 
Mississippi Department of Transportation and some private landowners. 
Boy Scouts, Girl Scouts, and other volunteer groups planted 1.5 million 
seedlings in a three-month period.

    ``This land, like a lot of the soybean land, should never have been 
cleared. Three out of five years it's wet, and we have a vested 
interest to control and manage for duck hunting. The next natural step 
was to restore the high ground to trees. We are looking forward to 
having deer hunting there.''--David Coon, Wetland Hunting Club in the 
Mississippi Delta.

    These newly-forested wetlands benefit many wildlife species--black 
bears . . . white-tailed deer . . . wood ducks, mallards and other 
waterfowl . . . shorebirds . . . and migrating songbirds. Efforts such 
as this will go a long way in restoring much needed habitat for 
wildlife and a place for people to enjoy for generations to come.

                  BUSINESS AND INDUSTRIAL DEVELOPMENT

    A variety of job creation and retention initiatives, welfare-to-
work projects and other initiatives have been promoted in the Delta. 
The Small Business Administration (SBA), USDA's Rural Business Services 
and the Department of Commerce especially contributed regarding these 
issues. This section if the Inventory concludes by addressing tourism 
issues, which has great potential not only for promoting economic 
development but also for preserving the Delta's profound cultural, 
musical and literary heritage.
    In 1990, the Lower Mississippi Delta Development Commission noted 
that ``the central challenge facing the Delta is the challenge to 
develop a strong business and industrial sector that will enable the 
region's economy to be one of growth and vitality . . .'' Using 
innovative methods, such as ``circuit rides,'' SBA's field offices and 
resource partners located throughout the region are conducting 
extensive outreach activities to the Delta's small business community. 
Activities focus on informing small businesses about available 
financing programs and about training and technical assistance 
resources.
    Access to capital.--Since 1990, the SBA has reemphasized existing 
programs and streamlined procedures to make it easier for small 
businesses to gain access to capital. For instance, since 1990 SBA's 
504 program (offering fixed rate financing on purchases that also serve 
a public purpose) has made $1.2 billion in loans through 41 lenders 
operating in the region. SBA has also developed new programs. For 
example, in 1991 the Microloan Program was established. It was inspired 
by a community-lending program in Pine Bluff, Arkansas. The Microloan 
Program serves the Delta's smallest businesses and as many as 14 
intermediary lenders in the Delta have provided over 1,000 SBA funded 
microloans. These have been powerful engines for retaining and creating 
jobs.
    New resources, such as the Mid-Delta Enterprise Community's One 
Stop Capital Shop in Itta Bena, Mississippi and Women's Business 
Centers in Alabama, Arkansas, Kentucky, New Orleans, Louisiana, 
Mississippi, Missouri and Tennessee were created to help small 
businesses obtain the financing and technical assistance critical to 
building a successful small business.
    SBA also helps families and businesses of the Delta during times of 
disaster. SBA's Disaster Assistance Program provides Federally funded 
assistance for funding long-range recovery. Between fiscal year 1991 
and fiscal year 1998 SBA made over 10,00 loans in Mississippi Delta 
counties.
    Rural economic development.--USDA's Rural Business-Cooperative 
Service (RBS) pursues a number of activities for promoting business 
development in the rural Delta. The Business and Industry (B&I) 
Guaranteed Loan Program helped create jobs and stimulate rural 
economies by providing financial backing for businesses. Similarly, the 
Intermediary Lending Program provides loans to intermediaries, which in 
turn provide loans for recipients developing business facilities or 
community development projects. The Rural Business Enterprise Program 
assists public bodies, nonprofit corporations, and federally recognized 
Indian Tribal groups for development of small and emerging private 
business enterprises. Another major rural development engine is the 
Rural Economic Development Loan and Grant Program, which financed 
economic development and job creation projects based on sound economic 
plans. In the fiscal years from 1993 to 1998 in the 219 counties of the 
region, these Rural Business Service programs provided a total of 
$245,128,336 in loans and $28,702,124 in grants.
    The Department of Commerce has also been active in the Delta, using 
its infrastructure, planning, technical assistance and business 
finance/revolving loan fund grants to stimulate economic growth and 
provide job opportunities. Commerce provided over $114 million in 
grants to the region during the fiscal year 1993 to mid-fiscal year 
1999 period.

  LOCAL INGENUITY CREATES JOBS IN A LOUISIANA DELTA COMMUNITY--LOCAL 
UNEMPLOYMENT FALLS FROM 14 PERCENT IN 1993 TO 7.5 PERCENT IN JUNE, 1999

    The economic life of Tallulah, Louisiana, changed for the better 
one winter evening in 1998 when Moses Williams sat down to watch the 
television news. As the camera panned the New Orleans seaport, the 
newscaster announced that Avondale Industries, the sixth largest 
shipbuilding firm in the country, was looking for expansion sites in 
Louisiana. Williams, president of the Northeast Louisiana Community 
Development Corporation, knew exactly where he wanted Avondale to 
expand. He called Tallulah Mayor Theodore Lindsey, and in February, 
1998, both sent letters to Avondale asking the company to consider 
opening a shipbuilding plant along the Mississippi River in Tallulah. 
That summer, the deal was closed and the Northeast Louisiana Delta 
Enterprise Community had a new employer.
    The Avondale success story was part of job creation initiatives in 
Madison Parish during the 1990s that led to a decrease in unemployment 
from 14 percent in 1993 to 7.5 percent in June, 1999. ``That's the 
lowest unemployment we've had here in 20 years,'' said Williams.
    Williams soon discovered that because Avondale uses a modular 
approach to building its ships, the company could produce ship parts 
off the coast and then move those parts to New Orleans to be assembled. 
That made Tallulah a good candidate for the plant. In letters to 
Avondale, Williams and Lindsey pointed out Tallulah's other advantages: 
It already had a port facility on the Mississippi and a trained labor 
force of welders who were ready to work. In fact, says Williams, 
Tallulah had more welders than local businesses could employ. All had 
received their training through courses at the local campus of 
Louisiana Technical College.
    ``The college had actually been catching flack for producing too 
many welders,'' says Williams. ``Once those welders were trained, they 
couldn't find jobs here, so they were leaving Tallulah and going down 
south for part of the year to work offshore.''
    When Avondale executives showed interest in Tallulah's port 
facility, state and local officials got involved to induce the company 
to make its move. Avondale invested $2 million to renovate an existing 
building on the port. The Louisiana Legislature contributed $1.3 
million to make infrastructure improvements so the port could 
accommodate Avondale's operation. The company qualified for Federal and 
State tax credits.
    Avondale now employs 75 local residents and expects to increase its 
workforce to 200 by the end of 1999. The new jobs are a welcome shot in 
the arm for an area ``where unemployment is always more than twice the 
State average,'' says Williams. Those jobs may be just the beginning of 
economic development success for Tallulah, as the shipbuilding 
operation attracts other business to the city. Not long after receiving 
a firm commitment from Avondale, the local Enterprise Community lent 
$118,000 to a sewing company (called LAPCO) that specializes in making 
jackets for welders. Intrigued by the possibility of selling its 
product directly to the shipbuilder, LAPCO leased a vacant, city-owned 
building and used its EC loan to purchase factory equipment. LAPCO, 
which opened its Tallulah plant in August, 1998, will employ 50 to 100 
local residents.
    The fact that Tallulah managed to recruit a large corporation to 
bring in a plant locally does not mean that this is the identical 
pattern for other communities to follow, or that the success of this 
project came from outside the community. To the contrary, the key 
elements of success behind this project came from within the community 
itself: the skilled labor, the technical college, the port facility, 
the local ingenuity, and above all the cooperation and leadership that 
came from people in Tallulah. The collaboration of local leaders with 
federal, state, and private entities in these successful projects 
provides a good example for communities to follow in job creation and 
business development.

                                TOURISM

    ``There are few more beautiful sights than an Arkansas forest in 
late February; I mean a forest in the river-bottom, where every hollow 
is a cypress brake--Scarlet berries flicker on purple limbs, the cane 
grows a fresher green, and in February, red shoots will be decking the 
maple twigs, there will be ribbons of weeds which glitter like jewels, 
floating under the pools of water and ferns waving above, while the 
moss paints the silvery bark of the sycamores, white-oaks, and gum-
trees on the north side as high as the branches, and higher, with an 
incomparable soft and vivid green.''--The nineteenth century writer 
Alice French, writing about the natural beauty of the east Arkansas 
Delta, 1887.

    The Delta hosts millions of tourists every year who come to enjoy 
the natural beauty, history, culture, food, and music of this wonderful 
region. These visitors are also a critical part of the Delta economy, 
bringing almost $13 billion in added revenue annually into the region. 
Because of the economic power of tourism, Delta communities throughout 
the region enjoy new businesses, jobs, home and school construction, 
and other opportunities. The table below demonstrates the strength of 
the tourist market in the Delta. The dollar totals cover only the 219 
Delta counties of each state for 1998. Memphis and New Orleans are such 
large tourist attractions that they give a major boost to the dollar 
figures for their respective states. These amounts are based on 
national as well as state models for measuring tourist revenue.

                        [In billions of dollars]

Arkansas..........................................................   1.8
Illinois..........................................................  0.27
Kentucky..........................................................  0.55
Louisiana.........................................................  5.67
Missouri..........................................................  0.78
Mississippi.......................................................  1.36
Tennessee.........................................................  2.54
                                                                  ______
      Total....................................................... 12.96

    The Great River as a natural resource attraction.--Woven deeply 
into the fabric of the nation's history, the 975-mile reach of the 
lower Mississippi River presents the Delta's most under-utilized 
natural resource attractions. The river and its 2.5 million-acre flood 
plain possess abundant fisheries, wildlife resources, and opportunities 
for hunting, fishing, boating, hiking, and sightseeing. In July, 1998, 
President Clinton designated the Lower Mississippi River as one of 
fourteen American Heritage Rivers, with segments along Memphis, and 
between Baton Rouge and New Orleans. The President began the American 
Heritage Rivers Initiative in 1997 in order to support local efforts to 
enhance America's rivers and river fronts. The goals of this Initiative 
include historic and cultural preservation, natural resource 
protection, and economic revitalization. It will use federal resources 
more effectively to assist communities, but it does not create any new 
regulatory requirements for property owners or state, tribal and local 
governments. Several federal agencies will work with local communities 
to protect the natural and wildlife amenities of the great river and 
surrounding wetlands.
    Promotion of tourism.--The Department of Commerce works closely 
with the private sector in promoting tourism into the region. One 
example of this activity is Commerce's work with Travel South USA, a 
nonprofit regional marketing organization that represents Arkansas, 
Louisiana, Mississippi, Tennessee, Kentucky, and several other Southern 
states. Commerce Secretary William Daley announced in 1999 that Travel 
South had been selected to take part in the Market Development 
Cooperator Program, a public-private partnership developed to help 
small and medium-sized American firms expand exports that support jobs 
for Americans. Travel South will receive a $400,000 grant for this 
project. This funding will allow Travel South to implement a strategic 
marketing program designed to increase visitation from Latin America 
into the region.
    National Wildlife Refuges.--The Fish and Wildlife Service's network 
of National Wildlife Refuges throughout the Delta serves as an 
excellent resource for ecotourism development. This is another example 
of the inter-related nature of the major issues addressed in the 1990 
Commission's report--preservation of wetlands and the other natural 
resource and environmental initiatives also reinforce the vast 
ecotourism potential of the Delta. National Wildlife Refuges 
established or enlarged with the aid of a total of $25.4 million in 
federal funds during the 1990s include Bayou Savage National Wildlife 
Refuge in Orleans Parish; Big Branch Marsh National Wildlife Refuge on 
the north shore of Lake Pontchartrain; Bayou Cocodrie National Wildlife 
Refuge southwest of Vidalia, Louisiana; and Black Bayou Lake National 
Wildlife Refuge in Ouachita Parish. These refuges comprise more than 
54,000 acres.
    National Parks.--Similarly, a number of National Park Service 
Projects were established or enlarged in the 1990s. The Ozark National 
Scenic Riverway received $10.8 million in additional funding in 1998. 
By 1995, virtually all privately owned land had been purchased along 
the scenic Buffalo National River. The Natchez National Historical Park 
was authorized in 1988; during the 1990s $8.5 million was devoted to 
acquiring land and properties for the Park, which is one of the best 
preserved concentrations of antebellum properties in the country. Jean 
Lafitte National Historical Park received $3.9 million in the 1990s to 
acquire land within the park and park protection zone. The National 
Park Service recently conducted a Congressionally-mandated study of the 
Atchafalaya Basin that developed a range of alternatives to protect 
natural resources and provide for recreational use. Alice French wrote 
so eloquently of the Delta's natural splendor a century ago, and these 
actions are vital in ensuring that the region's natural beauty will 
endure for future generations to see and enjoy.
    Mississippi Delta Region Heritage Study.--The Mississippi Delta 
Region Heritage Study was presented to Congress in 1998 as an initial 
analysis of the Delta's cultural, natural, and recreational resources. 
In particular, it highlights potential locations for an African 
American Heritage Trail and a Native American Cultural Center. This 
study brought together a diverse coalition of federal, state, and local 
entities, tribal governments, private nonprofit organizations, academic 
institutions, and communities throughout the seven-state, 219-county 
region. The National Park Service worked closely with the Louisiana 
Endowment for the Humanities to identify museum organizations that had 
exhibitions interpreting Delta culture. The Center for the Study of 
Southern Culture at the University of Mississippi conducted research to 
find sites not listed on the National Register of Historic Places that 
could have an important role to play in expanding interest in the 
Delta's culture and history for visitors to the region.
    The region that produced Mahalia Jackson, Louis Armstrong, Eudora 
Welty, Walker Percy, William Faulkner, and Richard Wright 
unquestionably enjoys a profound cultural heritage. In analyzing ways 
of expanding the Delta's tourist industry, the Lower Mississippi Delta 
Region Heritage Study provides an excellent foundation from which the 
federal, state, local and private partners can make decisions regarding 
promotion of cultural preservation and tourism in the Delta in the next 
century. New Orleans and Memphis are already capitalizing on the 
tourist industry's potential; and scenic areas in some parts of the 
Arkansas Delta have also experienced some successes, as revealed by the 
$1.8 billion in tourist revenue for that area in 1998. One example of 
the potential for growth is the success of the King Biscuit Blues 
Festival in Helena, Arkansas: this annual tourist event for blues 
enthusiasts drew 15,000 visitors when it began in 1986, but expanded 
more than five times to an attendance of 80,000 in the mid-1990s. But 
many other areas of the region have untapped markets, and such 
initiatives as the Mississippi Delta Region Heritage Study provide 
insights into ways of tapping the Delta's great potential for a dynamic 
and rapidly growing tourist industry.

                               DIVERSITY

    A fundamental theme running throughout the Report is the need to 
ameliorate race relations in the Delta. Racism has been one of the most 
destructive forces in preventing the people of the Delta from making 
progress in attacking the region's social, political, and economic 
problems. In many areas--community development, educational 
opportunities, small business assistance, and others--there have been 
important strides made in the 1990s for the African-Americans, 
Hispanics, Native Americans, and other minorities in the Delta. 
However, much remains to be done, and minorities in the Delta have not 
received their fair share of participation in the economic boom. 
Approximately 40 percent of the Delta's people are African American. 
The number of Hispanics in the region is relatively small but is 
growing rapidly.
    There are exceedingly diverse and numerous issues discussed in this 
Report and the following Inventory that deal partly or entirely with 
race relations. A sketch of several examples is listed below, as an 
illustration of some of the important activities underway in the field 
of ethnic and race relations:
  --Magnet Schools.--The Magnet School Assistance Program (MSAP) has 
        assisted school districts that are planning and implementing 
        magnet schools as part of the district's approved desegregation 
        plan to reduce, eliminate or prevent minority group isolation. 
        For example, the Monroe City School District in Louisiana will 
        receive up to $3,730,659 over three years of its MSAP project 
        to establish technology-based magnet schools at Carroll Junior 
        High School and Carroll Senior High School. The program will 
        foster partnerships with business, technical colleges, and 
        universities to create a strong link between school-based and 
        real-world learning.
  --Minority education at elementary, secondary and college levels.--
        Through the 1994 reauthorization of the Elementary and 
        Secondary Education Act (ESEA), additional Federal resources 
        were directed to schools with high percentages of students 
        living in poverty through the Title I program. A substantial 
        majority of elementary and secondary schools in the Delta 
        receive Title I funding. At the college and university level, a 
        number of initiatives have been pursued, including assistance 
        for the Historically Black Colleges and Universities (HBCUs) 
        program, which makes up another major component of the effort 
        to assist minorities obtain opportunities for educational 
        advancement.
  --Bilingual and migrant education programs.--The Department of 
        Education's Bilingual Education program assists Hispanics and 
        others with Limited English Proficiency (LEP), and its Migrant 
        Education Program reaches out to migrant farm workers' children 
        who suffer from the combined effects of poverty, mobility, and 
        limited English proficiency that are characteristic of many 
        migrant children. For example, the Orleans Parish School 
        District received $463,676 in Federal funding in fiscal year 
        1998 through a Bilingual Education Comprehensive School grant 
        to restructure, upgrade, and reform the current program for 
        over 1,300 LEP students speaking more than 20 languages.
  --Minorities in the agricultural sector.--The U.S. Department of 
        Agriculture has pursued a number of policies for assisting 
        small farmers and farm workers, many of whom are minorities. 
        Expansion of marketing opportunities, more credit 
        opportunities, and other policies for the disadvantaged have 
        been pursued, although much remains to be done to correct the 
        historic discrimination that has been inflicted upon minority 
        farmers.
  --Farm labor.--Similarly, numerous efforts have been made to provide 
        aid for farm laborers, many of whom are African American or 
        Hispanic. In addition to the education programs cited above, 
        housing is a major issue for migrant workers. Farm Labor 
        Housing in the Delta region, as funded through USDA Rural 
        Development, has traditionally consisted of single family 
        dwellings located on private lands, which the agricultural 
        producer funded. But, with changes in the agricultural economy 
        of the Delta, there has been a shift away from that type of 
        housing. In the 1990s, Mississippi built 26 on-farm labor 
        housing units totaling $1.23 million, and western Tennessee 
        built two units at a cost of over $100,000. In Arkansas, 
        however, construction of new, on-farm units has continued at a 
        more significant rate, and an innovative, overnight housing and 
        referral facility for migrant farmworkers was developed in 
        Hope, Arkansas. During the 1990s, Rural Development in Arkansas 
        provided 47 domestic Farm Labor Housing loans to finance 62 on-
        farm units totaling approximately $2,610,000.
      Moreover, Rural Development in Arkansas also granted $2.5 million 
        to construct the new Hope Migrant Complex. The Hope Migrant 
        Farm Labor Center was constructed to assist families and 
        individuals as they travel through a ``migrant stream''--where 
        workers travel to points north and south, anticipating work 
        opportunities along certain routes. Each year, thousands of 
        families following the midwestern migrant stream travel through 
        Hope, and many families stop at the Labor Center to rest. They 
        are provided with housing, job referrals and social services 
        assistance. Farm workers have historically been among the most 
        socially and economically distressed groups in the region, 
        despite their essential contribution in producing the food 
        Americans eat every day. USDA's Rural Development and the U.S. 
        Department of Labor are working on this and other projects to 
        assist farm workers throughout the region.
  --Housing opportunity.--The Department of Housing and Urban 
        Development (HUD) has vigorously invoked its authority under 
        the Fair Housing Act to prosecute cases of housing 
        discrimination. HUD has funded the Fair Housing Initiatives 
        Program, which supports private nonprofit organizations, state 
        and local governments and other entities committed to enhancing 
        compliance with the nation's fair housing laws. Furthermore, 
        HUD launched a rigorous, independent study of racial and ethnic 
        discrimination in housing and rental sales in order to enhance 
        its continuing effort to enforce fair housing opportunities.
  --Minority small businesses.--The Small Business Administration's 
        (SBA) MicroLoan program assisted small businesses throughout 
        the region, with over half of them going to African Americans. 
        SBA's Section 7(a) Loan Guaranty Program provides loans to 
        eligible, credit-worthy small businesses that cannot obtain 
        financing on reasonable terms through normal lending channels. 
        This program has steadily increased its loan activity for 
        minorities. In fiscal year 1992, 15 percent of the loans were 
        made to minorities and 14 percent to women, while in fiscal 
        year 1998, that percentage had risen to 24 percent to 
        minorities as well as 24 percent to women. In fiscal year 1999, 
        SBA guaranteed 4,052 loans in the region, amounting to more 
        than $755 million, and almost half of the loans were to 
        minorities and women. Similarly, the Community Development 
        Financial Institutions Fund has provided opportunities for 
        small businesses, including many African American businesses, 
        working with community development organizations such as the 
        Enterprise Corporation for the Delta and many others.
  --Minority government contracts.--The federal government has made a 
        concerted effort to provide minorities with opportunities to 
        increase involvement with federal contracting. The 1990 
        Commission explicitly recommended such assistance. The 
        Department of Defense gives attention to minority defense 
        contract awards, and SBA's Section 8(a) program is a set-aside 
        for small disadvantaged businesses. African Americans, Hispanic 
        Americans, Native Americans and Asian Pacific Americans are 
        included among those assumed to be disadvantaged under the 
        Small Business Act. There are 683 companies taking part in 
        Section 8(a) in the Delta region. Examples of the benefits: in 
        four Delta counties in Arkansas in 1998, $18.5 million in 
        federal contracting dollars were awarded to small and 
        disadvantaged businesses; three Louisiana Delta counties 
        received almost $32 million.
  --HUBZones.--Similarly, the historically underutilized business zone 
        program provides federal contracting opportunities for 
        qualified and certified individually-owned small businesses 
        located in areas with high unemployment, low-income residents, 
        or on Native American reservations. Almost every county along 
        the Mississippi River is included among the more than 7,500 
        HUBZones across the nation. SBA pursues a number of other 
        policies aimed at providing fair opportunities for minorities 
        (and all small, disadvantaged businesses) through its Small 
        Business Development Centers and other initiatives.
  --Minority health.--In 1998, President Clinton instructed federal 
        agencies to pursue a major initiative to eliminate racial and 
        ethnic disparities in health. The U.S. Department of Health and 
        Human Services is leading this effort to focus attention on 
        minority health issues. One example of this attention is the 
        Mississippi Delta Environmental Health Project, supported by 
        HHS through a cooperative agreement with the Minority Health 
        Professions Foundation. This project determines environmental 
        and other problems that affect minority health, addresses 
        demographics, identification of health care providers and 
        environmental services in the region, and implements strategies 
        to address these problems.
  --Environmental Justice for Minorities.--Pursuant to the Clinton 
        administration's Executive Order 12898, ``Federal Actions to 
        Address Environmental Justice in Minority Populations and Low-
        Income Populations,''the Environmental Protection Agency has 
        funded a variety of low-income and minority communities through 
        its Environmental Justice Program, including grants to Delta 
        institutions of higher learning to study hazardous waste, 
        health and the environment in the region.
  --Empowerment Zones, Enterprise Communities, and Champion 
        Communities.--One of the major Clinton-Gore administration 
        innovations in community development is the EZ/EC program. The 
        15 rural and urban EZ's and EC's in the Delta are located in 
        economically distressed areas with large minority populations.
    The Inventory discusses in detail these numerous initiatives aimed 
at providing fair social and economic opportunities regardless of race 
or ethnic group. But much more needs to be done to attack the remaining 
racial problems. As the Delta 2000 Initiative moves forward to 
recommendations for the future, we especially invite suggestions and 
ideas as to how we can advance civil rights for all people in a region 
that has suffered historically from the blight of racism.

                 LOOKING FORWARD TO THE DELTA'S FUTURE

    Many challenges remain--from lifting up the economies of the most 
distressed rural areas and inner cities, to improving health care for 
residents of all racial, ethnic, as well as socio-economic status, to 
building upon the progress made during the 1990s in such areas as 
transportation, preservation of natural resources, and education. The 
Report for the Delta's Future will include a section supplementing the 
data summarized in the Interim Report, and then will proceed to the 
crucial issue of recommendations for the future. True to the 
Commission's original emphasis upon an honest assessment of ``where we 
are in the emerging global economy,'' this Interim Report acknowledges 
that many areas of the Delta continue to be troubled by social and 
economic problems. The recommendations for the future will be developed 
in depth in the Report for the Delta's Future, to be completed by the 
end of 1999. All people interested in the development of the region 
that lies at America's heart are invited to provide their information, 
suggestions, constructive criticism, and ideas as the Mississippi Delta 
Regional Initiative continues the work of revitalization begun in 1990 
and carries it into the next century.

    Mr. Eisenberg. Thank you, Mr. Chairman. The Department of 
Transportation for its part has either completed or has 
underway the overwhelming number of the 70 transportation 
recommendations of the 1990 commission outline.
    My written testimony indicates a significant investment of 
transportation funds that the administration, working with the 
States, localities, and nonprofit organizations, has made in 
the Delta States and in the Delta communities.
    Among the projects benefitting Mississippi are funding for 
I-69, four-laning funds for I-61, airport improvement grants 
for nine Mississippi airports totaling $33.8 million, 
transportation enhancement funds for Clarksdale, HOV 
construction funds for I-55 South, shipyard modernization funds 
for Ham, Mississippi, and funds for ITS deployment in Oxford to 
name just a few facilities.
    In a few weeks, a final report and agenda cataloging the 
progress of the Delta since the 1990 commission report will be 
finalized. It will be entitled ``Delta Vision, Delta Voices: 
The Mississippi Delta Region Beyond 2000.''
    It will be formally unveiled at a national conference on 
the Mississippi Delta to be held in the Washington D.C. area on 
May 10 and 11 held there in order to focus national attention 
on the Delta and its needs.
    An important part of that report will, in fact, be the 
voices of the Delta where groups, individuals, interested 
parties, Members of Congress, anyone who has a view to submit 
to us will have that view and those recommendations, 
incorporated in that report, making it clear that we are all 
together in this great endeavor.
    Consistent with the administration's continuing commitment 
to the Delta that has been noted here today already, the 
administration has requested $159 million for fiscal year 2001 
programs and projects in the region. My testimony along with 
the others outlines these requests.
    A principal issue before you, of course, is the creation of 
the Mississippi Delta Regional Authority, which I would like to 
discuss. This has been introduced, as you know, in both the 
House and Senate as H.R. 2911, S. 1622 and enjoys bipartisan 
co-sponsorship as well as the announced support of several 
Delta Governors also on a bipartisan basis.
    The authority contained in these two bills is the top 
priority of this administration and of this President. He 
believes that it is vital to improving the long-term economic 
security of this region.
    It's modelled on the successful Appalachian Regional 
Commission which had played an important role to the progress 
of the Appalachian States.
    Mr. Chairman, it's important to separate what the proposed 
authority would do from what it would not do. The authority is 
rooted in the fact that this region is not a collection of 
States. It is a region bound together by one of the world's 
great rivers, by a rich tapestry of history, heritage, 
cultures, and common needs and problems.
    The authority would be a wonderful example of the 
devolution of responsibilities to the States and their partners 
that this Congress has so strongly and effectively espoused. 
The Governors would all be members of the authority and would 
choose their own co-chairman to serve with the counterpart 
chosen by the President.
    This authority would be the home for homegrown solutions to 
regional problems. It would provide technical assistance to 
small, poorer localities that are only part-time staffed and 
negotiate sometimes complicated application procedures 
necessary to require Federal funds for critically needed 
projects.
    This function would work in close partnership with the 
State, municipal, and county organizations which now assist in 
this role.
    Mr. Chairman, of the 164 Delta municipalities in 
Mississippi, some 50 percent of their mayors are part-time. And 
many of the full-time mayors are actually retired persons or 
people who hold second jobs.
    Local governments have told us that authority assistance 
with this kind of function would be a great benefit to them. 
The authority would also aid communities with dollars to match 
the funding requirements of Federal programs, the matching fund 
requirements.
    The transportation projects typically require a non-
federally match of 20 percent. It would also provide grants for 
a variety of Delta needs determined by the States and their 
partners.
    It would serve as the gathering place for States, 
localities, private sector industries, charitable, academic, 
faith communities and institutions to determine and address 
region-wide solutions to region-wide problems.
    Recognizing that many of the problems do not stop at each 
State's borders, this authority would reach across State lines, 
helping States and localities, partners, to address issues and 
needs that could not be resolved solely within each State. In 
doing this, it would fill a large gap that exists in the 
Delta's capacity to work together across this vast region on 
the common problems it faces.
    There is no broad regional entity in the Delta today that 
serves as a continuing gathering place for policies, programs, 
projects, technical assistance, research, and regional 
marketing and promotion. Without such an institutional 
framework, large-scale interstate efforts have a tough time 
holding themselves together.
    This authority would provide a one-stop shopping 
opportunity for all who have an interest in the progress of the 
Delta, and that one-stop shopping opportunity would produce 
results for less cost and with much less redtape. And it would 
provide a regional forum for the generation of new ideas and 
new efforts.
    This authority, however, would not supplant existing 
structures. It would not usurp anybody's power prerogatives. It 
would create no new layers of government. The legislation 
specifically indicates it would not impose any program or 
project on any State. This authority would be of the Delta and 
for the Delta.
    Mr. Chairman, we are mindful of your interest to the 
contributions of the Delta that will be found among the 
region's colleges and universities. We encourage and welcome 
that involvement within the context of an institutional 
framework of the authority as well as the contributions that 
they may make on their own.
    The region has outstanding institutions of higher learning. 
In areas such as research, conferences, programs, particularly 
pertinent to their areas of concentration, these institutions, 
along with other public and private entities through the 
region, should and must have the opportunity to participate in 
the overall effort to promote a more cohesive approach to 
regional efforts. We are committed to this kind of a 
partnership.
    Let me quickly mention the specifics of the 
administration's budget request at which point I will conclude. 
The budget request as noted does contain this new authority, 
contains a number of programs and projects, some of which my 
colleagues have indicated today.
    Sixty-nine million dollars would be provided for the 
Department of Transportation alone. That transportation request 
provides for $25 million specifically dedicated to I-69 and the 
Great River Bridge, and an additional $23 million for 
additional bridge and road projects to be decided by the States 
and their partners at their discretion.
    In addition, there is $20 million for improved access to 
jobs, health care, and other needs of which $5 million is 
specifically charged for new bus purchases and establishment of 
new routes. And as is noted, $30 million would go for this 
Delta Authority, the overwhelming result of which would go 
specifically to Delta communities to their needs.

                           PREPARED STATEMENT

    Mr. Chairman, I would conclude at this point and with my 
colleagues be happy to address any questions you might have.
    [The statement follows:]

               Prepared Statement of Albert C. Eisenberg

                              INTRODUCTION

    Mr. Chairman, I appreciate the opportunity to appear before you 
today to discuss the role of the Department of Transportation 
specifically, and of the Administration generally, in addressing the 
needs of the Mississippi Delta Region. We commend you for holding this 
hearing in order to focus attention on the issues and concerns 
confronting this region. My testimony will concentrate on programs and 
activities of the Department, as well as the broader Mississippi Delta 
Region Initiative of the Administration. This initiative, chaired by 
the Department of Transportation, features a proposed Delta Regional 
Authority and budget requests from several federal departments, which 
total $159 million.
    The Administration has demonstrated a long and continuing 
commitment to addressing the range of needs facing the Mississippi 
Delta Region. This important part of America's heartland encompasses 
seven states, 219 counties and parishes, and 8.5 million people, bound 
together economically, historically, socially, and culturally by one of 
the world's great rivers. During the last seven years, the region has 
made important social and economic progress as it seeks to take its 
full place in the circle of prosperity that the rest of the country 
enjoys. At the same time, we fully recognize that numerous challenges 
remain in a number of domestic areas, including economic growth, 
transportation infrastructure, education, health services, and housing 
opportunities. For example, in 1999, in 15 Delta counties, the 
unemployment rate was higher than 10 percent.
    The Administration's Mississippi Delta Region Initiative is a 
comprehensive proposal that should be viewed as an evolution of the 
Administration's commitment to the social and economic progress of the 
Mississippi Delta. We believe that the proposal will add value to the 
work that has been going on in the Delta and will help the region to 
participate more fully in the unprecedented prosperity and economic 
growth that the country is experiencing.
    Our proposals come from the Delta. We spent a long time listening 
to the voices of the Delta in four listening sessions and numerous 
discussions held throughout the region. The result is a comprehensive 
regional initiative with many pieces:
  --An interim report on the federal government's progress toward 
        meeting the recommendations and goals of the 1990 commission 
        report;
  --A final report and agenda entitled ``Delta Vision, Delta Voices--
        The Mississippi Delta Region Beyond 2000;''
  --A national conference to take place in the Washington, DC, area to 
        focus national attention on the Delta region; and
  --A legislative package, including a proposed Mississippi Delta 
        Regional Authority and funding proposals addressing key issues 
        affecting the Delta.
    Before discussing the Department's and the Administration's 
efforts, let me first briefly summarize the recent history of federal 
efforts in the region.
    In 1988, with bipartisan support including you, Mr. Chairman, the 
U.S. Congress established the Lower Mississippi Delta Development 
Commission, with the mandate to study the unique problems of the region 
and make recommendations for future action. Two years later in 1990, 
the Lower Mississippi Delta Development Commission, chaired by then-
Governor of Arkansas Bill Clinton, submitted its final report entitled, 
``Realizing the Dream . . . Fulfilling the Potential.'' This report 
contained 63 goals and more than 400 recommendations for the federal 
government and the non-federal public and private interests in what the 
Commission called a ``handbook for action.''
    Now nearly a decade later, the Administration's Mississippi Delta 
Region Initiative, led by Transportation Secretary Rodney Slater, has 
been charged with assessing where we stand in relation to the goals and 
recommendations that were set forth in 1990, and developing 
recommendations for the next set of actions. Under the Secretary's 
leadership, I chair the interagency task force responsible for 
producing the final report and agenda of the initiative entitled, 
``Delta Vision, Delta Voices--The Mississippi Delta Region Beyond 
2000,'' as well as the May 10-11, 2000, national conference for the 
initiative. An Interim Report entitled, ``The Mississippi Delta Beyond 
2000, Interim Report'' reviews the federal government's programs and 
investments in the Delta and their outcomes. Produced in September 
1999, the report has been distributed to public and private 
stakeholders throughout the Delta.
    This interim report summarizes the progress made in the Delta since 
1990 across the range of federal programs and activities: in 
transportation, job growth, unemployment, empowerment zones, education, 
agriculture, infrastructure, natural resources and the environment, 
tourism, housing, health care, child and youth issues, and hunger and 
nutrition concerns. I commend this document to you, and submit a copy 
of this interim report that I ask be included in the record.

       U.S. DEPARTMENT OF TRANSPORTATION ASSISTANCE TO THE DELTA

    Specifically, I would like to highlight a number of USDOT 
transportation investments in the region that have important relevance 
for the future of the Mississippi Delta and the improvement of its 
economic conditions.
    The Department of Transportation maintains a continuing presence in 
the Mississippi Delta, contributing effectively to help meet the 
transportation needs of the states and their communities, both rural 
and urban.
    As you know, the greatest amount of the transportation funds under 
the jurisdiction of the Department of Transportation are provided under 
the Federal-aid highway program and are apportioned to each state by 
formula. At the same time, substantial funding for public transit is 
provided through congressionally earmarked projects and formula grants 
to states and transit agencies. The Department also administers a 
number of programs that Congress has authorized for competitive 
application, addressing such needs as job access, support of 
international trade, and innovative transportation financing and 
solutions.
    It is important to note that the projects funded by the Department 
are determined by the states and localities working in partnership with 
their stakeholders through planning, with a strong public participation 
component that is described in TEA-21 and supported by the Department.
    Advances in the region's transportation system play a crucial role 
in its economic development. In 1990, the Lower Mississippi Delta 
Development Commission's (LMDDC) 10-year goal envisioned an improved 
network of limited access highways, airports, and rail and port 
facilities to promote economic growth. The great majority of the nearly 
70 specific transportation recommendations in the 1990 report, The 
Delta Initiatives, have either been fulfilled or substantially 
fulfilled.
    The LMDDC made several general highway recommendations, beginning 
with one urging that Congress and the President release funds currently 
being held in the Highway Trust Fund. Highway Trust Fund investment in 
highways and transit was increased dramatically by the Intermodal 
Surface Transportation Efficiency Act of 1991 (ISTEA) and the 
Transportation Equity Act for the 21st Century of 1998 (TEA-21). ISTEA 
authorized $151 billion over six years for highway and transit 
programs, while TEA-21 went several steps further, providing new 
programs, new flexibility, and new guarantees of funding for the 
states. TEA-21 guaranteed a spending level of $198 billion over six 
years.
    Job Access.--The Department of Transportation has awarded 
approximately $3.86 million in fiscal year 1999 Jobs Access and Reverse 
Commute funds to the Delta (roughly 5.5 percent of Jobs Access funding 
for fiscal year 1999). The Job Access and Reverse Commute grant program 
assists states and localities in developing new or expanded 
transportation services that connect welfare recipients and other low-
income persons to jobs and other employment related services. The 
program encourages a coordinated approach to transportation services.
    Highway Projects in Kentucky.--The Delta counties of Kentucky have 
received over $194 million in federal funds for highway construction 
and rehabilitation since 1993. Projects have included major 
rehabilitation on the Western Kentucky, Pennyrile and Purchase 
parkways, and bridge and approaches on US 51 in Ballard County and on 
US 60 in Livingston and McCracken counties. Additionally, a study for a 
potential I-69 Connector from I-24 to Marion County has been conducted, 
as well as a study for a potential I-69 alignment around Henderson from 
Pennyrile Parkway to the Ohio River crossing.
    The Great River Road.--Another major recommendation of the 1990 
report stated that Congress should prioritize funding for the Great 
River Road and immediately provide funds for its completion. Individual 
states are using this increased flexibility to fund improvements to the 
Great River Road and other major highway-related facilities. In 
Arkansas alone, since 1990, about 120 miles of improvements, including 
easements, historic preservation, highway reconstruction, highway 
resurfacing and major widening, have been completed at a cost of about 
$140 million.
    Aviation.--The Federal Aviation Administration (FAA) provided over 
$400 million in financial assistance from Federal discretionary and 
entitlement funds allocated from the Federal Airport and Airway Trust 
Fund for Airport Improvement Program (AIP) projects to over eighty 
airports within the Mississippi Delta between 1993 and 1999. Federal 
legislation authorizes the Secretary of Transportation to make project 
grants for airport planning and development under the AIP to maintain a 
safe and effective system of airports. Eligible projects under the AIP 
include airport system and master plans; construction, expansion or 
rehabilitation of runways, taxiways and aprons; items needed for safety 
or security; navigational aids; land acquisition; noise control; and 
limited terminal development.
    Rail Service.--The Department of Transportation has engaged in a 
series of rail service improvements in the region. For example, in 
November 1998, Secretary Slater announced the designation of the Gulf 
Coast High Speed Rail Corridor linking New Orleans with Baton Rouge and 
other cities in the South. Under TEA-21, this corridor received 
approximately two million dollars in earmarks for high-speed rail 
development and grade crossings. In addition, AMTRAK has proposed, 
based on its recent market-based analysis, to expand passenger rail 
service on the Crescent between Meridian, MS. and Dallas-Forth Worth, 
TX.
    Safety.--The National Highway Traffic Safety Administration (NHTSA) 
has signed agreements on safety projects and programs, such as seat 
belts and child car seat usage, with the following Delta communities: 
El Dorado and Union Counties, AR; Jonesboro, AR; Paducah, KY; Mayfield, 
KY; New Orleans, LA; Cape Girardeau, MO; and Jackson, TN.
    Completion of the Commission's transportation projects.--The heart 
of The Delta Initiatives' transportation recommendations consisted of a 
detailed inventory of transportation improvements for the highway, 
aviation, maritime, and rail network of the Delta. Probably no other 
area discussed in the 1990 Report contained such a large number of 
highly specific recommendations; and probably no area now displays as 
many successful completions of those recommendations. These efforts 
were led by the Department of Transportation, with important 
contributions from the Army Corps of Engineers and other agencies. For 
example, the Department of Commerce funded feasibility studies for port 
facilities in seven communities of Louisiana alone. The Corps completed 
over 30 navigation projects along the Mississippi River, while DOT 
completed numerous maritime transportation projects throughout the 
entire region. As noted above, the great majority of the nearly 70 
specific recommendations for all modes of transportation in the 
original report have either been completed, or significant progress has 
been made in completing them. These transportation projects have 
provided a powerful impetus to improving the quality of life and of 
economic development in the region.

             RECENT TRANSPORTATION ACTIVITIES IN THE DELTA

    Many vital transportation activities were underway in the Delta in 
recent years. The following are several major examples of the ongoing 
efforts to improve the region's transportation.
  --The construction of the I-69 High Priority Corridor will extend 
        from Sarnia, Ontario, Canada to Brownsville, TX at the Mexican 
        border, and will result in major benefits for the nation's 
        transportation system, as well as the Delta Region. The 
        Corridor crosses the states of Arkansas, Mississippi, and 
        Tennessee, and would potentially have connectors to all of the 
        Delta states. It is expected to generate 27,000 more jobs and 
        $11 billion in wages over a 30-year period. TEA-21 set aside 
        $140,000,000 for each of fiscal year 1999 through fiscal year 
        2003 for the National Corridor Planning and Development Program 
        and the Coordinated Border Infrastructure Program. In fiscal 
        year 1999, a $10 million grant under the Corridors and Borders 
        Program was awarded for environmental studies for the entire I-
        69 corridor. Mississippi DOT used its portion of the grant 
        ($923,913), to prepare an environmental impact statement (EIS) 
        for the section of I-69 from the US 61/relocated MS-304 
        interchange south of Memphis to the Great River Bridge near 
        Rosedale.
  --The four-laning of US 61 from the Tennessee state line to the 
        Louisiana state line is progressing well. The segment from the 
        Tennessee state line to south of MS 4 is complete and open to 
        traffic. Paving for the segment from south of MS 4 to south of 
        Coahoma County, MS, near US 49 is scheduled to be completed in 
        June 2001. The segment from the Coahoma County line to 
        Clarksdale, MS, is complete. The section from Clarksdale to the 
        Bolivar County, MS, line, which includes the Bypass of 
        Clarksdale, has been awarded for grading and bridges, and is 
        about 55 percent complete. Paving for this segment is scheduled 
        to begin in September 2000 at an estimated cost of $10 million. 
        The section from the Bolivar County line to Shelby, MS, has 
        just begun. The paving contract for the section from Shelby to 
        Merigold, MS, is about 50 percent complete, and the segment 
        from Merigold to Leland, MS, is complete and open to four-lane 
        traffic.
  --Nine airports in Mississippi received over $120 million in Federal 
        Airport Improvement Program (AIP) assistance since 1993. 
        Jackson International is the most active airport in the state 
        and benefited from improved air service in the past few years 
        including the introduction of low fare service and the 
        substitution of all-jet service for previous prop service. This 
        increased use has resulted in more wear on the airfield 
        pavements requiring overlays and rehabilitation. The soil 
        conditions in Mississippi result in substantial expansion and 
        contraction, which requires more rehabilitation and overlay. 
        This maintenance was performed at Olive Branch, Greenville, and 
        Yazoo City airports among others. Greenwood's airport serves as 
        an aircraft salvage yard for the disassembly of air transport 
        aircraft. Apron and taxiway improvements were made at 
        Greenwood.
  --In Clarksdale, MS, a Transportation Enhancement Program grant 
        amounting to $1.6 million has helped transform the old train 
        station there into the Blues Museum. The depot also houses 
        several businesses and includes an area for bands to perform. 
        An additional $870,000 in Transportation Enhancements Federal-
        aid funds has been provided to acquire and restore the historic 
        Greyhound Bus Station and to purchase and refurbish vintage 
        rail cars for a museum exhibit on the existing rail spur 
        adjacent to the bus station and the recently restored 
        Clarksdale Depot. The Greyhound Bus Station will be used as a 
        tourist information center and will accommodate tour buses. The 
        project is currently in the design stage. These projects are a 
        focal point for Clarksdale's effort to revitalize the central 
        city area and to promote tourism. They provide jobs in both the 
        service and industrial sectors.
  --The Memphis International Airport is in the midst of a multi-
        million dollar expansion program, including the completion and 
        opening of a new east parallel runway in 1996. A center 
        parallel runway will be completed and open in late 2000. Since 
        1990, the FAA has approved airport improvement projects for 
        airports in the Memphis region totaling $211.6 million. 
        Integrally related to the airport work is the reconstruction 
        and widening of a highway near the Memphis International 
        Airport to improve access for airport patrons and the Federal 
        Express distribution center. All of this activity supports for, 
        the evolution of Memphis as a distribution center for the 
        nation and a key economic center for the Delta, resulting in 
        major economic development and substantial job growth for the 
        region.
  --Crowley's Ridge Parkway, Arkansas' only National Scenic Byway, is a 
        200-mile route running through eight counties in the Arkansas 
        Delta that is already generating job growth. Local authorities 
        expect that the Byway will generate 160 new jobs directly 
        related to tourism in the area. Arkansas received more than 
        $1.03 million in fiscal year 1999 Scenic Byways discretionary 
        funds for 3 projects along the Crowley's Ridge Parkway:
    --$324,000 for development of educational and promotional material 
            for the Parkway;
    --$630,148 for development of a visitor/interpretive center in 
            Piggott, Arkansas, at the Hemingway-Pfeiffer Museum and 
            Education Center; and
    --$91,776 to establish a student internship and service learning 
            program in association with the management and development 
            of the Parkway and development of a hiking/biking trail and 
            an African-American Tour along the Parkway.
    The interpretive center was officially opened in July 1999. The 
town of Piggott, with less than 4,000 people, has opened or expanded 16 
new businesses, with eight of them directly related to tourism, has 
formed a downtown revitalization committee to develop a master plan, 
and has hosted architectural students from the University of Arkansas 
Community Design Center to assist with the project. Similar economic 
benefits are occurring elsewhere along the parkway. Five of the eight 
county seats along the parkway are developing downtown revitalization 
plans, three new museums have opened, historic structures are being 
renovated, and improvements are being made in the five state parks 
along the ridge.
  --The State of Illinois has been allocated $749,000 in fiscal year 
        2000 National Scenic Byways discretionary grants for the Ohio 
        River Scenic Byway, entirely located within the Delta region of 
        Illinois. These funds are available for various enhancements 
        such as marketing programs, safety pull-offs for farm 
        machinery, visitor centers, restroom facilities, and 
        interpretive kiosks. These grants are expected to stimulate 
        commerce and tourism along this designated National Scenic 
        Byway. In addition, prior to fiscal year 2000 and since fiscal 
        year 1992, FHWA has obligated $162,000 in National Scenic 
        Byways funds for enhancements to this byway.
  --MARAD's Title XI Program has provided a significant benefit to 
        shipyards in the Delta region. Approvals were granted to 
        finance the construction of over 250 vessels costing in excess 
        of $3.5 billion in this region. MARAD also provided 
        approximately $40 million Title XI financing for the 
        modernization of four shipyards in the Delta region--Avondale, 
        LA; TT Barge, LA; North American Shipping, LA; and Ham, MS.
  --HOV Lanes construction on I-55 South, consisting of two projects, 
        is widening I-55 and adding High Occupancy Vehicle lanes (HOV) 
        between the Mississippi State line and I-240 in TN. This 
        approximately 5.7-mile section of roadway is being improved 
        using Federal-aid funds. The additional capacity will reduce 
        congestion on heavily traveled Interstate 55 in Memphis.
  --Light Rail in Memphis, Tennessee including the first extension of 
        Memphis' vintage trolley system, connecting the Main Street 
        Trolley with the Memphis Riverfront. It has been completed. The 
        Medical Center Rail Extension is envisioned as the last segment 
        of the downtown rail circulation system, as well as the first 
        segment of a regional light rail line. The Federal Transit 
        Administration (FTA) approved the Memphis Area Transit 
        Authority's (MATA) request to enter preliminary engineering for 
        the rail extension, and this engineering work was completed in 
        late 1999. The capital cost of the project is estimated at 
        $30,400,000. Congress appropriated funds for the Memphis 
        Regional Rail in fiscal year 1994 and fiscal years 1996-99.
  --The Memphis Central Station Intermodal Terminal project involves 
        renovation of an historic train station to create a facility 
        that will be used as an intermodal terminal for MATA buses, 
        trolleys, and AMTRAK. Its estimated cost is $23 million, with 
        an estimated Federal Transit Administration participation of 
        $14.3 million. Private sources will provide approximately $5.5 
        million. Memphis received $3.9 million for this project in 
        fiscal year 1993, and another $8.7 million in fiscal year 1995. 
        Site improvements and building restoration have been completed. 
        Part of the building will be leased to private businesses, and 
        other areas will be provided for a day care center. MATA's 
        Information Center and a police substation are housed on the 
        first floor. The Career Center was officially opened in 1999. 
        Various agencies housed in the center provide job counseling, 
        training, and placement services for clients making the 
        transition from welfare to work.
  --With Congressional approval, the Coast Guard nears completion of a 
        new Vessel Traffic Service (VTS) Lower Mississippi River. With 
        a radio call sign of ``New Orleans Traffic,'' this VTS will use 
        of ship-to-ship transponders, radar and closed circuit video 
        cameras to improve the safety of the Lower Mississippi River 
        waterway and Delta Region. First stage testing is complete as 
        50 Automatic Identification System (AIS) transponders were 
        acquired and tested aboard various types of vessels throughout 
        a 276-mile expanse from the entrance to the Southwest Pass to 
        20 miles above Baton Rouge. The second stage of testing will 
        soon determine compliance with the universal standard and 
        interoperability between manufacturers, providing over 60 
        transponders throughout the region. Area stakeholders, 
        representing all major sectors of the maritime industry have 
        played a critical role in executing this successful partnership 
        effort.
  --West Memphis' new transit service partnership with MATA officially 
        opened in June 1999, with vital support from the mayor of West 
        Memphis, Arkansas, Arkansas' First District Congressman Marion 
        Berry, and state Department of Human Services representatives. 
        This effort was the product of the Crittenden County TEA 
        Coalition, utilizing state Department of Human Services funds 
        that provide seed money for ``welfare to work'' initiatives. 
        MATA busses will provide one local route to key destinations 
        for medical, shopping and other needs, as well as an express 
        route to and from Memphis.
  --The Central Arkansas Transit Authority (CATA), in Pulaski County, 
        has received the most federal transportation financial 
        assistance in Arkansas. To date, CATA has received 19 grants 
        for a total of $31,568,518. The grantee currently has 6 active 
        grants with total obligations of $11,268,430. Two recently 
        approved grants include $180,000 (part of a fiscal year 1997 
        earmark) for preliminary engineering and project management 
        services for a River Rail Project, and $794,000 for a Downtown 
        Transfer Center. Another example of transportation projects is 
        a $485,000 Job Access grant to CATA that will provide 
        dependable and low-cost transportation for those moving from 
        dependency into self-sufficiency. New services will include 
        extending the reach of the present system into fast-growing 
        retail and service employment areas with vans operating on 
        flexible schedules and routes. The grant will provide:
    --A one-time start-up of five vans for employees of a local 
            business;
    --A mobility manager to develop transportation agreements and 
            programs for coordinating transportation for those entering 
            the job market within the Little Rock Enterprise Community; 
            and
    --``Graveyard shift'' service from local hospitals to a downtown 
            transfer center and ``night owl'' distribution runs with 
            user-side subsidy of taxi service or publicly owned vans.
    Many other examples of transportation activities are underway in 
the Delta in addition to the projects cited above. These projects 
demonstrate progress and the ongoing commitment to improve the 
transportation network for people throughout the Mississippi Delta.
  --The fiscal year 2000 DOT Appropriation for the Delta is consistent 
        with the Department's strong commitment to the Delta Region. 
        DOT appropriations in the Delta for fiscal year 2000 exceed 
        $18.6 million, including $5,183,000 in Mississippi for projects 
        such as ITS deployment in Oxford, buses and bus facilities in 
        the North Delta Planning District, a Pearl River Airport 
        Connector Study, and a Next Generation Landing System at McComb 
        Airport. Missouri's share of this appropriation includes 
        $600,000 for job access provided to Southeast Missouri State 
        University; $1.44 million for transit projects in Franklin 
        County, MO, and for the Southeast Missouri Transit Service. Bus 
        grants for Louisiana Delta communities total $4.1 million, 
        while another $3 million is provided for the Florida Avenue 
        Rail Highway Bridge in New Orleans.

                THE MISSISSIPPI DELTA REGION INITIATIVE

    An important product of the Initiative is the ``Delta Vision, Delta 
Voices'' report and agenda, which will summarize the progress toward 
implementing the 1990 goals and recommendations, indicate unfinished 
business of the Initiative, recommend what needs to be done to complete 
the work of the Initiative, and provide strategies for accomplishing 
that work and recommendations on how to proceed. In addition, 
recognizing that the Delta's future concerns all levels of government, 
the private sector and the charitable and faith communities, the report 
will contain a special section featuring recommendations, ideas, and 
commitments from the many stakeholders and interested parties that care 
about the Delta's progress.
    The work of the task force has included a high level of involvement 
and partnership not only among federal departments and agencies, but 
also especially with the leaders and stakeholders of the Delta Region. 
Administration-sponsored listening sessions were held in the Delta to 
gather the perspective of the leaders and stakeholders in the region 
for the Task Force's report. The sessions took place in 1999 on: 
September 25 in West Memphis, Arkansas; October 1 in Baton Rouge, 
Louisiana; October 2 in Vicksburg, Mississippi; and October 4 in Cape 
Girardeau, Missouri. Over 600 people from the region attended these 
sessions. In addition, the President, Secretary Slater, and other 
Cabinet officials and Administration leaders have had continuing 
communications with Delta stakeholders in meetings, site visits, and 
conferences, in order to ensure that the Initiative benefits from the 
Delta's views and knowledge.

Establishing a Delta Regional Authority

    A key element of the Administration's plan for the Delta is 
establishment of a Delta Regional Authority (DRA). The Authority is 
patterned after the Appalachian Regional Commission and will involve 
close coordination with state and local officials. The President would 
appoint the federal co-Chairperson of the DRA. The Governors of the 
seven member states would serve as DRA members and would elect one of 
these Governors as the states' Co-Chairman.
    The DRA is a top priority of this Administration and this 
President. He believes it is vital to improving the long-term economic 
security of this region. Legislation has been introduced in both the 
House and the Senate that would accomplish this goal, S. 1622 and H.R. 
2911.
    The goal of the DRA is to increase the amount of resources and 
improve the effectiveness by which those resources are used to address 
the pressing development needs in the Delta. The Authority would 
provide for the long-term continuing coordination of resources in the 
local community. Creation of a new Federal agency will allow us to meet 
this goal by strengthening the Federal-state partnership, and will 
provide an on going, targeted federal presence in the region. As 
members of the Authority, the Governors of the seven Delta states and 
the federal members will identify the projects that the Authority will 
fund. Half of the Authority's resources will be targeted to the most 
distressed counties in the region. We expect the Authority will 
actively work with existing economic development organizations to help 
identify and prioritize needs. Community-based organizations as well as 
state and local governments will be eligible to receive Authority 
funding.
    The Authority would:
  --Provide technical assistance to smaller, poorer localities that 
        have only part-time staff to negotiate the sometimes 
        complicated application process necessary for acquiring federal 
        funding for critically needed transportation, housing, basic 
        infrastructure and economic development projects;
  --Aid needy localities in meeting the matching fund requirements of 
        federal programs that require such matches;
  --Foster cooperation among states, localities, private sector 
        interests, and charitable, non-profit groups to determine 
        region-wide solutions to regional problems; and
  --Provide a regional view on issues that cannot be adequately 
        addressed on a state-by-state basis.
    I would like to elaborate on these points.
    Establishment of the Authority would recognize that the problems 
and needs of the region do not stop at the borders of individual 
states. If regional problems that affect all states are to be 
addressed, there needs to be an entity that has the ability to pull 
regional resources together. An institutional framework that can range 
across the vastness of this region would be of vital assistance in 
assuring that regional interstate agreements essential to the Delta's 
progress not only advance but also last for as long as they are needed.
    The Authority would play a very useful role in coordinating 
programs, not only among federal agencies, but also between the federal 
government and state, local, and private programs and projects. Such 
public/private coordination will not only make assistance to the Delta 
more timely and cost-efficient, but it will also help create and 
maintain the strong partnerships essential to the Delta's progress.
Administration's Budget Proposal for Fiscal Year 2001
    Now, let me turn to the Administration's budget proposal for fiscal 
year 2001.
    The Delta Region today exhibits a blend of progress and challenge. 
Similar to several other regions of the nation (Appalachia, the 
Colonias region along the Mexican border, and Native American 
communities and portions of Alaska) it has faced persistent economic 
development difficulties that warrant special federal assistance. I 
have previously discussed the region's unemployment rates. There are 
other indicators of progress as well. While many Delta counties have 
relatively low poverty rates, over half of the Delta counties have had 
poverty rates over 20 percent for the past four decades. The poverty 
rate in distressed counties of the Delta is now at 32 percent, compared 
to a national rate of 13 percent. In addition, the per capita income in 
the Delta's distressed counties is only 53 percent of the U.S. average.
    President Clinton's fiscal year 2001 Budget targets $159 million 
for the Mississippi Delta. Of that amount, $30 million will be used to 
create a Delta Regional Authority, $69 million would be dedicated for 
transportation improvements, and the remaining $60 million would 
support economic development and human resource proposals. Federal 
agencies would allocate the funding as follows:
  --Department of Housing and Urban Development will provide $22 
        million in Community Development Block Grants to support rural 
        housing and economic development. The funding will be awarded 
        through a competitive process for economic revitalization and 
        community development initiatives in the Delta region.
  --Department of Commerce will provide $10 million through targeted 
        Economic Development Administration funding for public works 
        and infrastructure grants.
  --Department of Agriculture will provide:
    --$4 million for the Intermediary Relending Program, which finances 
            loans to intermediary borrowers who in turn lend the funds 
            to rural businesses, community development corporations, 
            and others for the purpose of improving rural economic 
            opportunity. The $4 million represents loan subsidy costs 
            and would support a loan level of $8 million.
    --$2 million for Partnership Technical Assistance grants, which 
            provide technical assistance to under-served communities to 
            create strategic plans, better use USDA's rural development 
            grant and loan programs, and achieve sustained economic 
            viability, job creation, and improved quality of life. 
            These grants will be run through the Rural Business 
            Opportunity Grant Program.
  --Department of Labor will provide up to $5 million in grants through 
        the Dislocated Worker Employment and Training Program--a state 
        operated program that provides core services, intensive 
        services, training and support to help permanently separated 
        workers return to productive unsubsidized employment. The 
        Department of Labor will award dislocated worker grants for 
        qualified applicants from the 7 States and 219 counties 
        comprising the Mississippi Delta region.
  --Department of Education will provide $10 million for a targeted 
        demonstration project designed to provide training to middle 
        school teachers in the seven-state Mississippi Delta region. 
        Research suggests that middle school is an especially critical 
        point for learning the technology-related skills that students 
        will need to be successful in high school and beyond. The 
        program will use a ``train-the-trainers'' approach, preparing 
        one or several teachers from each school who can then be 
        technology leaders, serve as resident experts, and assist other 
        teachers in their schools or districts.
  --Department of Health and Human Services will provide $7 million 
        through the Health Resources and Services Administration's 
        Rural Health Outreach program for grants to fund rural health 
        clinics in the Mississippi Delta region. This request will fund 
        up to 30 new Rural Health Outreach grants, and will support a 
        wide range of services in the Delta Region including primary 
        care, dental care, mental health services and emergency care. 
        Each grant will require participation by a consortium of three 
        or more providers to encourage the development of shared 
        service arrangements among providers and new networks of care 
        in the Delta Region.
  --Department of Transportation will provide:
    --$20 million in transit funds, consisting of $15 million from the 
            Federal Transit Administration's (FTA) Capital Investment 
            Grants program for public transit buses and bus facilities 
            to provide affordable transportation and $5 million from 
            FTA's Access to Jobs and Reverse Commute Grants to promote 
            vanpools and new bus routes. Access to Jobs helps non-
            profits and local governments to assist residents with 
            vanpools, new bus routes, and employer provided 
            transportation alternatives.
    --$48 million for new bridge and highway infrastructure in the 
            Delta, including $25 million specifically for I-69 and the 
            Great River Bridge, and;
    --$1 million from Federal Highway Administration administrative 
            funds for technical assistance, including training on 
            federal programs, and development of a regional 
            transportation plan and a tourism-marketing plan.
    I would like to discuss the proposed fiscal year 2001 
transportation funding in greater detail. In the listening sessions and 
other meetings and forums, many Delta leaders and stakeholders had a 
number of transportation related suggestions, which the Department's 
fiscal year 2001 budget request seeks to accommodate.
    Transportation Projects.--Transportation development, particularly 
intermodal connections and elimination of bottlenecks, were highlighted 
by state and local leaders as critically important to the enhancement 
of economic opportunity in the Delta. For such projects, we propose a 
total of $103 million for fiscal year 2001-fiscal year 2005, of which 
$48 million would be made available in fiscal year 2001 and another $55 
million would be provided from fiscal year 2002-fiscal year 2005. In 
fiscal year 2001, the funding would be made available through the 
Revenue Aligned Budget Authority (RABA). In fiscal year 2001, $23 
million would be dedicated to high priority projects in the Delta 
Region and $25 million would be provided to Arkansas, as the lead 
state, for development of the I-69 corridor and the Great River Bridge 
Project.
    Training.--Listening session attendees made it clear that a great 
need exists for information on the programs, activities and related 
funding of the federal government and how to access them. We propose a 
continuing set of training/information sessions for stakeholders, 
including local government officials, private non-profit groups, and 
other interested parties to improve familiarity with the programs of 
the Department and the process for using them. The project would use 
existing funds that now go for a variety of outreach and training 
activities, and project managers would coordinate with other agencies 
and departments, as appropriate, which would be providing their own 
training and education programs. In fiscal year 2001, $1 million would 
be made available to this effort from FHWA's limitation on 
administrative expenses.
    Access.--Residents of the vast rural areas and numerous small towns 
of the Delta suffer from disproportionate isolation and diminished 
opportunities for access to the normal daily activities of life. Many 
Delta residents have experienced substantial difficulties in getting to 
and from employment opportunities and related daily activities such as 
job training and education, and child day care services, health care 
services and other basic needs such as access to retail food and 
clothing stores. In its proposed fiscal year 2001 budget, the 
Department proposes $20 million dollars to support public transit in 
the Delta.
    Mid-South Community College Transportation Careers Program.--This 
college in West Memphis, AR, has proposed an ambitious and important 
initiative to encourage careers in the area's burgeoning transportation 
and distribution industries. This initiative would both benefit area 
youth who are often under-trained and under-employed, and the affected 
industries which suffer a labor shortage. Mid-South's program would 
link the college with high schools and other institutions of higher 
learning through a network of facilities, specialized curricula and 
technology. The total cost of the program is currently estimated in the 
$25-$27 million range, most of which involves the construction of new 
buildings and related facilities. The cost could be reduced 
substantially if existing space were employed. Since DOT does not fund 
education buildings, its role would be to assist with educational 
materials and other soft costs, while other federal agencies such as 
Labor and Education would determine their capacity and authority to 
provide appropriate financial support for facilities and other program 
elements. It would be expected that state and business interests would 
participate financially in light of their own interests in the success 
of such an enterprise. No new monies would be required to undertake the 
DOT portion of this activity.
    Regional Transportation Plan.--Delta leaders have expressed great 
interest in the formulation of a Delta Region transportation plan. The 
proposed plan would give direction to the Delta's region-wide 
transportation needs. It would also send a clear signal to the business 
community about the region's potential as a business location. The plan 
could be developed with modest new funds aimed at coordination 
activities among states and localities and technical assistance. The 
plan could include illustrative projects not included in the required 
Transportation Improvement Program (TIP) and long-range plan, but which 
would be desirable if funding were available. The proposed Delta Region 
plan would also highlight interstate intermodal facilities. The 
Department would provide funds to bring states and MPOs together around 
the idea of a coordinated process to develop a plan and then provide 
technical assistance and related support in the actual development of 
such a plan. The development of a Delta Region transportation plan 
could be an enterprise of the proposed DRA, working in concert with 
State DOT's and Metropolitan Planning Organizations (MPO's), as well as 
their national associations, such as the American Association of State 
Highway and Transportation Officials (AASHTO) and the Association of 
Metropolitan Planning Organizations (AMPO). A portion of the $1 million 
from the FHWA limitation on administrative expenses would be dedicated 
toward this effort.
    Tourism Marketing Plan.--The Mississippi Delta region enjoys 
extraordinary recreational, historical, and cultural assets that today 
generate more than $13 billion per year in revenue from related tourist 
activities. The development of a regional tourism-marketing plan would 
harness in coordinated fashion the power of the region's tourism 
bureaus and agencies locally and at the state level, along with related 
private sector interests such as chambers of commerce, hotel and 
restaurant associations, and other entities, to market the entire 
region as a tourist destination. This would not only be an efficient 
means of promoting the region's tourist assets, but it would also 
enhance the region's tourism profile in this country and abroad. The 
initiative would feature a region-wide conference that would establish 
the framework of the plan and then a longer-term action program. 
Existing authorities among relevant federal departments and agencies 
would combine with funds from public and private tourism interests to 
defray conference and related costs. Such agencies would include DOT, 
which has interests in scenic by-way, Millennium Trails, American 
Heritage Rivers, national park and public lands transportation, as well 
as the Departments of Interior and Commerce. Federal funding would be 
used for technical assistance and coordination of activities in 
partnership with state and local agencies and private sector entities. 
A portion of the $1 million would be dedicated toward this effort from 
the FHWA limitation on administrative expenses.
    Mr. Chairman, the future progress of the Mississippi Delta region 
is a goal that we all share. I thank you for the opportunity to share 
the Department of Transportation's views on this goal, and I would be 
pleased to answer any questions you may have.

    Senator Cochran. Thank you very much, Mr. Eisenberg, for 
your statements, and we appreciate your summarizing the Delta 
Regional Authority Proposal and giving us your information 
about how it would really work and what it would and would not 
do.
    Yesterday, I had an opportunity to be a part of a meeting 
in Jackson that was called by a new partnership that's being 
developed, a partnership between business and industry in our 
State, the elected public officials of our State, education 
leaders in our State, all for the purpose of trying to develop 
a strategy for economic development through strong 
relationships with State and Federal leaders.
    A very high-minded goal, but one that is really at the 
heart of our hearing today, too, to try and examine how here in 
the Mississippi Delta we can develop stronger relationships 
between our leaders at the State, local, and Federal level to 
enhance the economic development in the region.
    And some of the notes that I made yesterday I brought with 
me because I wanted to get the reaction of this panel to some 
of the comments and statements that were made that I thought 
were particularly insightful.
    One of the goals that was decided and that should be 
pursued at this meeting was to get industries to let the other 
leaders know what industries they foresee as being important to 
our State's economic development. And I think that's an 
appropriate exercise for the Delta region as well.
    We have to know, one person said, what products we have 
that the market demands. This is an initial first step in 
developing a strategic plan for economic development. What can 
we produce here in Mississippi that the markets of the State 
and the Nation and the world need? For example, of course, here 
in the Mississippi Delta we need to think of agricultural 
commodities. We can produce that.
    But what other products can we produce? And it was observed 
that we should target our efforts to taking advantage of the 
aerospace, telecommunications, manufacturing, automotive, and 
biosciences here in our State.
    The private sector of our State has become successful in 
all of these areas and so job opportunities exist in these 
areas. The challenge then for our education leaders and 
political and Government leadership is, are we designing 
programs to educate and train and enhance the opportunities of 
the people in this region to participate in the industries in 
these areas, aerospace, telecommunications, manufacturing, 
automotive, and biosciences?
    I'm not going to just make a speech. I am going to ask 
questions of the panel. But I wanted to pass that on as an 
observation which I think would be helpful for all of us to 
think about and to try to help ensure that we translate into 
strategies and programs that will mesh with this overall 
strategic plan for economic development for the State of 
Mississippi.
    Ms. Thompson, there was a good deal of emphasis placed by 
the administration on Rural Development Initiatives, which have 
now led to the creation, as you described, of enterprise zones 
and empowerment communities. And these programs are now 
underway.
    I think they were slow getting started. I remember asking 
maybe you even, why we were having so many meetings and weren't 
providing any loans and grants to people who wanted to take 
advantage of these new economic development programs?
    And we've gotten beyond that now, so we had an opportunity 
to see some results in the enterprise zones or the community 
programs. How do you think this Delta Regional Authority 
Initiative is going to affect the ongoing work of the 
Department of Agriculture's Rural Development Area that you are 
responsible for and how is it going to help you do the jobs 
that you have already started in the enterprise zone and 
empowerment community programs?
    Ms. Thompson. One of the things that we have discovered in 
working with empowerment zones and enterprise communities 
across the country is that there are some major challenges 
initially for the zones in the communities because they don't 
have a history of working together.
    You have a lot of smart people and a lot of talented people 
who have been working independently of each other doing some 
very successful kinds of things, but not getting the kind of 
overall results that you want because they're all working 
independently of each other.
    So that challenge of getting people to recognize that if 
they work together and pool their resources and their talents, 
they can make more things happen in their communities. That's a 
challenge and we are moving to the point where that is even 
more understood in communities today, in the zones today, than 
it was a couple of years ago.
    We're also finding that it's difficult for an individual 
community or a small region to do well unless it recognizes the 
role that it plays as part of the larger region. Another 
example in addition to the Mississippi Delta would be the 
Southwest border region of the United States.
    And we're trying to work hard to coordinate what goes on in 
Southern California and Arizona and New Mexico and Southern 
Texas.
    Senator Cochran. That's the Colonias Program?
    Ms. Thompson. In the Southwest Border Initiative and 
they're tied together and I think that we could be even more 
successful at the Department of Agriculture with the tying 
together of a regional approach to development so that in 
Mississippi, in the Delta area of Mississippi, what happens 
there is not done in isolation of what's happening in 
Mississippi or in the Delta region of Tennessee, for example, 
or Southern Illinois.
    Because there really are a lot of similarities as you go 
across, go up and down the river through the Delta communities 
and they can all be more successful if they were tied into a 
regional strategic plan in growth and development, I believe.
    Senator Cochran. One of the important roles of the 
Department of Agriculture is assisting with housing needs, and 
we've worked with you and your Department to try and make sure 
we targeted funding in our appropriations bills to support some 
of the needs for housing and improvements in existing housing 
in this region.
    Can you tell us whether the Delta Regional Initiative will 
have any impact or make any difference in the housing effort 
that we're making through the Department of Education and 
Agriculture programs?
    Ms. Thompson. It will have an impact on rural housing in a 
couple of ways. First of all, there would be funding for rural 
housing. But I also believe that learning to become a 
successful homeowner is a greater challenge if you come from a 
family that didn't own their own home.
    And so there is a lot of education and learning regarding 
how to buy a home, how to get the best deal on the house, how 
to get the best interest rate, and then how to maintain the 
home and make sure that payments are being made and so forth. 
And I think that through the Delta Regional Authority, through 
the coordination of efforts, we would do a better job of 
providing technical assistance to help first-time homeowners, 
particularly those who are coming from families that don't have 
a history of home ownership.
    Senator Cochran. There's one statement that you made that I 
think we should take to heart and that is the coordination of 
effort is needed in the Delta, and I assume by that that means 
State and local governments and other organizations such as the 
Delta Council, which is represented here and will be a part of 
the next panel, and other groups who do volunteer work to try 
to help improve the lives of those who live in this region.
    Is that going to be something that we could expect from the 
Delta Regional Authority, is the coordination of effort?
    Ms. Thompson. There would be a greater coordination of 
effort, but not just in the Delta part of the Mississippi, but 
in the larger Delta from Southern Illinois down to the Gulf. 
And I think that would be important, but I think it is very 
important that the Delta Regional Authority work with the 
entities that are already there, the State and local 
governments, the community-based organizations, private 
industry, also the education institutions including a 
university like Mississippi Valley State, and also high school 
and elementary schools.
    It's going to be very important for the authority to tie 
together and to provide information opportunities for networks 
to form that currently don't exist. In many cases they don't 
exist within the Delta area of a particular State, and in 
general, do not exist up and down the Delta.
    Senator Cochran. We're trying to coordinate some resources 
and efforts among representatives of some of the Delta region 
States, the lower Mississippi Delta, the lower Mississippi 
River Delta, of course, includes Arkansas and Mississippi and 
Louisiana.
    A few years ago Senator Bumpers from Arkansas and Bennett 
Johnston from Louisiana and I collaborated to develop a 
nutrition education program, trying to train people with 
dollars that were allocated to colleges and universities in 
these three States so that we would have leaders in the 
communities of these three States who were well-trained and 
better prepared to deal with the challenges of teaching others 
how best to prepare and design diets to try and keep our 
citizens on a track to good health and long life.
    This is a real big need in the lower Delta region. Is there 
anything in the Delta Regional Authority planning that would 
support or supplant, you said programs weren't going to be 
supplanted, but I wonder what would be the effect of the Delta 
Regional Authority on ongoing efforts like that which are 
funded on an annual basis in the Department of Agriculture's 
budget?
    Ms. Thompson. Well, I think one of the biggest challenges 
that small communities face is that you get to the county line 
and you have a different government and it's not always easy to 
work together because of the way funds get channelled to the 
respective counties or representative townships even.
    When you get to a State line, there's an even bigger 
barrier; but with the Delta Regional Authority, in essence, 
that line would become invisible because there is probably 
something even greater than the individual State. And there's 
so many common challenges in the Delta region.
    And as you go from State to State, you see communities 
facing the same kinds of struggles, whether it's nutrition, 
education, health care, housing, job creation; and this would 
allow us to better coordinate and I think be more efficient 
with the dollars and programs that we have.
    But for it to work, it's going to have to tie together the 
institutions that are already in existence and doing good work 
individually in the respective communities.
    Senator Cochran. Ms. Johnson, just the other day Secretary 
Riley was in Mississippi. I know he was in Bolivar County. He 
was at Delta State University and when we had our hearing to 
review the budget of the Departments of Education, Health and 
Human Services, and Labor, I was there and able to ask him 
about his trip and make some observations about how we could 
better utilize funds that are appropriated to the Department of 
Education in our State.
    But I mentioned that visit because we were talking about 
some of the programs that are designed to help States like 
Mississippi, and it seems to me with this Delta Regional 
Authority, I don't know whether we could use the funds that are 
designed to go to this authority or to be coordinated by this 
authority, but some new emphasis needs to be made on insuring 
the grant applications that are submitted from States in this 
region for things like reading enhancement programs, are given 
careful consideration, maybe even preference, because of the 
needs that exist here.
    I don't know of any investment that would be more important 
to economic development than teaching the children, as you say, 
to read by the time they finish the third grade. And we're not 
doing that in a lot of our schools in this State.
    We've done a lot to improve educational opportunities in 
Mississippi. As a matter of fact, according to Richard 
Thompson, who is our State Superintendent of Education, he made 
comments at this meeting that I attended yesterday that were 
very impressive about the improvements in education that we 
have made.
    He said since 1985 we have made more progress than any 
other State; but we were so far behind, we have not caught up 
yet. And here is another thing he said. We rank third in the 
Nation in the number of board certified teachers. That's pretty 
good. Mississippi ranks third in the Nation.
    We're achieving some great things. We received a $100 
million private gift for reading programs to achieve this goal 
from the Barksdale family. But we have some goals that are not 
going to be met unless we get some additional support from the 
Federal level.
    For example, Governor Musgrove has as a goal by 2002 that 
every classroom in our State will be linked to the Internet, 
but that's going to cost money. And Dr. Thompson said there was 
a reading grant application that was submitted to the U.S. 
Department of Education just recently for $32 million, and it 
was not approved. The State is reapplying and will try to 
rework and make the application more attractive.
    I hope that you'll be able to go back and bring that to the 
attention of the grant applicant readers of the Department that 
we have pending or will soon have pending a $32 million grant 
application designed to achieve the goal that you and I and 
others know we have to achieve if we're going to catch up and 
to provide students in our State with the kind of successful 
experiences they need to participate in the economic 
development opportunities that we have here in our State.
    Now, I am going to ask some questions and one is about the 
Elementary-Secondary Education Act that is up for 
reauthorization as you pointed out in your comments. I'm 
worried that the formula for allocating the funds is going to 
hurt Mississippi because we're going to get less under the 
reauthorization that's being recommended than we now get.
    Do you know anything about that position and the position 
of the administration on the allocation of funding to Title I 
eligible States?
    Ms. Johnson. I'd want to answer by responding to your 
reading of that proposal. It is our goal to award a grant to 
every one of the 50 States plus the District of Columbia. And 
so when States submit applications that are not accepted, we 
immediately go in and work with the State officials to help 
them develop an acceptable application.
    There have been workshops offered and we're very confident 
that with the right kinds of technical assistance offered to 
the State that ultimately every State will have that goal.
    You know, as public stewards of the funds, we need to 
ensure that when the funds are awarded they're used 
appropriately, and so that's the reason for providing ongoing 
assistance. So I'm very confident that at some point, 
Mississippi will receive one of these grants.
    Senator Cochran. Thank you.
    Ms. Johnson. On the targeting of funds for Title I, we have 
always believed that Title I funds need to be targeted to the 
areas where the students are most in need, where levels of 
poverty are very high, where large numbers of students are 
eligible for either free or reduced-priced lunch. That is still 
our belief.
    The formulas for targeting are developed at the House and 
Senate level, and we are supporters of ensuring that the 
targeting remains focused on children who need it the most. Our 
concern, now, is that the bill working its way through the 
Senate would reduce that targeting and not increase it and that 
the monies would not be focused on high poverty students. This 
is not the position of the administration.
    Senator Cochran. Okay.
    Ms. Johnson. So we are going to support and argue for an 
allocation formula that continues and focuses on high-poverty 
children.
    Senator Cochran. Thank you very much for that assurance. We 
will be on the same side in that argument.
    Ms. Johnson. Great.
    Senator Cochran. The Delta Regional Authority, of course, 
is the real subject of our meeting here today, but education is 
so important and is such a focus of my interest that I want to 
ask, do you think the Delta Regional Authority proposal is 
going to be of any particular benefit to our education effort 
and need to improve our schools and strengthen our colleges and 
universities in this region?
    Ms. Johnson. Let me start by first of all answering the 
question, yes, it will be of an immense benefit and let me give 
you the reasons why. As we were preparing for the submission of 
our proposals authorizing Elementary and Secondary Education 
Act and I lead that effort for the U.S. Department of 
Education.
    We travel to many rural areas around the country and what 
we heard so frequently is the fact that rural areas were not 
successful in receiving grant applications to the degree that 
larger areas are experiencing success.
    So what this authority could do would be to help the rural 
areas come together as consortiums and they can submit their 
applications because their needs are so common. Give large 
numbers of students, regardless of which of the seven States 
they reside in, who lives in poverty, families who are 
illiterate as well as children who have low literacy levels.
    By coming together to the authority, they can improve their 
opportunities for winning competitions.
    They can improve their opportunity for teacher training. 
They can improve the opportunities to disseminate what we know 
to be promising practices that can be replicated in our schools 
throughout the Delta region.
    We can offer regional workshops which sometimes are not 
cost effective if you try to offer them in one place, but as we 
just recently concluded two workshops in Arkansas for the Delta 
region, we can begin to do that more frequently.
    We're able to get the information, the knowledge, and the 
training out to all of the school districts; and we think they 
have so much in common they can only benefit from that. 
Although it's absolutely true that Mississippi has made great 
progress, it still has a long way to go to improve the quality 
of their students achievement to be competitive with the rest 
of the Nation.
    Senator Cochran. One of the programs that I've tried to 
support through arguing for increased appropriations is 
assistance in the area of technology and the use of computers 
and other new, modern equipment in our classrooms.
    There have been a couple of demonstration programs in the 
Mississippi Delta that have proven that with access to 
computers, children take a greater interest in the classroom 
work. There are fewer dropouts. People show up every day ready 
to work, ready to learn, and it's so obvious that it's a big 
benefit.
    Are there enough dollars being made available to your 
Department to provide leadership in this area, to identify ways 
to assist schools and districts in areas like the Mississippi 
Delta, to improve their access to technology that's useful in 
the classrooms?
    Ms. Johnson. We submitted a budget for the Department of 
Education that we thought was fiscally appropriate to improve 
the quality of technology supports throughout our public 
schools.
    We are given a certain amount to work with. We recognize 
the caps and we have put tremendous, tremendous emphasis on 
improving technology support throughout the school districts in 
this country.
    The Federal Government I think has taken the leadership 
role in ensuring that all of our schools have access to the 
Internet through the E-rate. We have and some of the studies 
provided more support for bringing technology, particularly 
computers and software, into the classrooms than have local and 
State governments provided.
    And so we are the impetus and we are setting the conditions 
that need enhancing and to be enhanced at a State and local 
level. If you're asking me can we use more money the answer 
would always be yes to that.
    Senator Cochran. We're working on that.
    Let me turn to Mr. Eisenberg and ask you about the Delta 
Regional Authority and how it's going to make available the 
funds to State and regional government agencies? I think you 
indicated that there would be funding that would go to the 
communities through the Delta Regional Authority.
    How would that actually work?
    Mr. Eisenberg. Well, let's get the mike down here for the 
record. Mr. Chairman, the authority would have an amount of 
funding that's dedicated to it for a variety of the programs. 
The Governors who really make up the commission would, with 
their stakeholders, with their partners, public and private, 
develop the plans and projects that then would be the substance 
of that money.
    They would then work with the recipients. They would be 
able to take applications that would help people apply for 
funds both within that pot of money dedicated specifically to 
the authority as well as beyond. And again, as I note in my 
remarks, homegrown solutions for regional problems and the 
money would flow from the authority as it does in the 
Appalachian Regional Commission.
    Senator Cochran. In your statement you talked about some of 
our specific transportation projects in this area that your 
Department is supporting. I-69 is something that we've all 
heard about and we expect benefits to flow to the Mississippi 
Delta from the completion of Interstate 69.
    Could you give us an update on where we are with that. I 
know there's a study being done.
    Mr. Eisenberg. Right.
    Senator Cochran. How far along is that?
    Mr. Eisenberg. The final supplemental EIS has been approved 
for the Great River Bridge portion near Rosedale, and we 
anticipate the record of decision will be approved very, very 
soon. As you know, under the corridors and borders program, a 
$10 million grant was approved last year for the States for 
location and environmental studies.
    We understand that the Mississippi Department of 
Transportation plans to use its portion of the grant which is a 
little over $900,000 to prepare an EIS for a section of I-69 
from US 61 relocated and State 304 interchange south of Memphis 
to the Great River Bridge near Rosedale.
    There are a number of other activities going on respective 
to different sections of that project. It is our hope that that 
regional authority would be the participant in bringing 
elements together to talk about the future of this very 
important facility and to gather the resources from the 
different States to promote that particular project.
    Senator Cochran. You also mentioned the four-laning of 
Highway 61. This is something that's been long awaited and 
seems like it will never be finished. What can you tell us 
about the effect that the Delta Regional Authority would have 
on completion of projects like four-laning Highway 61 and 
maintaining and improving our ports along the Mississippi 
River?
    Mr. Eisenberg. Well, the great bulk of the Department's 
money goes directly to the States with some pass-through to the 
so-called metropolitan planning organizations, the regional 
planning organizations.
    Of course, all money ultimately is local, but planning 
elements and the funding allocations go as I've indicated. Much 
of that money, if not, well, actually the overwhelming bulk of 
that money, you know, Mr. Chairman, this formula allocated. 
There are earmarks, of course, that Congress has produced for 
high priority projects and partners with that formula money.
    Having traveled US 61, I noted the particular way that a 
two-lane highway works to hold up traffic as it tries to get to 
where it needs to go. I certainly understand from firsthand 
experience the need for improvements along that facility.
    Of course, it involves more than just one State and the 
authority, of course, could focus attention, again, since all 
Governors will be together in that area, they could decide 
where the priorities are and using their State departments of 
transportation and their particular authorities in this regard 
to move things forward.
    A great bulk of that money does, as I say, come from 
allocations from the States; but we do have the authority for 
obvious responsibility to make decisions to where the money 
goes.
    But we're trying to give a little help here in our own 
budget with money directly allocated. This is not the usual 
process for the Department of Transportation, but we give such 
high priority to that particular facility and we are looking to 
assistance in that regard to talk specifically about I-69, 
again, and US 61, with regards to that.
    Senator Cochran. One thing you may not know is that under 
the new formula for allocating funds to States under the 
transportation bill, so-called T21----
    Mr. Eisenberg. Yes, sir.
    Senator Cochran (continuing). That supplanted the ISTEA 
bill. In the past 5 years if you compare the allocation that 
our State gets, we get $120 million more each year under the 
new bill than we got under the old allocation formula.
    And that took a little bit of work, but it's like the Title 
I funding challenge. The States are all competing for these 
funds and there's just so much money that's made available for 
these programs and they get allocated under formulas that are 
decided by Congress as Ms. Johnson pointed out.
    But I'm glad we'll have the administration's support on the 
Title I fight as we work our way through that bill as it 
proceeds through the Senate and the House. But we've already 
achieved one of our goals and that was to get a much higher 
allocation for our State under highway and transportation 
funding formulas--$120 million a year more for Mississippi than 
we got under the previous formulas.
    Mr. Eisenberg. That's a great achievement, and certainly 
the administration was supportive of the higher funding.
    Senator Cochran. We're glad the President signed the bill.
    Mr. Eisenberg. Yes, sir. Let me clarify the funding for 
additional laning of US 61 could be found again depending on 
how people want to allocate the funds, in the $23 million that 
is specifically requested for unspecified road and bridge 
projects in the Mississippi Delta area, the President's budget.
    So you've got money dedicated to I-69, the Great River 
Bridge, and $23 million additional allocated for these 
unspecified projects above and beyond the money that you have 
just indicated.
    Senator Cochran. You mentioned airport development and 
that's a very important challenge here in this region of our 
State, and we are pleased to have support from the 
administration on projects for funding for airport development 
in this area.
    Also, I mentioned ports. We had a delegation visiting 
Washington the other day who were pointing out the needs for 
funds through the Corp of Engineers for helping dredge certain 
ports, one at Greenville, the inner harbor.
    For example, we're trying to acquire funding for that, and 
we've already brought that to the attention of the head of the 
engineers, civil engineers, and we hope that the administration 
will cooperate with us on that as well.
    But these are all aspects of economic development because 
without these facilities to transport what we produce in our 
businesses and industries and on the farms of the Mississippi 
Delta, we can't do it efficiently without a transportation 
system. And that's how we compete with countries like Brazil 
and others that are enlarging their agricultural production and 
threatening the price stability by that production.
    They don't have the transportation facilities. If they ever 
develop them though, we're going to lose our competitive edge. 
And we'll be up against a very serious problem.
    Mr. Eisenberg. Mr. Chairman, I couldn't agree more with 
your statement. The Department of Transportation looks at the 
money, the programs that we have as enablers for larger 
purposes. Just getting from one place to another and moving 
around is not transportation.
    Transportation is the enabling of economic development, 
social and racial intergration, bringing people together across 
distances, providing for livable communities, places that 
people want to raise their children, want to work and live in. 
And that's what transportation is supposed to do.
    The economic development needs of this region are manifest. 
They're clear and extend to which the port development 
assistance that we can provide, additional road facilities, 
bridge facilities that literally bring places together.
    The rural transit kinds of activities that are so important 
for people who are isolated from health care and jobs. Transit 
within our larger communities so people can get to work in an 
environmentally friendly way, efficient way.
    These are all part of what we do and something that I'd 
like to address that you have addressed to others involving 
education. It's probably not well known. The Department of 
Transportation with very little amount of money is very much 
engaged in partnerships across the country, the transportation 
careers promotion with our high schools and universities.
    We find in this general area, particularly, we have a lot 
of young people that could find good jobs within the 
transportation and related industries such as distribution if, 
in fact, they had the skills and, in fact, were presented with 
the opportunities that were available, that are, in fact, 
available in these industries.
    Truck driving is one aspect. Trucking companies tell us 
they have a 100 percent turnover a year in some cases and 
they're offering $35,000 a year and $40,000 a year for jobs. 
They can't hold people.
    Senator Cochran. Don't get off into that too much because 
it reminds me that this administration is getting us off into a 
very serious quagmire with these high energy costs and trucking 
companies. Individuals who are in the business are having a 
hard time making a living now.
    We had a whole caravan of truckers come to Washington the 
other day to demonstrate their displeasure and policies of this 
administration on gasoline and diesel fuel prices. And that's 
hurting our farmers. It's hurting every aspect of our economy.
    So one thing you have to know, don't train too many truck 
drivers. There's not going to be any trucks to drive unless you 
do something about the energy problems.
    Mr. Eisenberg. We anticipate that this will be an issue 
that is more short term than structural.
    Senator Cochran. Well, we hope so. But just going around 
with a tin cup to the oil producing cartel saying please, give 
us a little more oil, that's what Secretary Richardson was 
doing recently, and they just said no.
    They've forgotten that we bailed them out in Kuwait and 
Saudi Arabia and now they're not helping us to solve our energy 
problems. It's really something that has to be addressed. Well, 
I know you're going to take this into consideration.
    Mr. Eisenberg. Well, I'm sorry I raised the topic, Mr. 
Chairman.
    Although the topic was education and was aimed at 
supporting your wise impression and call for additional 
educational opportunities, there are still opportunities for 
young people within the transportation industry that we want to 
promote on a national basis.
    And again, looping back to the subject of the hearing 
today, we really can't do this kind of a job as well with 
little money and little staff. The best kinds of promotions and 
transportation career development in many respects is high 
tech. People don't know that, but it is.
    Providing opportunities for young people here in this 
region really ought to take place at the lowest possible level, 
at universities like this one and others around the region who 
have interests and who have lots of people who would be 
interested, if presented with the opportunity and skills. And 
we would just like to make a pitch for that.
    Senator Cochran. Thank you very much. We appreciate your 
being here and participating in the hearing and all of you on 
this panel have added to our understanding of the Delta 
Regional Authority proposal and what it is designed to do, how 
it will mesh with other programs and initiatives for economic 
development for this region.
    Ms. Thompson, Ms. Johnson, Mr. Eisenberg, thank you very 
much.
    Ms. Thompson. Thank you.
    Ms. Johnson. Thank you.
    Mr. Eisenberg. Thank you.

                       NONDEPARTMENTAL WITNESSES

    Senator Cochran. We will now hear from our next panel of 
witnesses. We have with us today Dr. Lester Newman, who is 
President of Mississippi Valley State University; Dr. David 
Potter, President of Delta State University.
    Dr. Bobby Garvin was on our agenda to testify, who is 
President of Mississippi Delta Community College. He is not 
able to be here today, but he sent a good substitute, Dr. Tony 
Honeycutt, who will represent Mississippi Delta Community 
College.
    Mr. Arthur Peyton, who is interim director of the Mid-Delta 
Empowerment Zone Alliance, and Mr. Griffin Norquist, who is 
representing the Delta Council. He is specifically going to 
talk about the economic development department of the Delta 
Council.
    We appreciate very much your providing us copies of 
statements. We've decided to include all of the statements that 
have been prepared for the committee in the record as you have 
submitted them in full, and we encourage you to make whatever 
summary comments or other statements that you would care to or 
you may read your statement if you'd like. We appreciate you 
very much for being here.
    Let's start with our host, Dr. Newman. This is Mississippi 
Valley State's president. We thank you for hosting this event 
and ask you to please lead off with your statement.

STATEMENT OF DR. LESTER NEWMAN, PRESIDENT, MISSISSIPPI 
            VALLEY STATE UNIVERSITY

    Dr. Newman. Thank you, Mr. Chairman. Good morning. Thank 
you for the opportunity to discuss the role of Mississippi 
Valley State University and the role that Mississippi Valley 
State University has and will continue to play in addressing 
the needs of the citizens of the Mississippi Delta.
    Mississippi Valley is proud of its contribution to the 
development of the Mississippi Delta and highly expects to 
continue expanding its efforts in the future.
    There are three guiding principles that directs the 
university's community and economic development efforts. These 
guiding principles are, one, the development of human capital 
through education is the prerequisite through economic 
development.
    Two, collaboration with public and private entities and 
residents that's essential to sustain development; and three, 
with education being both a necessary and an essential 
condition of development, it is most important that 
institutions of higher learning be the anchor for broad based 
development as it relates to K through 12 for education, job 
readiness, entrepreneurship, et cetera.
    The presentation was developed based on the above 
principles. First, the presentation will highlight some of our 
past successes as well as our current activities. Finally, it 
would focus on future needs of the Mississippi Delta.
    If the Mississippi Delta is to move in the desired 
directions where citizens are afforded a quality education, 
have access to desired jobs, and have the opportunity to 
develop wealth through business development.
    Some of our past successes as well as current activities, 
as stated above, development of human capital through education 
is the prerequisite to human development. Teacher education is 
the core of Mississippi Valley's mission.
    In fact, we were founded as a teacher education 
institution. This year the university celebrates 50 years, its 
golden anniversary, of educating citizens of the Mississippi 
Delta and the State.
    To aid and enhance this effort, Mississippi Valley has 
received approximately $580,000 annually for the past several 
years from the USDA Cooperative State Research, Education, and 
Extension Services.
    We are very appreciative of these funds. And these funds 
have been used to, one, enhance Mississippi Valley's teacher 
education program and to address the K through 12 teacher 
shortage in the Mississippi Delta; and two, enhance Mississippi 
Valley's offices of admission and financial aid.
    Mississippi Valley's College of Education is working 
diligently to broaden, strengthen, and elevate its existing 
teacher education program into a model program. Our primary aim 
is to prepare students to become public school teachers in the 
Mississippi Delta.
    This is a primary concern of the university to address the 
K through 12 teacher shortage. The teacher shortage that has 
been experienced nationally is even more profound in the Delta.
    The USDA funds have helped Mississippi Valley to enhance 
its teacher education program with emphasis on teaching 
effectiveness and to recruit and produce more students in 
education.
    Over the past 3 years, the following data reflects students 
who have successfully completed the program and received 
degrees both a bachelor's degree or master's degree in 
education.
    In 1997, we produced 41 students who received an 
undergraduate degree in education and 10 students who received 
masters' degrees. In 1998, 53 students received undergraduate 
degrees and 11 students received masters' degrees. And in 1999, 
49 students received undergraduate degrees and 19 students 
received masters' degrees in education.
    In addition to serving the university and the community 
better, Mississippi Valley State University has established a 
partnership with the Delta schools superintendents to establish 
programs that will provide quality education not only for its 
students, but public school teachers and students as well.
    The mission of this partnership is to impact the teaching 
and learning process. Mississippi Valley faculty will work with 
the Delta public school teachers to prepare them to teach 
science and technology in a more creative way.
    More importantly, this partnership will allow students, 
faculty--faculty and students rather, to work collaboratively 
with area public school teachers and students to address 
critical education concerns and issues.
    Also, the USDA funds have been used to enhance the 
admissions office. The admissions recruitment office's role is 
to recruit students to the university. The admissions office is 
one of the viable, supportive segments of the university whose 
purposes are to, one, inform, recruit, and admit prospective 
students to the university; and two, in a positive way, display 
and promote the university's academic and nonacademic life.
    It is important that the admissions office be enhanced in 
order for the university to reach and educate more students in 
the Delta of the opportunities and benefits of receiving a 
college education.
    Many of the students continue to be first generation 
college students. Upon first encounter by the admissions 
counselors, too often many of these students do not believe 
that they have what it takes to go to college or to be 
successful in college.
    And as a result of our recruitment efforts, Mississippi 
Valley is experiencing a growth in enrollment. This spring our 
enrollment is more than 2,500 students, the highest in 16 
years.
    The large majority of these students come from within a 60-
mile radius of the campus and most stay in the Delta upon 
graduation. Mississippi Valley has set a goal for the 2000 fall 
term to increase its first time entering freshmen enrollment to 
500 students. This number constitutes approximately a 45 
percent increase compared to fall of 1999 term enrollment.
    The overall enrollment goal is set for 3,000 students by 
the fall of 2002. The office of student financial aid at 
Mississippi Valley State University provides financial aid for 
approximately 98 percent of the student body.
    In order for the university to successfully reach its 
enrollment goal, the financial aid office must be able to 
present a more automated and appealing presentation to 
potential students and to package financial aid more readily 
than ever before.
    Additionally, the office must be able to teach students 
about financial and personal management practices that will 
assist students in making sound decisions to help sustain them 
through their tenure in college.
    Another area that the university has emphasized and has 
shown great success is in the area of community and economic 
development. The university's Center for Economic Development 
provides technical assistance and business-related services to 
small business, entrepreneurs, agricultural-related businesses, 
small towns, and nonprofit organizations in 10 counties of the 
Mississippi Delta.
    This region makes up the heart of the Mississippi Delta. 
The rural population of over 180,000 is predominantly African-
American. The percentage of African-American population varies 
from county to county with an average of 63 percent.
    The university's Center for Economic Development has 
secured a 5-year grant for the Mid-Delta Empowerment Zone for 
the funding of the One-Stop Capital Shop. The purpose of this 
program is to expand the services of the Center for Economic 
Development by providing extensive small business resources and 
services under one roof.
    The One-Stop Capital Shop is a partnership agreement 
between Mississippi Valley State University, the Mid-Delta 
Empowerment Zone Alliance, and the Small Business 
Administration.
    Some of their accomplishments, the One-Stop Capital Shop, 
the only research office housed on a historically black college 
campus in the Nation provided clients with the latest business 
resources, guides, computer software programs, and access to 
the Internet.
    The One-Stop Capital Shop allows the university's Center 
for Economic Development's clients and other individuals an 
opportunity to receive technical assistance and services to 
develop a business project from start to finish.
    The Center for Economic Development and the One-Stop 
Capital Shop have served more than 250 clients within their 
targeted area. They have assisted small businesses and faith-
based organizations to secure more than $440,000 in loans for 
fiscal year 1999.
    We sponsored a small town mayors conference held in 
conjunction with the USDA Rural Development Office of 
Mississippi to provide technical assistance to town personnel 
with more than 100 participants attending the conference.
    We have established a partnership with the U.S. Department 
of Housing and Urban Development to rehab and build new houses 
for low income residents. And we've also hosted the First 
International Trade Conference for the Mississippi Delta 
Region.
    Future needs and directions, to help residents, local 
leaders, and elected officials with sustained community and 
economic development, Mississippi Valley State University has 
identified the following critical issues that need to be 
addressed.
    One, and foremost, is to continue to work to improve the K 
through 12 educational system in the Delta. A solution that we 
are offering is the establishment of a Center for Excellence in 
Teacher Education that will emphasize effective teaching 
practices that will ensure that all students learn, establish 
partnerships and linkages with the area public schools, and 
conduct and provide appropriate research that lends itself to 
establishing effective models and best practices for 
educational improvement.
    Two, to provide new and expanded opportunities for K 
through 12 and college students in the areas of science and 
technology. And we are proposing to establish a Center of 
Excellence in Science and Technology and one of the aspects of 
this will be a summer science academy for middle and high 
school students in the Delta region.
    Three, address the poor health care practices of the 
residents in the area, and our solution is to establish a 
health, wellness, and literacy initiative that will help to 
educate citizens regarding preventive health care and wellness 
issues.
    Four, expand on existing business and help to create new 
businesses in the region. We are working to establish a Center 
of Excellence in Business and Entrepreneurship which 
incorporates the existing programs at the institution as well 
as expand the efforts to provide a comprehensive approach for 
business retention and development.
    The center is expected to provide a set of educational 
services to include the integration of entrepreneurship skills 
and business development opportunities into the academic 
courses.
    Students will be encouraged and nurtured to create 
businesses of their own. The center will provide technical 
assistance and hands-on training for business persons. We'll 
also do market development and business forecasts as well as 
have community leaders, local officials, and others to identify 
profitable market niches.
    We're also proposing to establish the Delta Research and 
Cultural Institute. This center is to assist the residents, 
local leaders, and elected officials to capitalize upon the 
vast natural and cultural resources in the Delta.
    It is also designed, working collaboratively with 
individuals, agencies, and community leaders, to conduct 
research on educational and economic development issues in the 
Delta. This research will be different from much of the 
research currently conducted in that it will be prescriptive 
rather than descriptive.
    For too long people have come to the Delta and told us who 
we are and what our problems are without working with us to 
develop meaningful and sustained solutions. This institute 
proposes to remedy the problem by working with community 
leaders to identify problems, develop practical and workable 
plans, and implement and evaluate these plans.
    In summary, Mississippi Valley has a highly qualified 
faculty, staff, and administrators who are committed toward 
working together for a better and more prosperous Delta. Thank 
you.
    Senator Cochran. Thank you, Dr. Newman, for your excellent 
statement. Dr. Potter, let's turn to you. Dr. David Potter is 
President of Delta State University. Thank you for being here 
and participating in our hearing.

STATEMENT OF DR. DAVID POTTER, PRESIDENT, DELTA STATE 
            UNIVERSITY

    Dr. Potter. Thank you, Chairman Cochran. And I look forward 
to working with you and our other partners in sharing goals and 
the recent economic well-being of the Delta and improving the 
quality of life of all of its people.
    The mission assigned Delta State University by a board of 
trustees is that of a regional university. And that designation 
has implications for the university's educational, research, 
and public service programs.
    These obligations are especially significant for an 
institution striving to contribute to the future of the 
Mississippi Delta. The Delta's legacy of poverty generates many 
needs and provides opportunities for the university in 
virtually any direction we turn.
    Fortunately, the people of the Delta not only have the 
desire but the will and potential to lift themselves up given 
the encouragement and the resources to do so.
    I need not list all of the educational, social, and 
economic and health problems that exist in the Delta. The 
region has been studied to death, and you are familiar with the 
myriad of challenges facing its people.
    In May 1990, the lower Mississippi Delta developed a 
commission chaired by then Governor Bill Clinton issued its 
private report after a 2-year study. The report describes the 
region as it existed 10 years ago; and unfortunately, much of 
that description is still valid today.
    It states, that:

    * * * these are the people that by virtue of place are 
surrounded by thousands of square miles of some of the 
country's richest natural resources and physical assets. They 
have used their sense of place to develop a cultural and 
historical heritage which is rich and unique.
    And yet these are the people who by statistics constitute 
the poorest region of the United States of America for jobs are 
scarce and job skill training almost unknown. And mortality 
rates rival those of the third world, where dropping out of 
school and teenage pregnancy are commonplace, where capital for 
small farmers and small businesses are severely limited, where 
good housing and health care are unattainable for many.
    Industry and technology lags a decade behind and funds for 
research and development barely trickle to colleges and 
universities. Where illiteracy reigns as a supreme piece of 
irony since the region has produced some of the best writers 
and the worst readers in America.
    Even so, these are people who prefer hope to despair. This 
is a region that given the right tools and knowledge can help 
the Nation as a whole strike a new balance of competitiveness 
in the global economy. This is a land where the right actions 
can still bring a new day.

    At Delta State, we are making renewed determined actions to 
be a part of those right actions, and we think we have achieved 
some tangible and worthwhile results, especially in the arenas 
of education, rural development, cultural opportunities, and 
business development.
    All of these efforts are part of an evolving and 
comprehensive strategy to meet the unique constellation of 
needs of our region, yet we still have much to do before we can 
take full advantage of our Nation's unprecedented growth and 
prosperity.
    Let me share with you some examples of what we've 
accomplished with the limited Federal support we have received 
to date.
    In education, our Center for Teaching and Learning provides 
technology-related professional development for elementary and 
secondary school teachers and serves as a laboratory for young 
people thinking about entering the profession.
    During the next school year, we will provide technology 
training for 250 teachers using funds provided in part by the 
Federal Government. This program helps ensure that Delta school 
children will not fall further behind in having learning 
opportunities related to the revolutionary national and 
international development in information and communication 
technologies.
    Our Delta area association for the improvement of schools 
is a model partnership of school leaders commended by the 
National Counsel for the Accreditation of Teacher Education. 
The partnership serves 34 school districts and provides 
professional development activities for more than 1,400 
teachers and administrators in 1999 supported by a mix of 
Federal and State funding.
    The national faculty has established a regional office at 
Delta State. It provides special services and assistance to two 
Delta school districts.
    Working with the national faculty program, we are launching 
this summer a Superintendents' Academy to provide future school 
leaders with the most up-to-date knowledge of how to manage a 
successful school district.
    The Delta Education Initiative is our most ambitious 
cooperative effort with a Federal agency supported this year by 
$1.5 million from the U.S. Office of Education.
    It addresses critical teacher shortage and leadership 
development needs in this region to undergraduate scholarships 
for prospective teachers, graduate fellowships to pursue 
further study for working teachers, professional development 
for administrators, and technological training in use of 
technology for teaching and learning.
    In rural development, our efforts are concentrated in our 
Center for Community Development, established in 1994 through a 
$5 million grant from the W.K. Kellogg Foundation. The mission 
of this center is to build partnerships with communities and 
organizations to help themselves.
    The future program of the center is the Delta Partners 
Initiative. This is an initiative to train two cohorts of young 
Deltans to be the next generation of community leaders. It is 
focused on teaching these promising citizens an understanding 
of regional development and public policy issues, community 
development strategies and successful models, regional capacity 
building programs, and ways to increase literacy, and develop 
local human resources.
    The center also administers America Reads, Mississippi 
Delta Reads Partnership, and Mississippi Delta Service Corps 
programs all funded in total or in part by the Federal 
Government.
    In providing cultural opportunities, the university 
believes that exposure to and participation in the arts is a 
crucial determinate in the region's quality of life and 
educational achievements.
    Yet arts education is virtually unavailable in the Delta's 
public schools. The university has helped fill that void in its 
Center for the Performing Arts through matinee performances for 
school children of nationally known musicians, actors, and 
dancers, and to its State supported Summer Arts Institute.
    More than 8,000 elementary and secondary school students 
are exposed to and trained in the arts each year. Federal funds 
support this effort modestly through a small grant from the 
Mississippi Arts Commission.
    In business development, so crucial to the economic future 
of the region, support for small businesses is essential. Small 
businesses comprise most of the Delta's economy, and they are 
in great need of services in such critical areas as incubator 
programs, technical assistance, capital development, and 
counseling services.
    Our efforts to date are concentrated in our Small Business 
Development Center where we bring together the human resources 
of our College of Business faculty to assist small business 
owners. The center annually helps to create 150 new jobs, to 
retain 350 existing jobs, and to facilitate $6 million of 
capital investment, while serving about 300 clients per year.
    These efforts, again, are supported by modest Federal funds 
sufficient only to stimulate a small proportion of the business 
activity needed for a thriving economy.
    Our university is relatively new to Federal funding. We 
intend to pursue these resources with intensity in the future 
in support of this region. We believe that we are prepared to 
be good stewards of Federal monies for the Delta.
    We have received tangible results with our modest past 
efforts. We have a capable and energetic faculty with a deep 
knowledge of the Delta and its people based on firsthand 
relationships and commitments.
    We have a strong reputation within our local community and 
a network of partners in the cause of development.
    Our local understanding and longstanding ties to the region 
make Delta State and its sister institution, Mississippi 
Valley, the most effective conduit for Federal monies to 
improve the quality of life in this region.
    We can, and do use, these funds directly and effectively. 
We have a record, as well of leveraging additional private, 
State, and foundation support, that multiplies the impact of 
Federal funds. We are, in sum, an excellent investment in the 
Delta's future.
    Thank you again for this opportunity to discuss our goals. 
I'll be pleased to answer any questions.
    Senator Cochran. Thank you, Dr. Potter for your helpful 
statement. Now, we'll hear from Dr. Tony Honeycutt, who is 
representing Dr. Bobby Garvin, President of Mississippi Delta 
Community College. Dr. Honeycutt.

STATEMENT OF DR. TONY HONEYCUTT, DEAN OF CAREER AND 
            WORKFORCE DEVELOPMENT, MISSISSIPPI DELTA 
            COMMUNITY COLLEGE

    Mr. Honeycutt. Again, Mr. Chairman, on behalf of Dr. 
Garvin, thank you for your presence here today and for your 
work in support of the Delta region.
    The Mississippi Delta area lagged behind in this State and 
in the Nation in many areas. This has already been pointed out. 
We feel that education and training, work force training, is 
the key to the economic vitality of the Delta and to its 
sustained economic growth.
    We have continued over the last several years to 
continually increase our enrollment. Our enrollment has grown 
approximately 7 to 9 percent per year during that period of 
time.
    Our current enrollment for full-time students is 2,700 here 
in the spring semester of 2000. It is important to point out 
that over the last 3 years we have had 534 students request 
student housing on our campus that we were not able to supply 
because of a lack of dormitory space.
    Through our work force training efforts last year 
Mississippi Delta Community College conducted training 
activities that involved 9,568 employees of 117 businesses 
within the Delta region and our district.
    Although we feel that this is a significant number of 
individuals and companies, we point out that this represents 
approximately 30 percent of the businesses that are in our 
district.
    We feel that we need to be able to enhance and expand our 
existing work force training efforts and that through those 
efforts we would be able to build the work force of the Delta.
    Other programs that we currently are running in support of 
the Delta programs, Delta counties, the Law Enforcement Academy 
is in its second year of operation. We have so far graduated 
approximately 150 certified law enforcement individuals who are 
now working within the municipalities of the Mississippi Delta.
    We believe that the sustained growth of our work force 
training efforts are based upon and depend upon public and 
private partnerships throughout the region.
    Partnerships so far have resulted in the development of a 
new, state-of-the-art training facility that was currently 
under construction in Indianola, Mississippi.
    This state-of-the-art training facility, 31,000 square foot 
facility, received a major portion of its funding from the Mid-
Delta Empowerment Zone Alliance in the amount of $4 million.
    Other funding has come from private sources. Individual 
companies within the district have supplied funds and equipment 
for that facility and also the State Department of Economic 
Community Development has paid a portion of the costs for that 
facility.
    Again, we strongly emphasize the use of public and private 
partnerships. We feel these are very effective. We feel that 
the business industry communities are the ones that really 
realize what skills their employees need; and in working with 
them, it helps us to determine the types of training programs 
that we need to better the work force.
    A large part of the new training facility that is being 
constructed in Indianola would be an assessment and job 
profiling component. The assessment of the available skills of 
the work force in this area, an evaluation of those skills, and 
job profiling in the business industry sector to determine the 
types of skill that the business industry requires.
    The gaps between the available skills and the skills that 
are required will target our training that will be conducted 
with this center and throughout our Delta region.
    We feel that there is a significant need for an expansion 
of these programs, of training programs, for the work force 
throughout the Delta and not only in the number of the training 
programs but also in the scope of these training programs.
    We are currently running training programs that are from 
the basic skills from adult basic education up to supervisory 
and management training, manufacturing techniques, other 
techniques that the business industries are bringing into the 
Delta area in order to prepare their work force.
    Although my remarks here today have been brief, I would 
like to also submit a written report to be entered into the 
record. And in conclusion, I'd certainly again like to thank 
you for your support of this region.
    Senator Cochran. Thank you, Dr. Honeycutt, and the written 
report will be accepted and printed in the record.
    [The statement follows:]

              Prepared Statement of Dr. Tony L. Honeycutt

    First let me thank you, Mr. Chairman, for your interest in the 
Delta region of our state and for your support of Mississippi Delta 
Community College. I appreciate the opportunity to share with this 
committee some of the activities we are currently involved in as we 
partner with other institutions throughout the region to provide the 
educational and training programs required by the new economy of the 
Delta.
    As you know, unprecedented changes are occurring in the way we 
conduct of our lives today. The economy of the Delta is experiencing 
renewed strength and growth and sustaining this growth requires that we 
focus on the future. A well trained, technology literate workforce is 
the key ingredient for continued economic growth and development.
    Mississippi Delta Community College (MDCC) by virtue of its 
mission, location, and rich program of curriculum offerings, is 
committed to being a significant player in this renaissance.
    MDCC's over 200 full-time professionals, plus numerous part-time 
personnel, are willing to open their minds and doors to help students 
achieve their educational goals. Our staff takes pride in the college 
as well as a personal interest in each of its student. These 
professionals are dedicated to their careers and to the success of our 
students.
    Enrollment at MDCC has steadily increased over the past seven years 
reaching an all time high of over 2,700 credit students in the fall of 
1999. These increases have resulted in considerable strain on our 
existing infrastructure. Requests for dorm rooms have outpaced the 
number of available rooms. Over the last two years, 534 students have 
not been able to live on campus due to a lack of dorm space. Since 
transportation remains a major barrier to educational access, this puts 
these students at a disadvantage and could mean that they will not be 
able to reach their educational and/or training goals.
    The addition of new programs of study such as our Law Enforcement 
Academy and the Dental Hygiene Technology has improved the Delta's 
resources in the areas of health and safety. These and other programs 
offered by the college have a significant impact on the overall economy 
of the Delta and the State of Mississippi.
    Historically, the Delta region found its wealth in its natural 
resources such as: rich soil, abundant water, and agricultural crops. 
The Delta added jobs by being a source of low wages and low-skilled 
workers. Education and training were nothing but a cost, a burden to 
the taxpayer. This old equation is reversing, in the Delta, the state, 
and the nation. Natural resources are less important. Jobs for low-
skilled workers are disappearing even as pay for these jobs drop. The 
emerging economy is not seeking the kinds of workers the Delta has 
traditionally supplied. The new ``knowledge based'' economy builds 
wealth on what people know, not just what they can coax out of the 
ground.
    Agriculture remains an economic juggernaut in the lower Mississippi 
Delta region. This region has traditionally been one of America's most 
prolific producers of cotton, rice, soybeans, and other major 
agricultural products. In the decade of the 90's, agricultural 
producers have faced one of the most severe depressions in American 
history but there is hope. Recent developments in plant pathology and 
availability of advanced technologies such as remote sensing, global 
positioning systems (GPS) and geographic information systems (GIS) have 
the potential to greatly improve agricultural productivity and enhance 
crop yields. The rapid application of science and information 
technology have dramatically changed the way producers, including 
farmers, bring their products to the marketplace. However, farmers 
remain reluctant to invest heavily in ``advanced technologies'' without 
the assurance of a steady stream of highly qualified, technically 
proficient workers capable of utilizing the technology to make 
decisions.
    Mississippi Delta Community College in collaboration with private 
industry leaders, Mississippi State University, NASA, and the Delta 
Research and Extension Center propose to develop and implement a 
curriculum in Spatial Information Systems (SIS). This curriculum will 
lead to an Associate Degree in Spatially Variable Agricultural 
Production (SVAP), better known to some as Precision Farming. Through 
input from existing ATE programs, and training partners established, 
the curriculum will be developed around both short and long term 
industry needs for an Advanced Agricultural Specialist (AAS). This 
program will develop the students' basic competencies, workplace 
values, and technological awareness through faculty/instructor 
enhancement internships, practical classroom experiences, student 
internships, and articulation of curricula from two to four year 
levels. Programs such as this will help move the Delta from the old 
economy to the new economy.
    The old economy of the 40's and 50's with its backbreaking work, 
tenant farming and rampant child labor positioned the Delta as the 
poorest region of the poorest state in the nation. The Delta was and 
remains today the poorest of the poor. But all is not lost; the Delta 
has begun to loosen the chains of its traditional poverty. Deltans have 
never been better educated, in number or degree, than they are today. 
Although this is good, it is not good enough. As the Delta has climbed 
to a higher rung on the educational ladder, the ladder has gotten 
higher. The rungs on the ladder that students, parents, and schools 
once considered final destinations are now only milestones on a life-
long educational journey in the knowledge-based economy.
    After years of struggling with fragmented training programs, 
Mississippi recognized that the solution to training deficiencies lies 
in ``partnerships,'' involving employers, community colleges, secondary 
schools, universities, economic development agencies, and other 
institutions. With the passage of the Workforce and Education Act of 
1994, Mississippi began the development of strong partnerships and 
began implementing a training system that places the community colleges 
at the center of this ``customer-driven'' delivery system. The 
Workforce Investment Act passed by the U.S. Congress and signed by 
President Clinton in 1998 further validates Mississippi's decision to 
consolidate workforce-training programs into a one-stop delivery system 
with community colleges at its center. Realizing that consolidation of 
the state's workforce training efforts is the number one priority for 
long range economic growth and development, the Mississippi legislature 
passed SB 2796 (The Mississippi Comprehensive Workforce Training and 
Education Consolidation Act) during the 1999 session. Although the 
legislation did not accomplish all that many businesses and educators 
wanted, SB 2796 did stay the course toward a unified educational/
training system for the state's workforce.
    Legislation without strong public-private partnerships is not the 
answer. The educational, legislative, community and business leadership 
of the Delta realizes that the Delta has unique problems and that 
unique measures are needed. Measures to overcome these problems must be 
identified, implemented, and updated as needed. The demand for better 
and faster training is increasing faster that our delivery systems will 
be able to accommodate. In order to provide training that will not only 
sustain the Delta's economy but also propel it into the new millenium, 
educational institutions must retrofit their delivery systems to meet 
the demands of employers and employees (incumbent and future) alike.
    Far too many Deltans remain too distant, geographically and 
educationally, from jobs that would move them into a higher standard of 
living. Demographic trends and inadequate education continues to 
threaten the Delta's march to prosperity in an economy that 
increasingly discriminates against the uneducated and undereducated. 
Just having the programs that other areas of the state and region have 
is not enough, because as long as we keep training the way we have in 
the past, we will keep getting the same results from our educational/
training programs. In other words, we must reevaluate our training 
programs in light of recent advances in technology, manufacturing 
processes, and modern business practices. MDCC took a proactive stance 
seven years ago with its workforce training programs through the 
creation of the Center for Career & Workforce Development but future 
success depends on continuous input and support from the business 
community. Input on the types of training that is required and support 
(financial and other) that turns the training plan into a trained 
workforce.
    During fiscal year 1998-99, MDCC's Career & Workforce Division 
conducted training and other activities for 9,658 participants from 117 
businesses in our seven county service delivery area. As significant as 
these numbers appear, it is important to realize that this only 
represents approximately 30 percent of employers and employees in the 
district. More efficient and effective educational/training programs 
are needed if the region is going to reach its potential.
    Wayne Gretsky, the greatest hockey player ever to play the game, 
said ``you do not become a great player by going to where the puck is, 
you become a great player by going to where the puck is going to be.'' 
It is not easy to predict the future and it is not easy to determine 
the types of training programs that will be required in the future but 
it is not impossible. We do know what we need to do in order to develop 
the training programs for current and future workers. Input from 
employers and employees must be gathered and analyzed to determine the 
skills that will be required of the future worker. Training programs 
must be designed, implemented, evaluated, and revised as required 
skills change. It is important to note that this must be a continuous 
process else we will constantly be training for yesterday's jobs. We 
can no longer afford training programs that prepare individuals for 
jobs that no longer exist or those that do not prepare individuals for 
jobs beyond the entry level. Businesses operating in a ``lean'' 
environment are partnering with MDCC's Center for Career & Workforce 
Development to ensure a steady stream of skilled employees. Relevant, 
flexible, and learner-centered education and training programs are 
being implemented to prepare our citizens and our companies to 
participate in the new economy. Although this process is not a simple 
one, we have already seen that it will work.
    Two recent events highlight what can be accomplished when public-
private partnerships are allowed to work. Community leaders, 
legislators, educators, and business leaders working together developed 
a plan to establish a regional state-of-the-art training facility at 
Mississippi Delta Community College. The newest component of MDCC's 
workforce training efforts, the Delta Center, was developed with input 
from current and potential customers and partners of the college and 
has since received $4 million in construction funding from the Mid 
Delta Empowerment Zone Alliance. Other contributions include $250,000 
from the Department of Economic and Community Development, Dollar 
General Corporation donated 10 acres of land valued at $140,000, Viking 
Range Corporation donated all the kitchen equipment, U. S. Axminster 
donated the carpet, and other corporate partners have indicated a 
willingness to donate equipment to be used for training. The Delta 
Center will be unlike any other training center in the state in scope 
and delivery. Customized training programs designed to provide upgraded 
skills, delivered at times convenient to the companies and employees is 
the college's goal for this facility. The Delta Center, which will 
operate as a component of the Center for Career & Workforce Development 
at MDCC, is currently under construction and is scheduled for 
completion in December 2000. We hope to receive additional funding 
through an EDA grant from the Department of Commerce and a RBEG grant 
from the Department of Agriculture to equip and furnish this very 
important training facility.
    Another recent event dealing with workforce training also points 
out that the Delta has the desire and ability to bring people together 
to mold solutions for its problems. While other groups were trying to 
decide how to divide the state, the boards of supervisors of fourteen 
Delta and part Delta counties formed a coalition that resulted in that 
group being designated as the state's first service delivery area under 
the Workforce Investment Act of 1998. The Delta Council spearheaded 
efforts to ensure that the Delta's interest were paramount in this 
process. This designation ensures that the Delta will decide what types 
of training programs it needs and how best to deliver these programs.
    The Delta will reach its potential for growth and development of 
the human component of economic development only if we all pull 
together. Yes, we have barriers to overcome but these barriers are not 
insurmountable. We do not need to fix the blame or point fingers at 
others for our lack of a highly skilled workforce. We are all in the 
same boat, we call the Delta, and if one end of the boat springs a 
leak, we all get wet. A highly skilled, flexible, technically literate 
workforce is the major component of economic development and it is in 
everyone's best interest to support the Delta's economic advancement 
through the development of its human capital.

    Senator Cochran. We will now hear from Mr. Arthur Peyton, 
who is the interim director of Mid-Delta Empowerment Zone 
Alliance.

STATEMENT OF ARTHUR PEYTON, INTERIM DIRECTOR, MID-DELTA 
            EMPOWERMENT ZONE ALLIANCE

    Mr. Peyton. Senator Cochran, and to those of you here 
today, I'd like to ensure you that I'm more than gratefully 
delighted for the opportunity to testify.
    I would like to say to you initially that I've sent a 
detailed and comprehensive report to your office already 
concerning the Mid-Delta Empowerment Zone. And I wrote one 
piece of paper to you, but it talked too much about me, so I 
elected to be precise when I looked at your press release that 
came out and really address it to some extent and say to you 
that I'm certainly happy to have you here on this campus.
    What I really wanted to say to you, the Agriculture and 
Rural Development and Related Agencies, is that the Mississippi 
Empowerment Zone certainly is in great agreement with you being 
here and we strongly support and applaud the President of the 
United States and the administrative division in the position 
of appropriating $153 million for the creation of the new Delta 
Regional Authority.
    Senator Cochran, I can testify that there is a need in the 
Mississippi Delta for additional funds in order to meet the 
needs of the people of the Delta. I think that Mississippi 
universities, the Union College, and others who are part of 
this certainly would be the individuals that could come in and 
help out a great deal in trying to bring to fruition the kinds 
of things that this area needs.
    I firmly believe that the President of the United States, 
the Congress, and the leadership in Washington should provide 
the rules to oversee these projects. And furthermore, our 
local, State, and business communities should be equal partners 
in this initiative.
    Now, when you consider the distribution of monies, that's 
what I like to talk about, money. Majority of the needed funds 
should go to needy families, those who are in very low income 
areas of Mississippi. Only limited funds should be provided to 
people already in excess of $60,000 in salary.
    This includes the college people as well. I feel very 
strongly that in the Mississippi Delta there has been too much 
double-dipping with funds that have been made available.
    People who are working 8 hours getting a fat-cat salary and 
then, yet at the same time, they're getting this Federal money 
and making $180,000.
    I would further recommend that the executive branch, the 
legislative branch, and the judicial branch of the Government 
should work together to make sure that whatever monies are 
appropriated that it's spent properly.
    It is vitally important that the people who are involved in 
any way in administrating these different programs, they should 
be properly informed. The central administration should be able 
to see to it that they do not suffer what we have suffered at 
the Mid-Delta Empowerment Zone.
    We failed initially to put people in place; and as a 
result, we had 4 years of a real tragedy. But once we realized 
we made a mistake, we've been able to go back and put in place 
and create the kinds of programs that are essential for the 
ongoing growth of this community.
    Today I'm happy to report that the Economic Development 
Division has leveraged $34,476,920.87.
    The Housing Division has leveraged $4,393,073.50.
    And in our General Division, we have leveraged 
$11,691,760.94.
    Now, I made all them mistakes because I can't deal with all 
this big money.
    But I would like to say to you that we have been able to 
create at least 956 new jobs in the Mississippi Delta.
    Now, as you know, I've sent to your office a copy of this 
rough report and I've also included in that report the most 
significant accomplishments. And then too, at the same time, 
I've sent you the same report that I sent to the United States 
Department of Agriculture's office about the success and the 
failures of the Mid-Delta Empowerment Zone.
    I congratulate you and I congratulate your staff and I hope 
that you will continue to do the kinds of things that you are 
doing as a Senator.
    I was so happy to see you over in Greenville when you were 
talking about Highway 69. And somebody approached you and told 
you very vividly that that was a Republican highway. And you 
said to them, that that highway is for the people.
    Senator Cochran. That's right.
    Mr. Peyton. And I never will forget that. Let me say this, 
what we'd like to do is invite you and people from your 
department to come back to us. We are going to have what is 
called a mid-term, a midday, or a mid-something for the 
empowerment zone.
    And what we want to do is have all of the communities that 
were historically involved, the representatives from 
Washington, the representatives from the State, and all of our 
local people to come back and look at the 5 years that we spent 
trying to do what was good and yet at the same time find the 
direction that we would like to go in the future.
    I want to remind everybody here, the only thing that works 
is work. Martin Luther King said it better than anybody else. 
Fleece and locks and black complexions cannot fault with 
nature's claim, it must differ with affection that dwells in 
black and white the same. If I was so tall as to reach the 
poles of wrath upon which I stand, I must be measured by my 
soul. The mind, the mind, is a standard of a man. Thank you 
very much.
    Senator Cochran. Thank you, Mr. Peyton. We appreciate your 
participation in the hearing and your statement for our 
committee. We'll now hear from Mr. Griffin Norquist, who is 
representing the Delta Council Development Department. Mr. 
Norquist.

STATEMENT OF GRIFFIN NORQUIST, CHAIRMAN, ECONOMIC 
            DEVELOPMENT DEPARTMENT, THE DELTA COUNCIL

    Mr. Norquist. Thank you, Mr. Chairman. My name is Griffin 
Norquist. I am a native of the Mississippi Delta and Chairman 
of the Board and President of the Bank of Yazoo City, as well 
as, Chairman of the Economic Development Department of the 
Delta Council.
    As a fifth generation Deltan, I believe it is fair to say 
that we have a strong interest in the future of the region. 
Today I would like to briefly address both the general status 
of our regional economic development activities, as well as, 
specific areas that have been impacted by Federal action or 
lack there of.
    While the Mississippi Delta is far from achieving its 
vision of economic heritage with the rest of the Nation, we are 
making some significant progress. In the last 3 years alone the 
18 Delta incorporated counties of Mississippi have had 42 new 
industries located in the region with over 260 companies 
constructing significant expansions.
    This has resulted in over 7,000 new jobs and over a half 
billion dollars in new investments. The capital income for the 
region is gaining on State and national averages and 
unemployment is continuing to decline. For the first time in 
history, manufacturing wages in these Delta counties have 
surpassed the $1 billion mark.
    This progress has not been accidental nor will it reverse. 
It is based upon strong working partnerships led by local 
leadership and relying upon the continuing assistance of 
numerous State and Federal agencies that have direct experience 
in successful rural economic and community development.
    The USDA Rural Development has provided tremendous 
assistance through programs such as the rural business 
enterprise grants, business and industry loan guarantees, and 
critical funding for rural water and sewer projects.
    Our universities and community colleges have long provided 
critical assistance in terms of job training of small business 
assistance and curriculum development. And local economic 
development agencies are for the first time in history working 
together to attract companies that will increase well in our 
entire region. We would hate to see these locally driven 
initiatives disrupted or superceded with new and potentially 
less responsive bureaucracy.
    There are a few specific issues I would like to address at 
this point while noting that more detailed comments are 
attached for the committee's official record. No area can 
prosper without adequate transportation resources.
    In addition to other highway programs, Mississippi is 
taking great strides in opening up the US 82 corridor and will 
soon complete this important four-lane project across the 
entire State.
    This highway crosses the Mississippi River near Greenville 
and will eventually provide four lane access from the Alabama 
and Mississippi State line in east Mississippi directly to 
Little Rock, Arkansas.
    The Greenville Bridge over the Mississippi River has been 
classified as a navigational hazard by the United States Coast 
Guard and is authorized for replacement.
    The fiscal year 2000 budget included $9 million in critical 
funding to finalize all preconstruction activities. This 
funding was subsequently eliminated by the Department of 
Transportation and the Federal Highway Administration. We 
believe that this high priority replacement of a documented 
navigational hazard is critical to maximizing the economic 
benefit of our highway infrastructure.
    At the same time, we applaud the continuing development of 
the I-69 corridor and believe it will do much to enhance the 
economy of the area. Recognizing the importance of our 
historically black colleges and universities, we would like to 
express our support for increased funding for Mississippi 
Valley State University for the purpose of strengthening 
curriculum and management at the university.
    This funding, which was not included in the 
administration's budget, is essential to stabilizing growth 
plans for Mississippi Valley State University. Delta State 
University has embarked upon an initiative partnership with 
Delta Council and 34 Delta school districts which will train 
new school administrators, increase the number of new teachers 
to alleviate our critical shortage, and enhance the overall 
quality of K through 12 education.
    We believe that this $1.5 million allocation should be 
restored and expanded. Local institutions are best suited to 
deliver positive results for the future of educational needs in 
the Delta. And we urge the Congress and the administration to 
emphasize these efforts rather than starting new projects 
altogether.
    Perhaps the single most important element of economic 
development in the Mississippi Delta is that of job readiness 
and skills enhancement training. In terms of upgrading our 
employment and attracting new investment, the community 
colleges in our area have been a crucial factor in recent 
success.
    Unfortunately, at the very moment that we are on the brink 
of success, budget constraints may force institutions like 
Coahoma Community College in Clarksdale and Mississippi Delta 
in Moorhead to lay off training personnel.
    Mississippi Delta has struggled to obtain funding for a 
state-of-the-art training facility in Indianola and is 
continuing to seek avenues to fund equipment and increase 
staff. Working with USDA and the Department of Commerce, we 
hope to be able to fully utilize these increased capabilities.
    Once again, we need for the Congress and the administration 
to strengthen these established and existing delivery systems 
before moving the emphasis to more decentralized systems.
    Lastly, I would like to take a moment to thank the 
committees for supporting what is possibly the single most cost 
effective economic development program in the country. For a 
number of years, the committee has supported a modest but 
crucial program called the Delta Rural Revitalization Problem 
or Delta Project.
    It's managed jointly by Mississippi State University and 
the Development Department of Delta Council. This appropriation 
has provided massive productivity improvement training for 
companies such as Viking Range, La-Z-Boy, and Urban Industries.
    As a result of this initiative work, Viking has expanded 
five times and now is recognized as the leader in quality and 
product flexibility.
    Even more importantly, these funds have led to the creation 
of the Delta Data Center. The Delta Data Center is staffed by 
one person and operates on the premise that in the field of 
economic development accurate data and timely response equals 
success.
    This operation has been instrumental in providing real-time 
data resulting in the location of companies like Dollar 
General, rural vendors, and numerous others in our Delta.
    In addition, the center provides fast accurate information 
to public and private partners resulting in new water and sewer 
systems, work force training grants, public infrastructure, and 
economic development marketing analysis.
    It can easily be shown that the center has been 
instrumental in creating over 1,000 jobs and hundreds of 
millions in new investments.
    At some point in the future we will be delighted to give 
the committee a brief tour of the center and show the 
staggering results of this Federal investment.
    In conclusion, I would like to reemphasize our thanks to 
the committee and our unwaivering support for the many partners 
seeking to bring prosperity to the true Delta region.
    We sincerely hope that any effort by the Congress and the 
administration to bring a higher degree of emphasis to the 
needs of our Delta region will use our existing and proven 
public sector institutions such as, Mississippi Valley State 
University, Delta State University, Coahoma Community College, 
Mississippi Delta Community College, and the Mississippi 
Department of Transportation as a primary delivery mechanism 
for our growth. Thank you.
    Senator Cochran. Thank you very much, Mr. Norquist. One of 
the things that we haven't heard much discussion about today is 
probably the biggest industry in the Delta and the source of 
most of the jobs in the Delta, although the $1 billion payroll 
from manufacturing jobs are very impressive, but that's 
agriculture and those businesses that are related to 
agriculture.
    I know that we shouldn't overlook this major source of jobs 
and funds and opportunities for the people who continue to live 
and work here in the Mississippi Delta. Is there something that 
we need to take back with us to Washington, like don't forget 
the farmer or don't forget agriculture in all of this? Mr. 
Norquist, you're probably situated to answer that question as 
well as anybody.
    Mr. Norquist. I would ask that you go back and ask them to 
pray for us more than anything.
    I would say that, Senator, had it not personally been for 
you last year and what you did at the end of the session to 
provide emergency help, I have no idea what would have happened 
to us. We all appreciate what you did.
    Our problem now is in the pricing, the increase of the fuel 
costs is just absolutely going to ruin some of them. There's 
just no way they can continue under the cost. And we also are 
seeing for the first time, I think, and this is something that 
the universities can be very helpful with, we're starting to 
see the despair in their eyes for the first time.
    It's one thing since 1995 when we had a crop disaster based 
on some specific insect. It's another thing that the prices of 
all of our crops do not allow us to make any money that's 
reasonable. We have to have some help and it has to be a long, 
continuing help. It cannot be something that allows the farmer 
from year to year to struggle with the winds the way they are 
blowing.
    Senator Cochran. There are some programs that are designed 
to help support lending to those involved in agriculture, 
guaranteed loan programs from the Department of Agriculture. 
Would you suggest that we need to be aware of the importance of 
those and to support those? Could you get along with making 
direct lending from banks or other private sector sources 
without the Government programs?
    Mr. Norquist. If it were not for the Government programs of 
the special FSA Guaranteed Loan Program, and if you along with 
our Congressmen, had not expanded that program to get the 
dollar amount up to a higher level--the pressure now though is 
the cash flowing of those needs and we must have some 
relaxation from the USDA on those programs to allow the cash 
flowing needs when we do have low crop prices as we do at this 
point.
    Senator Cochran. Related to efficiency in agriculture is 
coming up with new technologies and doing the necessary 
research to improve efficiencies in agriculture. Here in the 
Delta we have some important research facilities not only at 
colleges and universities, but we're laboratory based, research 
laboratory, research is being done, but also Agriculture 
Research Service facilities at Stoneville and Mississippi State 
University's supported facilities are in the Delta too. How 
important is that activity?
    We do have some high quality jobs. Scientists are located 
in the Delta. Many who work at these facilities to support them 
earn good salaries. Can I take back to Washington that these 
are needed and we need to continue to invest funds through the 
Federal budget in these activities in the Mississippi Delta? 
Mr. Norquist, I'll let you answer that, too, then I want 
everybody to respond to that.
    Mr. Norquist. I've never been between this many doctors 
without a physical exam.
    A specific example of what you're talking about, is if had 
it not been for research at Stoneville in biogenetics after the 
1995 cotton crop where the big army worm tore it to shreds and 
we were able to come up with the genetic alternate so that the 
crop does not have to take the amount of pesticides it was 
costing them, that simply right there saved cotton farming in 
our area of the State primarily, and it's because of the work 
they had done.
    The only way we can compete, and we're going against 
foreign countries that subsidize their farmers dramatically, is 
to have the proper research and the best place to have it is 
here in the Delta where it is, where we do the job and do it 
constantly.
    Senator Cochran. Dr. Newman, I think I'm going to ask you 
the same question in terms of the importance of the 
biosciences. It's one of those areas that was identified in 
that meeting I attended yesterday at Jackson State University. 
Business and community leaders are trying to decide what our 
goals ought to be and what the strategies should be to achieve 
those goals, and that was one of the targeted areas of business 
activity and development activity that we could concentrate on 
in Mississippi and was a great advantage. Do you agree with 
that?
    Dr. Newman. I most certainly do, Mr. Chairman. It's 
important that universities engage in research that can be 
utilized by not only farmers, but also other entities in the 
Delta. For example, Mississippi Valley is working with the 
Agricultural Research Service in Stoneville now to develop a 
program of bioinformatics which is an emerging field that we're 
told that will create more jobs in science and technology in 
the next few years than many other fields, most other fields.
    We feel that we have to play that role as an institution to 
be on the cutting edge not only providing the research, but 
also working with persons in the community to be able to take 
that research into the community that can be utilized and 
develop into various businesses and markets that will allow the 
Delta to grow and expand.
    So research is the avenue that will allow us to connect the 
theory with the practice that will move the community forward 
in terms of the kinds of development, new developments that 
will create new markets and jobs within the community.
    Senator Cochran. Dr. Honeycutt, do you have programs at 
Mississippi Delta Community College that are directly related 
to agriculture jobs and job training, and if so, are they 
supported in any way by Federal funds or the Department of 
Agriculture?
    Dr. Honeycutt. Yes, sir. We have agricultural technology 
programs that operate through our regular vocational technical 
programs and also some academic programs that are transferable 
on to the senior universities.
    We are currently working in partnership with Mississippi 
State University, the research center at Stoneville, NASA, and 
private sector individuals to develop a 2-year degree program 
that we hope will be funded shortly by the National Science 
Foundation to develop a 2-year associate's degree program in 
precision agriculture which would be using geospatial 
information and remote sensing technologies that are available 
through NASA currently and how that would be incorporated to 
make farming and agriculture more efficient in the Delta.
    It is being tried in other areas of the country, we 
understand, but the soil makeup and so on of the Delta and the 
farming techniques of the Delta are different. And we're 
working with Mississippi State and others, as I said, to 
develop those types of programs now. And like I said, 
hopefully, we will receive funding shortly for this degree 
program. We've had very good responses from our inquiries about 
it so far.
    Senator Cochran. I congratulate you on your involvement in 
that and wish you well in your quest for those funds. We'll 
prepare to help you in any way we possibly can to help you----
    Dr. Honeycutt. We'll appreciate it.
    Senator Cochran (continuing). At the Washington level to 
support that. Mr. Peyton.
    Mr. Peyton. It's quite interesting that Mid-Delta has been 
called upon by NASA in this State to kind of assist them in 
some ways to perhaps get Valley State, I understand here in 
Greenwood, there's a program being conducted. And what they 
need is young people to be trained and we haven't had a chance 
to talk to Dr. Newman about it, but we hope to do that in the 
very near future.
    But it seems to be exciting the kinds of things they tell 
me they can do from way up there, from way down here is 
unbelievable.
    We're looking forward to working with them in that regard.
    Senator Cochran. You probably heard Dr. Newman talk about 
the summer training program initiative to get respective 
students to come to the campus and talk about the possibilities 
for technology training or science.
    Dr. Newman. Science and technology.
    Senator Cochran. Science and technology training, that 
sounds like a good program. Could you help recruit students for 
this or pass the word that this is a new addition? We have the 
summer sports program. We have Federal funds that we try to 
make available every year so that young students can come to 
the campus and participate in that. That's been a successful 
program in the past.
    Dr. Newman. Yes, sir.
    Senator Cochran. And I expect you'll gladly continue that 
if you get the Federal funding for it.
    Dr. Newman. Yes.
    Mr. Peyton. We certainly welcomed that idea. Forty-five 
years in the teaching profession I thought I was out of it, but 
I'm ready to go back.
    Senator Cochran. Tell us more about this initiative for 
science and technology in the summer, opportunities that will 
provide for young people, Dr. Newman.
    Dr. Newman. The Science and Technology Summer Academy is 
one of the aspects of our proposed Center of Excellence in 
Science and Technology. This is our link to the community and 
to the public schools. And we're working with the areas' 
superintendents, 15 school districts, to develop the academy 
that will provide students with rigorous hands-on learning 
experience in science and technology.
    We are also developing a faculty development program that 
will work with both college professors and public school 
teachers in teaching young people to make learning in science 
and technology exciting. And we feel this will allow us to 
address that great digital divide as we all talk about in terms 
of technology and students who do not have the resources and 
exposure to computers and the kinds of training in sciences.
    We know that many of the area schools do not have qualified 
teachers in math and sciences; so therefore, we feel that we 
have to assist in providing that opportunity for young people 
to have the grounding in that area that will allow them to be 
successful in college.
    Senator Cochran. I think that is an excellent idea and wish 
you well in that new program. We can----
    Dr. Newman. And may I add that we plan to start it this 
summer.
    Senator Cochran. Good, good. Dr. Potter, I was glad that 
you mentioned the arts and education and the Performing Arts 
Center at Delta State University. I don't know of anything 
that's had such an impact in such a short period of time in 
terms of attracting the quality of the performers who have been 
there and the publicity throughout the Delta of the 
availability of arts programs at the Delta State University, so 
I congratulate you for taking full advantage of that and 
enhancing the programs for art education and educating in the 
performing arts there.
    Somebody was pointing out to me the other day that in 
schools where you do not have arts education curriculum in 
music or some of the other arts programs, you don't have near 
the attendance and drop-out prevention success as you do in 
schools that do have those programs, so I'm hopeful that we can 
do that throughout the Delta region, too.
    There may be something we're missing the boat on not 
including, you know, when I started school they had what they 
called public school music. But they had a lot of other things 
that children had an opportunity to do in the arts area. And a 
lot of that is missing in our elementary and secondary schools.
    Is that something that we can work on and improve in our 
State without a whole lot of pain or requirement of Federal 
funding? Can that be done with the State and local funds or do 
we need a federally funded program for that?
    Dr. Potter. There is a State program that we're working in 
collaboration with now called the Whole Schools Program and the 
concept behind that program is that the arts in elementary 
schools are a vehicle or an entry point to stimulate students' 
interests in all subjects, so using the arts as a kind of 
teaching tool for other disciplines I think has a lot of 
promise.
    And we're hopeful, that that program is being hosted at 
Millsaps this summer. We're hoping to host it around the State 
the next summer. And we're talking about having the subject 
matter of that arts education to be the Delta and its history, 
its culture, and heritage so that you're not just using the 
arts as a stimulus, but you're using the actual content of the 
arts to help you better understand their own heritage and have 
pride in that heritage. And that's a program that's run out of 
the Mississippi Arts Commission.
    Senator Cochran. Right now, you know, we have Bill Ferris 
in Washington who's head of the National Endowment for the 
Humanities. And he's a product of Vicksburg, Mississippi, out 
in the country from Vicksburg, Mississippi, as a matter of 
fact.
    And he has a great deal of personal interest in the Delta 
and Delta music and Delta arts and the history of it. And so we 
might be able to take advantage of his position in that spot to 
help enhance teaching and learning opportunities in this area 
as well.
    Well, I think you've all put in perspective the role that 
education particularly can play in helping promote economic 
development and provide the grounding education beginning at 
the kindergarten level where we can improve the opportunities 
of children who have grown up in the Mississippi Delta to take 
advantage of the emerging job opportunities.
    Griffin Norquist points out how manufacturing is now 
becoming a very important part of the Mississippi Delta's 
economy; but if we don't have the students who are competent 
and skilled and trained and motivated and understand what the 
requirements of the workplace are and what the expectations 
are, we're going to miss out on a new growth opportunity for 
our State.
    So I think this panel certainly understands that, but maybe 
promoting this as a way to stimulate the whole State and the 
whole region and all of our schools and universities in the 
State will be a worthwhile thing for us to have done today.
    And that's one of the purposes for having this hearing, to 
try to promote new ways of meeting the challenges that we face 
in our State for economic progress.
    We all want to move forward, but harnessing all of our 
resources, taking advantage of relationships with the Federal 
Government, and our congressional delegations has, being able 
to bring Federal agency people here to get a better 
understanding of what our special needs are and what our hopes 
and aspirations are, I think we would be well served to take 
fuller advantage of these relationships.
    And business and industry leaders are hard at work. I can 
testify to that from my personal meeting yesterday with a lot 
of those leaders in Jackson. And I'm glad to see this new 
initiative of working together, trying to cooperate more, 
setting aside differences of race and culture and background 
and previous experiences, we can pull together and achieve our 
goal for the future. And I'm encouraged and I'm optimistic. I 
think we're on the right track. And we've got a long way to go.
    Like Dr. Thompson said yesterday, but we've come a long 
way. We've achieved a lot of success in this State and it's not 
well known.

                         CONCLUSION OF HEARING

    I appreciate very much the opportunity of being here today 
with our staff and representatives of our committee to hear 
first hand how we can do a better job of supporting the 
initiatives here in our State and particularly the Delta 
region. Thank you very much. The hearing is recessed.
    [Whereupon, at 12:15 p.m., Tuesday, March 14, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
